<html>
<title> - H.R. 39, ARCTIC COASTAL PLAIN DOMESTIC ENERGY SECURITY ACT OF 2003; AND H.R. 770, MORRIS K. UDALL ARCTIC WILDERNESS ACT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
 H.R. 39, ARCTIC COASTAL PLAIN DOMESTIC ENERGY SECURITY ACT OF 2003; 
          AND H.R. 770, MORRIS K. UDALL ARCTIC WILDERNESS ACT

=======================================================================

                       LEGISLATIVE FIELD HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

              Saturday, April 5, 2003 in Kaktovik, Alaska

                               __________

                           Serial No. 108-13

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

86-329              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 5, 2003....................................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     9
    Murkowski, Hon. Lisa, a U.S. Senator from the State of Alaska     9
    Nunes, Hon. Devin, a Representative in Congress from the 
      State of California........................................     8
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     5
        Letter to Representatives Markey and Johnson submitted 
          for the record.........................................    83
    Rehberg, Hon. Dennis R., a Representative in Congress from 
      the State of Montana.......................................     7
    Renzi, Hon. Rick, a Representative in Congress from the State 
      of Arizona.................................................     7

Statement of Witnesses:
    Ahmaogak, Hon. George, Mayor, North Slope Borough............    71
        Prepared statement of....................................    72
    Aishanna, Hon. Herman, City Council Member and Former Mayor, 
      Kaktovik, Alaska...........................................    52
        Prepared statement of....................................    53
    Akootchook, Reverend Isaac, President, Kaktovik Native 
      Village, Kaktovik, Alaska..................................    55
        Prepared statement of....................................    56
    Kaleak, George, Sr., Whaling Co-Captain and Member, Native 
      Village of Kaktovik Council................................    49
        Prepared statement of....................................    50
    Miller, Deborah, Author, Fairbanks, Alaska...................    17
        Prepared statement of....................................    25
    Murkowski, Hon. Frank, Governor, State of Alaska.............     2
    Sonsalla, Hon. Lon, Mayor, Kaktovik, Alaska..................     2
    Tagarook, Hon. George, City Council Member and Former Mayor, 
      Kaktovik, Alaska...........................................    46
        Prepared statement of....................................    47
    Thompson, Robert, Resident, Kaktovik, Alaska.................    10
        Prepared statement of....................................    12
    VanHatten, Morgan, Student, Kaveolook School, Kaktovik, 
      Alaska.....................................................    54
        Prepared statement of....................................    54

Additional materials supplied:
    Glenn. Richard, Vice President of Lands, Arctic Slope 
      Regional Corporation, Statement submitted for the record...    69
    Markey, Hon. Edward and Hon. Nancy Johnson, Letter to Hon. 
      Richard Pombo submitted for the record.....................    81
    Rexford, Fenton O., President, Kaktovik Inupiat Corporation, 
      Statement submitted for the record.........................    66
    Solomon, Jonathon, Chairman, Gwich'in Steering Committee, 
      Fairbanks, Alaska, Statement submitted for the record......    18


  LEGISLATIVE FIELD HEARING ON H.R. 39, ARCTIC COASTAL PLAIN DOMESTIC 
    ENERGY SECURITY ACT OF 2003; & H.R. 770, MORRIS K. UDALL ARCTIC 
                             WILDERNESS ACT

                              ----------                              


                        Saturday, April 5, 2003

                         Committee on Resources

                     U.S. House of Representatives

                            Kaktovik, Alaska

                              ----------                              

    The Committee met, pursuant to call, at 11:43 a.m., in the 
Kaktovik City Center Office, Kaktovik, Alaska, Hon. Richard 
Pombo (Chairman of the Committee) presiding.
    Members Present: Representatives Pombo, Nunes, Renzi, 
Rehberg, and Bordallo.
    Also Present: Senator Lisa Murkowski, Governor Frank 
Murkowski, Mayor Lon Sonsalla, Mayor George Ahmaogak.
    Mayor Sonsalla. Maybe I don't need the mike. I think 
everybody can hear me anyways. So I'd like to welcome 
everybody. We're going to get started here. So find you a 
chair. Relax.
    This is the official hearing of the House Resources 
Committee. I would like to welcome all the guests we have 
today. The Committee members. I'll let them introduce 
themselves when they get started on the hearing part of that 
because I don't remember all their names.
    And we also have Governor Murkowski here. And--right there. 
Mayor Ahmaogak from the North Slope Borough is here.
    Of course, I want to welcome all the elders and the people 
of Kaktovik. And thank you for coming today. As is our 
tradition, we usually start off the meeting with an invocation. 
I would like to ask the Reverend Isaac Akootchook if he could 
do that for us.
    Mr. Akootchook. Hello. Say, I am Inupiat Eskimo. I speak in 
Eskimo. Every time I speak in a prayer to the Lord I would use 
my language because it will never away because God is all 
things in Inupiat person, and that's what I gonna speak it in. 
And that way I'll explain it.
    God is never misunderstanding. In a lot of languages they 
have, all of us always understand it. English is always talk 
about it together. God is always perfect, not us. You know. All 
of us got to help one another. Let us pray.
    (Invocation given in Native language.).
    Mayor Sonsalla. I would like to ask Desiree to lead us off 
in the Pledge of Allegiance. Desiree.
    [pledge of allegiance recited.]

            STATEMENT OF HON. LON SONSALLA, MAYOR, 
                        KAKTOVIK, ALASKA

    Mayor Sonsalla. I just have a few things before we get into 
the official part of the testimony.
    I would like to remind everyone that we need to remember 
our young men and women that are in the military. And we have a 
couple of young men from Kaktovik here that are in the Armed 
Forces and we need to keep them in mind as we are in this 
meeting today.
    Of course, we believe that this hearing is being held in 
Kaktovik to hear the voices of Kaktovik. We are the ones that 
are nearest and dearest to the refuge on a year-around basis. 
This land and these animals that occupy it mean everything to 
us. They define us. We don't leave the humans out of the 
picture.
    People have been living here way before this became the 
state of Alaska and way before the military showed up and took 
some land from people that were living here and installed radar 
installations along the north coast. And way before this place 
was declared a wildlife range.
    And also people have been here way before this was a 
wildlife refuge. And we need to keep that in mind.
    This is why we are glad you're here today, to consult with 
us about the proposal to declare the coastal plain a wilderness 
and another proposal, another bill to open the coastal plain to 
responsible development.
    Survival of people of Kaktovik is of primary importance, 
which is why we've always said if anything happens here within 
our homelands, we want to be involved in the process.
    And also next I would like to introduce Governor Frank 
Murkowski, who we would like to have welcome the crowd here 
today.

         STATEMENT OF HON. FRANK MURKOWSKI, GOVERNOR, 
                        STATE OF ALASKA

    Governor Frank Murkowski. Thank you. Let me acknowledge the 
elders. On behalf of all Alaskans, we thank you for the 
opportunity to appear and make a statement relative to the 
important events at hand.
    Let me also thank the group that has flown up here. I 
recognize that this is a very difficult turnaround in a 
weekend, but as head of the Committee on Resources in the 
House, why, as you know, you have to make the best 
circumstances with the availability of your time.
    I can't think of time more well spent traveling roughly 
6,000 miles to come to about as far north as you can come 
without falling off the top in North America, and expressing, 
if you will, an open ear and an objectivity of the people of 
this area, the North Slope Borough and the community of 
Kaktovik.
    As Chairman of the Committee, why, you have, I think, the 
responsibility of listening to the residents, getting their 
views. And we're most appreciative of you and the other members 
of your Committee from California, Arizona, Guam.
    And I'm very pleased to see Lisa here. We have a 
relationship, as you know. And I don't get to see her very 
often anymore. So Lisa, it's nice to see you, and I trust you 
will have some advice and counsel for me, as well.
    I'm somewhat disappointed that one member of the Committee 
isn't here, Representative Markey, who has made much to do 
about activities on the North Slope. And I hope that he has an 
opportunity and takes the time to read the record of this 
hearing because it's very important.
    What we have here is the opportunity to listen to the 
people of Kaktovik and the North Slope Borough. And the borough 
mayor, my good friend, who is going to be talking to me about 
some issues affecting the life-style of residents in the 
borough a little later.
    But you're going to have an opportunity to hear firsthand 
that the people of this area strongly support the responsible 
development in the coastal plain of ANWR. I'm sure there are 
others who will express their views, as well, and we welcome 
that as part of the democratic process.
    But again, I commend your Committee on your overwhelming 
vote, which you took last week, to include ANWR in the 
comprehensive energy legislation that's now being formulated in 
the House of Representatives. I think it's much to your credit 
that even after the vote, you made a commitment to come up 
here, you've lived by that commitment.
    I think your vote shows that a large portion of the 
Committee understands the importance of responsible oil and gas 
development in Alaska and the contribution it makes to the 
nation, as well. So I'm not going to belabor that issue here.
    However, I don't think we can overlook the reality that as 
we look to the benefits of securing domestic resources of oil 
in our nation and the recognition that at this time, 
coincidentally, we're at war in the Persian Gulf, and much of 
that war is over oil.
    We don't have to look back very many years to remember 
Saddam Hussein when he invaded Kuwait. We don't have to reflect 
very long in the recognition that since that time, we have been 
maintaining a no-fly zone over Iraq until we went into this 
conflict.
    Yet at the same time, we were still buying oil from Saddam 
Hussein. Almost to the insidious, if you will, reflection that 
we buy oil, put it in our airplanes, and then go take out his 
targets. So clearly, it's in the national interest of this 
country to reduce its dependence on areas such as Iraq.
    I think it's important to note that as we look at 
development of oil in Alaska, you might not like oil fields, 
but Prudhoe Bay is the best oil field in the world, and it's 
nearly 35-year-old technology. We've advanced that into 
Endicott where we brought in the tenth largest producing field 
almost 19 years ago, and the footprint was 56 acres.
    Now, we have, as you will see, and the opportunity you will 
have while you're visiting here, to get a little framework on 
the size of Alaska. And I am pleased that we don't have any 
Texans with us, although some may have been born in Texas, I 
have to be a little careful, but we're about two and a half 
times the size of Texas.
    And as a consequence, the relative significance of 
developing the bill that came out of the House of 2,000 acres 
out of 19-million acres is a reference and dimension that I 
think bears some reflection.
    The reality is when you're looking for oil, you want to 
look where you're most likely to find it, and geologists tell 
us that we're most likely to find it in this area of ANWR. It's 
the most promising unexplored petroleum province on the 
continent, and the one with the potential of perhaps 
discovering another large oil field such as Prudhoe Bay.
    On this trip you're going to see for yourselves a small 
footprint of oil development on the Slope is just that, very 
small in relationship to the whole.
    The sign that you saw when you came in here was evidence of 
jurisdiction where, indeed, the Department of Interior has 
control of the 1002 area, the ANWR area, and as a consequence, 
the State of Alaska has a certain sovereign obligation to 
manage this land, as well.
    And we had commitments, as Senator Stevens has mentioned 
time and time again, that the people of Alaska would have a 
major voice in the determination of whether or not ANWR would 
be open. And that process is still going on today.
    I think it's fair to say that as we look at the 
responsibility that we have to maintain our wildlife 
populations that they have been pretty much unaffected by the 
oil exploration development which has occurred here in Alaska 
to date.
    I'm very pleased that you got into Valdez. I was somewhat 
concerned because I've taken five congressional delegations up 
here over the last 22 years, and you're the first one that ever 
got into Valdez on the first try. Most of them had flown up and 
simply decided to abandon it and go someplace else.
    So when I had planned these trips, why, I planned to fly 
into Cordova and then take a smaller airplane and get them out 
of Valdez. But some have said the stars are aligned, and I 
think there's some truth to that.
    But if you look at Valdez, you'll find the finest oil port 
in the world. It's the only oil port in the world that has a 
vapor recovery system when the oil is being loaded on those 
tankers.
    And you saw for yourself the extent of the effort to try 
and insure that an accident such as the Exxon Valdez could not 
happen again, or at least the risk is minimized by the 
tremendous capability and readiness that's in existence there.
    As you will observe when you see the pipeline, you know, 
we've got 800 miles of pipeline that's been one of the 
construction wonders of the world. It's survived earthquakes, 
it's survived bombings, it's been shot at, and it does survive. 
And it moves, of course, at one time nearly 25 percent of the 
total domestic crude oil produced in Alaska.
    So on behalf of Alaskans, I want to thank you for coming. 
Our experience has been that when Members of Congress come to 
our state, see the North Slope, but more importantly, meet the 
people, the real people of the North Slope, they almost always 
conclude that oil development, gas development, and 
transportation can occur safely.
    And my hope is that these realities will become known to 
more, the partisan politics as we've seen it will pass on this 
issue, and that Congress will make the important step of 
passing this comprehensive energy legislation that includes 
ANWR for the benefit of our nation, as well as our state.
    And as we look at the recognition of how long this issue 
has been with us, and the identification of the advanced 
technology that has occurred, why, I think it's fair to say the 
question of safety, the question of oversight, the question of 
our ability as a state to monitor the responsibility we have in 
working with the Federal agencies on the jurisdiction of the 
development of this area, and the recognition that the people 
themselves support.
    You know, I can speak for all residents of Alaska in the 
recognition that Alaskans in rural areas of our state are 
entitled to the same benefits that you take for granted in your 
home state. Whether it's basic comforts: Sewer, water 
facilities, educational opportunities, and the resources 
provide opportunities, jobs, a better life-style, and a better 
future for the children that you see in this audience, the 
beautiful Eskimo children that are looking for a future, as 
well. And there goes one of them right now.
    So as we look at the future of our state and the 
recognition that, to a large degree, the future of our state is 
tied into responsible resource development, the further 
recognition that our nation needs these resources.
    And, you know, one of the things that is noteworthy that 
some of our friends from Washington occasionally forget is you 
don't move in and out of Washington on hot air. That was fuel 
that flew you in today, and fuel that's going to fly you back.
    And as we look at the alternatives to energy, we have lots 
of alternatives, but America and the world moves on oil. We 
have yet to develop another alternative. I hope that we can 
someday.
    But in the meantime, emerging nations are going to require 
more oil, more oil is going to be required to move people 
throughout the world. And the question is, do we want to rely 
on sources such as Iraq, Iran, or other nations that have no 
stability and clearly threaten, if you will, to raise prices to 
a level that oftentimes can affect the standard of living here 
in our nation? I think the answers are obvious.
    So I want to thank all of you for attending today, and I 
look forward to carrying a message back to my cabinet, the 
Legislature, both the House and Senate, of the findings of this 
hearing today. And again, we're most appreciative of your 
visit. So I'll pick up my pen and leave the podium. Thank you.
    Mayor Sonsalla. Thank you, Governor Murkowski. And with 
that, I'll turn the hearing over to Chairman Pombo.

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. Thank you, Mr. Mayor. The hearing will come 
to order.
    Today the Committee is holding a hearing on H.R. 39, a bill 
to authorize environmentally sensitive oil and gas leasing on 
the coastal plain of ANWR, and on H.R. 770, a bill to make the 
coastal plain a wilderness area.
    Under the rules of the Committee, the Chairman is entitled 
to make an opening statement, but I will also allow other 
members of the Committee to make statements if they so wish.
    Witnesses will have 5 minutes to make an oral statement. 
After they are finished, each member of the Committee will have 
5 minutes to ask questions and receive answers to the--from the 
witnesses.
    Let me remind the witnesses that their entire written 
testimony will be included in the record and will become part 
of the official hearing. If you can limit your oral testimony 
to 5 minutes, which will also be included in the record, that 
will help us to keep on time with the Committee hearing here 
today.
    I want to thank the Mayor, the Governor, for welcoming us 
to Kaktovik, to the people who live here for allowing us to 
come in and showing up for the hearing.
    We have spent a great deal of time and many years 
discussing, arguing, debating the merits of ANWR oil and gas 
development, what should happen with this area. Since in the 10 
years that I've been a member of the House of Representatives, 
we've had countless numbers of hearings and debates and bills 
on taking both sides of the issue that have been introduced.
    And I have had the opportunity several years ago to come up 
here. It was a little bit warmer when I was here, but had the 
opportunity to come up here and spend a little bit of time 
getting around, finding out for myself what was here and what 
the risks were, what the opportunities were, and came to the 
conclusion that we could safely go in and explore and look for 
what oil resources were here.
    Some of the other members of the Committee have not had 
that opportunity before, and I made the commitment when I 
became Chairman of this Committee that we were going to spend 
more time getting out of Washington, getting the members out to 
actually meet with people and talk to them, see things for 
themselves, and make up their own minds about what they 
thought.
    Early on in this process this year, I made the decision 
that we were going to come up here and bring as many members as 
who wanted to go up here and give them the opportunity to see 
this for themselves.
    I wanted to again thank the Governor for being here. I know 
that he has an extremely busy schedule, and having the 
opportunity to have him be here and be part of this hearing 
process is important, not only to the people of Alaska, but to 
the members of the House of Representatives and the Senate who 
are here to have the Governor take such an active interest in 
what we're doing.
    I would also like to thank Ms. Drue Pearce, who is with the 
Department of Interior, who came in today, as well, to be with 
us; Mr. Mike Smith, who is the Assistant Secretary of Energy is 
also with us today; and the Director of Fish & Wildlife, Mr. 
Steve Williams, is also here.
    I can tell you that I've had very few field hearings 
anywhere in the country I've gone where the Governor showed up, 
let alone one in such a remote location, and I can't remember 
the last time I had so many high level members of the 
Administration who attended a field hearing such as this. So 
this is a good start, a good day for us to have this hearing.
    So having said that, I would like to ask the other members 
of the Committee if they have an opening statement they would 
like to make at this time. Mr. Rehberg.

   STATEMENT OF THE HON. DENNIS REHBERG, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF MONTANA

    Mr. Rehberg. Thank you, Mr. Chairman. I'm Denny Rehberg and 
I represent the entire state of Montana in the U.S. Congress, 
so our state is much like yours.
    I appreciate the Governor mentioning the fact that what is 
of interest to his administration, and I believe to those of us 
in Congress, is building a more secure future for the people of 
America, and specifically, for your community and your state 
because I represent a rural state much like yours.
    To the mayor, thank you for being here; and Chairman Pombo, 
thank you for putting this together.
    This is my first trip here, although as Lieutenant Governor 
of Montana in 1994, I traveled to Prudhoe Bay and always 
believed that the Federal Government seems to think that the 
sun rises and sets on the Potomac. They write laws that are not 
always unique nor specific to the character of a community.
    And so I take the time to come up here. I'm a strong 
advocate of exploration here and a strong advocate of an energy 
policy. Shame on those politicians that have been in Washington 
for as long as they have with the energy crisis that is being 
created in this country.
    Because ultimately, the day will come when we will not be 
able to fulfill the energy needs of this country if we don't 
have a well-rounded energy policy. We are creating an energy 
debt for future generations. We have to look at a well-rounded 
energy policy.
    So it's my pleasure to be here. I thank you all for showing 
up and giving us your input.
    And Chairman Pombo, again, thanks for giving me the 
opportunity to be on your trip.
    The Chairman. Mr. Renzi.

STATEMENT OF THE HON. RICK RENZI, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Renzi. Thank you Chairman.
    My name is Rick Renzi from Flagstaff, Arizona. I want to 
thank you so very much for your hospitality for allowing us to 
come to your beautiful town.
    I am fortunate enough to be on this Committee with Chairman 
Pombo. This is the second time we've had a field hearing in 
less than a month. Chairman Pombo was kind enough to come out 
to Flagstaff, Arizona, where we have one of the largest stand 
of Ponderosa pine trees in America and we went through and 
looked at the needs of that community as it relates to 
controlling fire.
    So it's a privilege to be with you here and now learning 
about and discussing the issues as it relates to the 
possibility of drilling here at the Refuge.
    I want you to know that I've come here very much with an 
open mind. We've had a chance to learn and understand a lot of 
the facts, and I've listened to a lot of the witnesses in 
Washington D.C. There will be a vote probably next week or the 
week after on this bill.
    I also want you to know I very much love the language that 
our Chairman has inserted in this bill. And I just take a 
moment to read one piece of it to you: In that anything we do, 
we must do together. Anything that we do with you, must be in 
harmony and a holistic approach with the land.
    Section 3 of H.R. 39 requires the secretary to insure that 
oil and gas explorations development and production activities 
on the Coastal Plains will result--not ``may'' result, but 
``will'' result in no significant adverse effect on Fish & 
Wildlife in their habitat. Including the substantial resources 
that they need in order to survive.
    This is the highest legal standard that we can impose in 
any law. We're giving you the protection, we're giving you the 
words, we're giving you the legal protection to now work with 
us and make sure that any of the gas or oil companies that come 
in here must use the highest available commercial technology 
available, must use the best technology, and they must leave 
the land as they found it.
    These are the three pillars of this legislation. Working 
with you, leaving the land as they found it, no impact on the 
wildlife. And so there are no greater, higher standards from a 
legal standpoint, to begin with, than from this point.
    And so I want to thank the Chairman for inserting that 
language. It truly is a historic point to begin from, and I 
look forward to the testimony.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Renzi. Mr. Nunes.

STATEMENT OF THE HON. DEVIN NUNES, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Nunes. Thank you, Mr. Chairman. My name is Devin Nunes. 
I am from the Central San Joaquin Valley of California. It's a 
pleasure to be here on my first trip to Alaska. It's pretty 
warm outside in comparison to California. If the wind was 
blowing a little bit more, it might be a little colder. But I 
am enjoying it.
    And I want to thank the Governor, the Senator, all the 
local elected officials and the community folks who have showed 
up here today to give testimony so that we can go back to 
Washington and relay your messages to the of the U.S. Congress.
    I hope from gathering this testimony today we will be 
successful next week in passing this much needed legislation on 
the floor of the House.
    Thank you again, Mr. Chairman, for preparing this trip for 
us, and I look forward to the testimony.
    The Chairman. Ms. Bordallo.

    STATEMENT OF THE HON. MADELEINE BORDALLO, A DELEGATE IN 
              CONGRESS FROM THE TERRITORY OF GUAM

    Ms. Bordallo. Thank you very much, Mr. Chairman, Governor, 
and Mayor, and people of this region. I want to thank the 
Chairman for inviting me on this trip as it has been a real 
education for me.
    I represent the territory of Guam. It's a small island in 
the Pacific where the temperatures range from 75 to 95 the year 
around. So this is just about as cold and as opposite to my 
living conditions as anyone here on the panel.
    But I have been enthralled with the beauty of your state. I 
just--it's awesome. And I will always remember this. And I 
thank you, Mr. Chairman, for giving me this opportunity.
    I think what's important here is the Chairman has called 
the residents together. And in any legislation that is ever 
passed, it's important that you get the input from the 
residents.
    And the other point I want to make is that there has come a 
time now when we are currently in the midst of a war, and this 
war, the root of it, is over oil. And I think that it's time 
that we look at our own resources and begin to develop them. 
And that's why we're here today. As long as it's done 
environmentally safe for everyone in the region.
    So that's one thing, Mr. Chairman, I'm very pleased that 
you did call the residents together because it's important that 
we get your input, as well. Thank you very much.
    The Chairman. And thank you.
    We also have with us the Senator who represents this state 
in the U.S. Congress, Senator Murkowski, and I would like to 
ask unanimous consent that she be allowed to sit on the dais 
and participate in this hearing today. Hearing no objection, so 
ordered.
    Senator, if you would like to make an opening statement, I 
would recognize you at this time.

  STATEMENT OF THE HON. LISA MURKOWSKI, A SENATOR IN CONGRESS 
                    FROM THE STATE OF ALASKA

    Senator Murkowski. Thank you, Chairman Pombo. And thank you 
for allowing me the privilege to be with you on this trip, to 
come back to my home state, even if just for literally a few 
hours.
    It's important for me to be here to listen to the people of 
Kaktovik. I've not had the opportunity to meet a lot of you, 
and so for me to be here today, to hear and to understand, to 
listen, is critical, as I am back in Washington, D.C. to 
represent you.
    So Mr. Chairman, I will probably be relatively quiet during 
this panel this afternoon because I do want to hear the 
comments from the people of Kaktovik. I would like to have the 
opportunity afterwards to talk to you individually, if you 
would like to give me your input there.
    But what is happening back in Washington as it relates to 
your area, your community, is very, very significant. And it is 
important that we have this communication, that I can go back 
an stand on the floor of the U.S. Senate and tell the people 
that I'm speaking to, my colleagues, how critical, how 
important, and what it means to you, the residents, to have 
ANWR, to have it, the 1002 coastal plain open and available for 
drilling.
    So I'm here to listen. I appreciate the hospitality from 
all.
    Thank you, Mr. Mayor, and Mayor Ahmaogak, thank you for 
making this available to us today. I look forward to comments.
    The Chairman. Thank you. I would like to invite our first 
panel to come sit. Ms. Debbie Williams, and Mr. Robert 
Thompson, if you would join us at the witness table. If you 
would just remain standing briefly.
    It is the policy of the Committee to swear in all 
witnesses, so I would ask you to stand and raise your right 
hand.
    [witnesses sworn.]
    The Chairman. Let the record show that they both answered 
in the affirmative.
    If I may, could the other gentleman identify himself for 
the record?
    Ms. Miller. Yes. Can you hear me on this?
    The Chairman. We can hear you.
    Ms. Miller. This is Richard Fineberg from Fairbanks, and he 
has come up to assist me with showing some photographs for the 
Committee.
    The Chairman. OK. Mr. Fineberg will not be testifying? He's 
just sitting there?
    Ms. Miller. No. Just helping me.
    The Chairman. All right. As I said in the opening, we are--
the oral testimony is limited to 5 minutes. Your entire written 
testimony will be included in the record.
    And I see that you both have submitted written testimony. 
That will be included in the record in its entirety.
    The lights in front of you here will guide you as far as 
the timing. The green light is on during your presentation, the 
yellow light comes on when to sum up your presentation, you 
have a minute remaining when the yellow light comes on, then 
the red light comes on, if you could finish at that point.
    Welcome to the hearing. I'm going to start with Ms. 
Williams, I believe.
    Ms. Miller. Actually, my name is Debbie Miller.
    Mr. Fluhr. I apologize.
    Ms. Miller. There is a Deborah Williams. Sorry for the 
confusion.
    The Chairman. I apologize for that.
    Ms. Miller. If I can ask the Chairman, since I am the only 
person testifying today that is not a resident of Kaktovik, I 
live in Fairbanks, I think it's more appropriate that you hear 
from Robert Thompson, who does live in Kaktovik, as a courtesy. 
Is that--
    The Chairman. Yeah. I can--I can start with Mr. Thompson. 
That's fine. I have no problem with that.
    Ms. Miller. Just a courtesy, I'm not a resident here, and 
you've just said you want to hear from the residents, so--
    The Chairman. We will start with you then, Mr. Thompson.

   STATEMENT OF ROBERT THOMPSON, RESIDENT OF KAKTOVIK, ALASKA

    Mr. Thompson OK. My name is Robert Thompson, I'm a resident 
of Kaktovik. I first came to Kaktovik 30 years ago and I have 
lived here the past 15 years. I've hunted the area under 
consideration, and I've traveled extensively throughout the 
1002 area while doing the activity I do for a living, which is 
wilderness guiding.
    I recently guided a photographer, Subhankar Banerjee, while 
he collected photographs for his book--you have copies here--
Arctic National Wildlife Refuge, Seasons of Life. It's a photo 
essay about the refuge.
    I'm very much opposed to H.R. 39 and support of H.R. 770 
for the following reasons: Oil development will cause 
irreparable damage to the culture of my people, for now and the 
future generations.
    The 1002 area of Arctic National Wildlife Refuge was set 
aside for evaluation as to whether or not it could be used for 
oil exploration without degradation to the environment. 
Geological reports indicate that the potential oil deposits 
within the general area are scattered, possibly over the whole 
area from the Canning River to the Aichilik.
    Directional drilling has been cited to be the answer. Small 
footprints, forces state. This is true at Prudhoe Bay where the 
oil is in large pools. However, where these pools are many and 
scattered, this will have little beneficial effect. It is 
estimated that 350 miles of pipe or more would be needed. It's 
not a small footprint.
    The supporters of drilling cite new technology, ice roads. 
If ice roads are used, there are large areas of the Refuge 
where water is not available to construct these.
    The Environmental Impact Statement produced in 1987 is 
outdated. The effects relating to global warming are not 
considered. Cumulative effects are not considered to the 
environment and to the people. The noise pollution, due to 
increased use of aircraft, is not considered. I've heard 
helicopters from as far as 40 miles away.
    The recent effect relating to global warming to the musk-
ox, caribou, and polar bears are not considered. These effects 
are quite dramatic. There are approximately 50,000 less caribou 
now than there were several years ago. There's 300 less musk-
ox. I think we are down to about 27 musk-ox. Polar bears must 
remain on the land for longer periods at a time due to less ice 
in the global warming.
    Mention is made of attention to the environmental concerns 
during the exploratory phase; however, no safeguards are in 
place for the production phase. If adverse effects to animals 
are observed once production is started, the infrastructure 
will not be removed.
    This is my opinion and has concurrence in a report 
requested by Republican Supporters of Drilling the Arctic 
National Wildlife Refuge. The requested report was produced by 
the National Research Council.
    The mayor of the North Slope Borough, George Ahmaogak, has 
expressed adverse concerns relating to oil development. I have 
got an attachment.
    In his statement before the National Research Committee, 
Mr. Ahmaogak stated, our people have seen access to traditional 
subsistence hunting areas reduced, the behavior and migratory 
patterns of key subsistence species has changed, increased 
incidence of cancer and other serious health ailments, 
disruption of traditional social systems, and vastly increased 
requirements in time, effort, and funding to meaningfully 
consider and respond to the ever multiplying number of projects 
proposed in our back yards.
    It is important to a lot of people that there are 
undisturbed places left in the world. There are a lot of parks 
and undisturbed areas in Alaska; however, the 1002, along with 
the entire Arctic National Wildlife Refuge, is the only arctic 
ecosystem with a complete range of arctic habitats and wildlife 
that will be considered to be safe for future generations.
    The Congressional Delegation of Alaska has led people to 
believe that the pipeline is in danger of running out of oil to 
keep it operational. They say it is only half full. The 
pipeline permit was recently renewed for 30 more years. Prior 
to the renewal, it was determined that there is a 30-year 
supply at the present, or even higher rate of production.
    West Sak alone has possibly as much as 60 billion barrels. 
It is generally accepted that there are 14 billion barrels. The 
oil companies have stated in public ads that they have 
developed technology to recover this.
    I heard the supporters of drilling call our land a 
moonscape and say it is a white sheet of paper, like a white 
sheet of paper 9 months of the year, and call it good-for-
nothing land. They just say the land is good only for oil 
drilling.
    To them it may be that, but to me and the majority of 
Americans, it has intrinsic value, value that cannot be 
replaced by money. Once it is gone, it is gone forever. Our 
culture is tied to the land. I am in favor of wilderness 
designation.
    With wilderness designation, we will be sure of the ability 
to continue our traditional activities as provided in ANILCA. 
If an oil field is allowed to be put in the wildlife refuge, 
the cultural thread will be broken, there will be many areas 
where we will not be allowed to hunt, and possibly not even to 
access. If an oil field is there, we would not want to hunt 
there if allowed.
    It is my sincere wish that the area remain as it is in a 
wildlife refuge with wilderness status for future generations 
to enjoy and to be able to continue our culture. The seventh 
generation in the future should have what we enjoy.
    The Chairman. Thank you, Mr. Thompson.
    [The prepared statement of Mr. Thompson follows:]

             Statement of Robert Thompson, Kaktovik, Alaska

    My name is Robert Thompson. I'm a resident of Kaktovik. I first 
came to Kaktovik 30 years ago and have lived here for the past 15 
years. I hunt in the area under consideration and have traveled 
extensively throughout the 1002 area while doing the activity I do for 
a living, wilderness guiding. I recently a photographer, Subhankar 
Banerjee while he collected photographs for his book ``Arctic National 
Wildlife: Seasons of Life and Land,'' a photo essay publication about 
the refuge.
    I am very much opposed to H.R. 39 and in support of H.R. 770 for 
the following reasons: Oil development will cause irreparable damage to 
the culture of my people for now and for future generations.
    The 1002 area of the Arctic National Wildlife Refuge was set aside 
for evaluation as to whether or not it could be used for oil 
exploration without degradation to the environment. Geological reports 
indicate that potential oil deposits within the 1002 area are scattered 
possibly over the whole area from the Canning River to the Aichilik. 
Directional drilling has been cited as to the answer, a small foot 
print the pro-drilling forces state. This is true at Prudhoe Bay where 
the oil is in large pools, however where the pools are many and 
scattered, this will have little beneficial effect. It is estimated 
that 350 miles of pipe, or more, will be needed. This is not a small 
footprint. The supporters of drilling cite new technology, ice roads. 
If ice roads are used there are large areas of the refuge where water 
is not available.
    The environmental impact statement produced in 1987 is outdated. 
Effects relating to global warming are not considered. Cumulative 
effects are not considered to the environment and to people. The noise 
pollution due to increased use of aircraft is not considered. I have 
heard helicopters from 40 miles away.
    The recent effects relating to global warming on the musk-ox, 
caribou and polar bears are not considered. These effects are quite 
dramatic. There are approximately 50,000 less caribou, 300 less musk-
oxen, and polar bears that must remain on land for longer periods of 
time due to less ice because of global warming. Mention is made of 
attention to environmental concerns during the exploratory phase, 
however no safeguards are in place for production. If adverse effects 
to animals are observed once production has started, the infrastructure 
will not be removed.
    This is my opinion and has concurrence in a report requested by 
Republican supporters of drilling in the Arctic National Wildlife 
Refuge. The requested report was produced by the National Research 
Council. \1\
---------------------------------------------------------------------------
    \1\ National Research Council. Cumulative Environmental Effects of 
Oil and Gas Activities on Alaska's North Slope. March 2003.
---------------------------------------------------------------------------
    The Mayor of the North Slope Borough, George Ahmaogak, has 
expressed adverse concerns relating to oil development (see 
attachment). In his statement before the National Research Committee 
Mr. Ahmaogak stated:
        ``Our people have seen access to traditional subsistence 
        hunting areas reduced, the behavior and migratory patterns of 
        key subsistence species changed, increased incidence of cancers 
        and other serious health ailments, disruption of traditional 
        social systems, and vastly increased requirements in time, 
        effort, and funding to meaningfully consider and respond to the 
        ever-multiplying number of projects proposed in their own 
        backyards.''
    It is important to a lot of people to know that there are 
undisturbed places left in the world. There are a lot of parks and 
undisturbed areas in Alaska, however the 1002 area along with the 
entire Arctic National Wildlife Refuge is the only Arctic ecosystem, 
with a complete range of arctic habitats and wildlife, that will be 
considered to be saved for future generations.
    The Congressional delegation of Alaska has led people to believe 
that the pipeline is in danger of running out of oil to keep it 
operational, they say it is only half full. The pipeline permit was 
recently renewed for 30 more years. Prior to the renewal it was 
determined that there is a 30-year supply at the present or even higher 
rate of production. West Sak alone has possibly as much as 60 billion 
barrels--it is generally accepted that there are 14 billion barrels. 
The oil companies have stated in public ads that they have developed 
technology to recover this.
    I have heard the supporters of drilling call our land a moonscape 
and say it is like a white sheet of paper 9 months of the year and call 
it a good for nothing land, good only for oil drilling. To them it may 
be that, but to me and the majority of Americans it has intrinsic 
value, value that cannot be replaced by money. Once it is gone, it is 
gone forever. Our culture is tied to the land. I am in favor of 
wilderness designation. With wilderness designation we will be assured 
of the ability to continue our traditional activities as is provided by 
ANILCA. If an oil field is allowed to be put in the wildlife refuge the 
cultural thread will be broken, there will be many areas where we will 
not be allowed to hunt in and possibly not even be able to access. If 
an oil field is there we would not want to hunt there even if allowed.
    It is my sincere wish that this area remain as it is, in a wildlife 
refuge with wilderness status, for future generations to enjoy and to 
be able to continue our culture. The seventh generation in the future 
should have what we enjoy.

 Statement of the North Slope Borough by Mayor George N. Ahmaogak, Sr. 
  Before the National Research Council Committee for the study of the 
   cumulative effects of Alaskan North Slope oil and gas activities. 
                            January 8, 2001

Excerpts
Impacts
    (p.8) ``Our people have seen access to traditional subsistence 
hunting areas reduced, the behavior and migratory patterns of key 
subsistence species changed, increased incidence of cancers and other 
serious health ailments, disruption of traditional social systems, and 
vastly increased requirements in time, effort, and funding to 
meaningfully consider and respond to the ever. multiplying number of 
projects proposed in their own backyards.''
    (p. 10) ``Our residents will tell you that anxiety over increasing 
offshore and onshore oil and gas activity is widespread in North Slope 
communities. Hunters worry about not being able to provide for their 
families or the added risk and expense of doing so if game is more 
difficult to find and harvest.
    (p. 15) ``The people, wildlife and environment of the North Slope 
are being adversely affected by oil and gas activities.''
    (p. 13) ``Our residents are increasingly concerned about the. 
health of the entire arctic ecosystem, including the quality of the air 
we breathe and the conditions of the animals we consume for food. 
Residents of some of our communities complain of an increased incidence 
of respiratory ailments, and point to a more visible ``arctic haze'' 
with alarm. Subsistence foods show increasing concentrations of heavy 
metals and other toxins. A warming climate has already reduced the use 
of ice cellars dug into the permafrost for food storage in some 
communities, and may affect the populations of some arctic species.
    (p. 13) ``On land, our primary concerns is the displacement of 
wildlife, especially caribou and waterfowl, from key habitat areas as 
industrial facilities expand in all directions from the core complex at 
Prudhoe Bay/Kuparuk. We are also concerned with restrictions on the 
free movement of wildlife to feeding, nesting, brooding, molting, 
insect relief, and other essential areas resulting from the ever-
expanding web of pipelines, roads, and other facilities. We recognize 
that the increased use of ice roads and ice drilling pads [for 
exploration] minimizes impacts to the tundra. We also have a growing 
concern, however, regarding the dramatically escalating use of fresh 
water from lakes and rivers which provide essential habitat for 
important subsistence and other fish species. Native allotment holders 
also expressed concerns regarding restrictions on access to their 
traditional hunting areas, a displacement of game from those areas, and 
disruption of the ability to harvest resources within broader 
traditional hunting areas around their holdings.''
    (p. 13-14). ``In recent years, some community residents have 
reported a decline in participation in some whaling activities 
(hunting, landing, and butchering the whale). A significant factor 
mentioned by some as a major cause is the socio-cultural disruption 
resulting from people being worried a bout offshore activity and its 
effect on the bowhead whale and the fall hunt. The Borough and the AEWC 
[Alaska Eskimo Whaling Commission] have asserted for several years to 
the responsible agencies that community-wide stress, associated with 
increasing industrial activity on the North Slope, and the barrage of 
an overwhelming number of industry-related documents to review and 
meetings to attend, is having on-going socio-cultural effects.''
    (p. 7-8) ``The devastation that would result from a major oil spill 
is something that no one wants to deal with. That of course means that 
we should do all we can to prevent a spill... We have asked for years 
for a realistic demonstration of the oil industry's abilities to deal 
with a spill under the difficult conditions which exist offshore much 
of the time in the central Beaufort Sea. We have yet to see such a 
demonstration, and remain unconvinced that a significant spill could be 
effectively responded to in anything but near ideal conditions.
                                 ______
                                 
    [Attachments to Mr. Thompson's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T6329.001
    
    [GRAPHIC] [TIFF OMITTED] T6329.002
    
    [GRAPHIC] [TIFF OMITTED] T6329.003
    

    The Chairman. Ms. Miller.

             STATEMENT OF DEBORAH MILLER, AUTHOR, 
                       FAIRBANKS, ALASKA

    Ms. Miller. Thank you. Thank you so much for coming to 
Kaktovik, Mr. Chair, members of the Committee, Senator 
Murkowski, welcome to your first field hearing in the Far North 
as a Senator, and Governor Murkowski.
    I have to turn around and I have to say this is the third 
time now that I've actually testified, twice before the Senate 
Energy Resources Committee in front of Senator--then Senator 
Murkowski, Governor, and now it's wonderful to have you here, 
as well. I am not a resident of Kaktovik and I am honored to be 
here.
    I used to teach school and live in Arctic Village, which is 
on the southern edge of the Arctic Refuge. I'm disappointed, 
actually, that you couldn't find time on this trip to visit 
this village because those people directly depend on the 
Porcupine caribou herd, and this is the birthplace for that 
herd. It has sustained their culture for over 10,000 years, 
these people that live on the border of the Arctic Refuge.
    So I would urge the Committee to visit the village at some 
point for a fact-finding trip to learn about their culture and 
how they depend on these resources in Arctic Village.
    I was asked to hand deliver testimony from the Gwich'in 
Steering Committee. I would like to enter that into the record.
    The Chairman. Without objection, it will be included into 
the record.
    [The statement submitted for the record by the Gwich'in 
Steering Committee follows:]

 Statement of Jonathon Solomon, Chairman, Gwich'in Steering Committee, 
                           Fairbanks, Alaska

    As Chairman of the Gwich'in Steering Committee, I would like to 
take this opportunity to thank the Chairman and his colleagues for 
allowing me to submit the following written testimony on behalf of the 
Gwich'in Nation. We urge you to visit our communities to better 
understand our perspectives on this issue, and to hold an additional 
field hearing there as well.
    The Gwich'in Nation opposes H.R. 39, which would open the coastal 
plain of the Arctic National Wildlife Refuge to oil and gas exploration 
and development because it threatens our way of life. We support H.R. 
770, the Arctic Wilderness Act that would designate the Federal lands 
of the ``1002 area'' of the Arctic Refuge as wilderness in order to 
protect the subsistence resources we depend on.
    To place this testimony in proper context, I will present a brief 
summary of who the Gwich'in people are and why we have a vested 
interest in preserving this sacred area.

The Caribou People
    The Gwich'in Nation is comprised of approximately 7,000 people 
residing in fifteen isolated villages throughout northeast Alaska and 
northwest Canada. For thousands of generations our ancestors lived in 
the areas near to what is now known as the Arctic National Wildlife 
Refuge. Our communities have a sacred and long-standing relationship 
with the local resources of this region, namely the Porcupine Caribou 
Herd. The caribou have long been the principal means by which the 
Gwich'in people meet our essential cultural, physical, economic, 
social, and spiritual needs. In this regard, reliance on traditional 
and customary use (now termed ``subsistence'') of the Porcupine Caribou 
Herd is, and always has been, a matter of survival.
    Gwich'in communities today continue to live a subsistence-based 
lifestyle relying on traditional foods to make up roughly 70% of our 
overall diet. We have a contemporary hunting culture with traditional 
ties to the animals and the land. As we are one of the last indigenous 
peoples in the world to maintain an intact subsistence cycle, the 
Gwich'in feel we have an obligation to uphold the integrity of our 
ancestral way of life. Since there is no alternative to Gwich'in 
subsistence livelihood, our communities have a unified longstanding 
position to protect the Porcupine Caribou, upon which our culture 
depends.
    In addition to the importance of the caribou to our physical well 
being, the caribou is also central to Gwich'in spirituality and 
traditional belief systems. According to our Creation story, the 
Gwich'in originated from the caribou at the time when there was a 
separation of humans and animals. We have been told that there was an 
agreement between the caribou and the Gwich'in and from that time on, 
``'the Gwich'in would retain a part of the caribou heart and the 
caribou would retain a part of the Gwich'in heart''. This is why the 
Gwich'in believe so strongly that the future of the caribou and the 
future of the Gwich'in are one and the same. It is in honor of this 
reciprocal relationship that Gwich'in feel we have an obligation to our 
future generations to uphold the integrity of our spiritual beliefs as 
well as our way of life that has been handed down from one generation 
to the next. Since protecting the Porcupine Caribou Herd and their 
vital habitat is inseparable from the above stated aim, our communities 
are committed to seeking permanent protection for the primary 
birthplace and nursery ground of the Porcupine Caribou Herd.
The Sacred Place Where Life Begins, ``Izhik Gwats'an Gwandaii Goodlit''
    For millennia, the Porcupine Caribou Herd (North America's largest 
international herd) has used the coastal plain as their primary calving 
and nursing grounds. Each April, the Porcupine Caribou Herd migrates 
over 1,400 miles across Alaska and Canada to the coastal plain where 
they typically give birth to 40-50,000 calves. The coastal plain 
provides an ideal environment for birthing cows as it has comparatively 
fewer insects and predators than other surrounding regions. The land 
within the coastal plain also offers a unique concentration of 
vegetation that supplies the cows and calves with the nutrition they 
need to prepare for the long migration to their wintering grounds.
    In addition to being the primary birthplace and nursery for the 
Porcupine Caribou Herd, the coastal plain of the Arctic Refuge is a 
nesting area for over 135 species of migratory birds, home to 34 
species of fish, a terrestrial denning area for polar bears, and a 
year-round home to the prehistoric musk oxen. The Arctic National 
Wildlife Refuge contains the greatest diversity of animal life of any 
conservation area in the circumpolar region. The coastal plain of the 
Arctic Refuge, where oil drilling has been proposed, is home to the 
largest concentrations of wildlife in the Refuge. The bio-diversity of 
the coastal plain is so great in fact that the Gwich'in have long 
referred to the area as ``Izhik Gwats'an Gwandaii Goodlit'', The Sacred 
Place Where Life Begins.

The Arctic National Wildlife Refuge
    The Arctic National Wildlife Refuge was established under the 1980 
Alaska National Interest Lands Conservation Act (ANILCA) with the 
specific purposes of conserving fish and wildlife populations 
(including the Porcupine Caribou Herd) and their habitats in their 
natural diversity, fulfilling international treaty obligations, and 
providing for subsistence uses. Over time, Congress enacted legislation 
to expand the acreage within the Arctic National Wildlife Refuge.
    The following list highlights several of those noteworthy 
legislative acts:
    <bullet> 1960--President Eisenhower established the Arctic 
National Wildlife Range, which included the coastal plain lands.
    <bullet> 1980--The Alaska National Interest Lands Conservation Act 
(ANILCA) doubled the size of the Range to 19 million acres to include 
most of the Porcupine Caribou Herd U.S. winter range, and renamed it 
the Arctic National Wildlife Refuge designating all of the original 
range except the 1.5 million acre coastal plain area as wilderness.
    <bullet> 1980--Congress mandated further studies of wildlife and 
wilderness values and oil &gas potential in what became known as the 
1002 area for the section of law requiring them. But Congress 
explicitly prohibited oil and gas leasing and development in the 
coastal plain at that time.
    Proposed oil development is contrary to the fundamental purposes of 
for which the Arctic Refuge was created.

ANCSA & its Relation to the Oil Industry
    The discovery of oil at Prudhoe Bay in 1968 established an 
alignment of the oil companies and the Federal Government to promote 
their combined economic interests. This alliance provoked an urgency to 
settle the land claims in Alaska in order to provide a right of way for 
the Trans-Alaska Pipeline to access our land's resources. Consequently, 
the Alaska Native Claims Settlement Act of 1971 (ANCSA) was enacted and 
most Native lands became the ``corporate assets'' of the newly created 
for-profit Native Regional and Village corporations. Two Gwich'in 
villages, Arctic Village and Venetie, were among the few Alaska Native 
villages that opted out of ANCSA and chose to keep title to their 
lands.
    The lasting effect of ANCSA has been to fundamentally alter the 
ways in which Alaskan Natives relate to the land as well as how they 
relate to one another. By artificially dividing Alaskan Native groups 
and establishing these for-profit corporations, many Native signatories 
to ANCSA were compelled to give multinational companies access to their 
lands in order to merely keep their corporations afloat. Generating 
profit quickly became a principal objective for most Native 
Corporations, including the Arctic North Slope Regional Corporation 
(ASRC) which is the corporation that represents the Inupiat people of 
the North Slope. Within the past few decades, the ASRC has leased much 
of their lands to oil companies and have benefitted tremendously from 
the profits derived from oil revenues. A primarily marine-based 
culture, the Inupiat have less to lose if on-shore development 
adversely affects the local wildlife and lands.
    Though there is a major difference in the position of the Gwich'in 
Nation and the Inupiat Corporations regarding oil development in the 
coastal plain, our Elders advised us long ago to always respect our 
neighbors to the north regardless of their political stance on this 
issue. Our Elders directed us to approach our campaign ``in a good 
way'' and therefore we make the effort to conduct ourselves in a 
respectful manner when we discuss the difference of opinion between the 
Kaktovik Inupiat Corporation, Arctic Slope Regional Corporation and the 
Gwich'in Nation. We honor the fact that the relations between the 
Inupiat and the Gwich'in extend back thousands of generations as our 
ancestors were once close trading partners. Our people want to continue 
to maintain good relations with the people of Kaktovik and one way we 
feel we can accomplish this is by supporting them in their opposition 
to off-shore development. We recognize the fact that the mighty bowhead 
whale symbolizes the Inupiat way of life, and therefore we take the 
position that offshore development poses similarly avoidable threats to 
the marine wildlife and the Inupiat culture.
    Much like the Inupiat, the Gwich'in have the inherent right to 
continue our cultural way of life, and this right is recognized and 
affirmed by civilized nations in the international covenants on human 
rights. Article 1 of both the International Covenant of Civil and 
Political Rights, and the International Covenant on Economic, Social 
and Cultural Rights reads in part:
        ``...In no case may a people be deprived of their own means of 
        subsistence.''
    Recent efforts to expand oil and gas development into the coastal 
plain pose a considerable threat to the future health and productivity 
of the Porcupine Caribou Herd. The Gwich'in Nation feels that as an 
indigenous group that has lived here for thousands of years, we 
understand that there are some places and times where the animals must 
not be disturbed. The most important of these areas is the caribou 
birthplace and nursery grounds. This place was set aside by the Creator 
as a place that brings forth life and as such, it deserves to be 
respected as a sacred place. Our Elders have known this for generations 
and we have traditional laws against disturbing birthplaces, spawning 
areas, nesting areas and denning areas. To the Gwich'in, the Arctic 
Refuge represents a spiritual umbilical cord for the animals that 
depend upon it to drop their young. In an effort to honor and uphold 
the wisdom of our ancient spiritual laws, the Gwich'in have pressed to 
obtain broader recognition of our cultural and spiritual rights. We are 
supported in this effort by many organizations including the House of 
Bishops and the Episcopal Diocese of Alaska.
        ``This issue is so important to the Church because it is both 
        an environmental issue and a human rights issue. Oil 
        exploration threatens both the Arctic National Wildlife Refuge 
        and the Gwich'in People. We cannot accept development at the 
        expense of the Refuge and the Gwich'in. In this regard, this 
        Porcupine Caribou Herd is to our generation what the Buffalo 
        was to an earlier generation: Will greed triumph over our 
        deepest values as a people. Will we trade our values and 100 
        years of moral development for a few days of profit? Our 
        heritage of faith, freedom, and fairness demand more. We must 
        stand with the Gwich'in against oil development.''
        --Bishop Mark McDonald, Episcopal Diocese of Alaska
Gwich'in Nation Takes a Stand
    In 1988, the increasing threat of proposed oil development on the 
coastal plain of the Arctic National Wildlife Refuge led our Elders to 
call on the Chiefs to hold a traditional gathering Gwich'in Niintsyaa, 
to discuss this threat and make a decision for the future of our 
Nation. The Gwich'in Niintsyaa, which was held in Arctic Village, was 
the first reunification of the Gwich'in Nation in over a century. We 
addressed the issue in our traditional way and agreed unanimously to 
speak with one voice in opposing oil development on the coastal plain 
of the Arctic National Wildlife Refuge. Our Elders advised us to adopt 
this political position and work to educate the public and decision-
makers of the reasons this sacred area must be protected.
    The Gwich'in have therefore resolved to press the United States 
Congress to prohibit oil exploration and development in the calving and 
post-calving grounds of the Porcupine Caribou Herd, and that the public 
lands in the Arctic National Wildlife Refuge ``1002 area'' be 
designated as Wilderness to achieve this goal.
Oil Development Harms Caribou & other Wildlife
    The Department of the Interior's 1987 Coastal Plain Resource 
Assessment clearly documented major impacts to wildlife from proposed 
oil development including:
    <bullet> Displacement and reduction of wildlife populations 
including muskox and Porcupine caribou.
    <bullet> Permanent loss of habitat.
    <bullet> Increased noise and other disturbance factors.
    <bullet> Major effects on subsistence and subsistence lifestyle.
    A 2002 study by U.S. Geological Survey biologists reconfirmed what 
most scientists and scientific organizations have been stating for 
years: the coastal plain ``1002 area'' of the Arctic Refuge provides 
important wildlife habitat, and industrial development of this area 
poses significant risks to caribou and other species. Most 
significantly, the report concluded that the oil facilities at Prudhoe 
Bay have displaced female caribou from their previously preferred 
calving habitat, and that similar displacement is likely to result if 
oil development is authorized in the Arctic Refuge.
    According to the 2002 U.S. Geological Survey study (Arctic Refuge 
Coastal Plain Terrestrial Wildlife Research Summaries. Biological 
Science Report), caribou use of the oil field region at Prudhoe bay has 
declined considerably from that noted during the 1970's. Caribou 
abundance within the main industrial complex as well as east-west 
movements through that area were significantly lower than for other 
areas occupied by caribou along the arctic coast. Conservative 
calculations yielded an estimated 78% decrease in use by caribou.
    There was a demonstrated shift of concentration calving in the 
areas of the Central Arctic caribou herd away from petroleum 
development infrastructures. It is assumed that the Porcupine Caribou 
Herd will avoid roads and pipelines during calving in a manner similar 
to the Central Arctic herd if development in the 1002 area occurs. 
Avoidance of petroleum development infrastructure during parturient 
[birthing] caribou during the first weeks of the lives of calving is 
the most consistently observed behavioral response of caribou to 
development
    The coastal plain of the Arctic National Wildlife Refuge is too 
fragile to withstand the disturbances associated with development 
activities. Since 1996, the Prudhoe Bay oil fields and the Trans-Alaska 
Pipeline have caused an average of over 400 spills annually on the 
North Slope--most commonly spills of diesel and crude oil. Whether 
those spills were caused by an accident or faulty maintenance, the 
biological balance of the Arctic Refuge coastal plain is too delicate 
to be put at such risk. There is no technology available that would 
provide optimum safety for the Porcupine Caribou Herd if oil 
development occurred in the refuge. Even with the latest practices, oil 
production occurs all year-round, relying on permanent gravel roads and 
airports with thousands of flights during construction and operations.
    To further emphasize these points, I draw upon the 2003 National 
Academy of Sciences report, Cumulative Environmental Effects of Oil and 
Gas Activities on Alaska's North Slope. The landmark study, published 
only a few short weeks ago, is the first comprehensive look at more 
than a quarter-century of oil drilling on Alaska's North Slope. 
Confirming many of our long-held concerns, the study produced a series 
of findings which affirmed that development on the North Slope has had 
adverse effects on the human, cultural, subsistence, and social 
environment.
The National Academy of Sciences findings included:
    Alterations to the North Slope physical environment have had 
aesthetic, cultural, and spiritual effects on human populations.
    <bullet> The committee heard repeatedly from North Slope Inupiat 
residents that the imposition of a huge industrial complex on the 
Arctic landscape was offensive to the people and an affront to the 
spirit of the land.
    <bullet> North Slope residents also reported that traditional 
subsistence hunting areas have been reduced, the behavior and migratory 
patters of key subsistence species have changed, and there is increased 
incidence of cancer and diabetes, and disruption of traditional social 
systems.
    <bullet> In addition, Inupiat at Prudhoe Bay find they are a small 
minority in a primarily white workforce that can sometimes express 
hostility toward Alaskan Natives. The jobs available to the Inupiat 
often are seen by them as menial or as token jobs.
    The Arctic Refuge represents only five percent of America's Arctic 
coastal ecosystem protected by law from the oil industry, whereas the 
remaining ninety-five percent is open to oil exploration and 
development. At a time when the American Nation is finding out more 
about the harmful effects of oil and gas development, the Gwich'in feel 
we should be extremely cautious of exposing new areas such as the 
Arctic National Wildlife Refuge to the pollutive oil and gas industry.

Permanent Protection is Needed
    Until the Arctic Refuge is permanently protected, pro-development 
forces will try to gain access to the coastal plain of the Arctic 
Refuge. The oil companies (ChevronTexaco, ExxonMobil, BP, and 
ConocoPhillips), The Department of Interior, Arctic Power and their 
allies in Congress must respect the opinion of the American public; 
polls show overwhelming opposition to opening the Arctic Refuge to oil 
drilling. Therefore, we urge the House Resources Committee to support 
H.R. 770, the wilderness legislation, to this end.
Native American Tribes support the Gwich'in:
        ``We support the Gwich'in to seek permanent protection of this 
        sacred Arctic Refuge, which is vital to their livelihood. 
        Regardless of how much oil may be in the refuge, it is morally 
        wrong to expect the Gwich'in to sacrifice their way of life to 
        meet this country's energy needs. What will be lost and what is 
        at stake is too high a price to pay.''--(Alaska Inter-Tribal 
        Council 2002)
    The Council of Athabascan Tribal Governments, Tanana Chiefs 
Conference, Alaska Inter-Tribal Council representing 187 tribes in 
Alaska, International Indian Treaty Council, Indigenous Environmental 
Network, Native American Rights Fund, National Congress of American 
Indians and numerous individual tribes oppose development in the 
coastal plain ``1002 area'' in defense of the human rights of the 
Gwich'in Nation.

International Porcupine Caribou Herd Agreement
    For over a decade, the Porcupine Caribou Herd has been the subject 
of an international agreement with Canada that the Gwich'in communities 
in both countries, as well as representatives from Kaktovik worked hard 
to achieve. This agreement states:
    ``...Recognizing that the Porcupine Caribou Herd regularly migrates 
across the international boundary between Canada and the United States 
of America and that caribou in their large free-roaming herds comprise 
a unique and irreplaceable natural resource of great value which each 
generation should maintain and make use of so as to conserve them for 
future generations.''
    ``...Recognizing the importance of conserving the habitat of the 
Porcupine Caribou Herd, including such areas as calving and post 
calving, migration, wintering and insect relief habitat.''
    The objectives of the Parties are:
    To conserve the Porcupine Caribou Herd and its habitat through 
international co-operation and co-ordination so that the risk of 
irreversible damage or long-term adverse affects as a result of use of 
caribou or their habitat is minimized.
    (International Agreement between the Government of the United 
States of America and the Government of Canada on the Conservation of 
the Porcupine Caribou Herd, `<plus-minus>June 17, 1987).

Sustainable Development /Alternatives
    ``They [the Gwich'in] do not want this [oil development]--they are 
fighting for their most fundamental right to exist as an indigenous 
people who are an integral part of the landscape, of the unique ecology 
of this region. We cannot condemn the Gwich'in as a people; we must 
respect their right to survival. We cannot ignore their rights the way 
we did in the last century. We cannot sacrifice them for the greed of a 
few oil companies or for a few months' supply of oil.''
                   --The late Senator Paul Wellstone, 1991.
    As our Elders and Chiefs of the Gwich'in Nation resolved in 1988, 
the public lands of the coastal plain of the Arctic National Wildlife 
Refuge must receive permanent protection status as designated 
Wilderness through an Act of Congress. The President of the United 
States and the U.S. Congress ought to encourage, promote and honor the 
rights of the Gwich'in to live our way of life and be able to pass this 
way of life on to our future generations. We should not be forced to 
sacrifice our way of life for six months of oil, ten years from now.
    Potential U.S. Oil Supply--6 months
    Development Time + 10 years
    Destruction Amount = Generations
    The Gwich'in Nation acknowledges the great promise the United 
States has in becoming a world leader in the promotion of sustainable 
energy initiatives. By supporting the enhancement of economically 
viable alternative energy development, we can begin the process of 
weaning ourselves from the destructive and pollutive fossil fuel energy 
industry. The technology necessary to accomplish this end currently 
exists. By reinvesting our efforts into the development of wind, solar, 
and hydrogen energy, the United States holds great promise in leading 
our world into the new energy era of the Millennium.
    The Gwich'in Nation further recognizes that there are viable 
economic alternatives for the Arctic Slope Regional Corporation and the 
Kaktovik Inupiaq Corporation which could potentially entail the trading 
of their sub-surface mineral rights on the coastal plain to other lands 
elsewhere on the North Slope outside of the Arctic Refuge. Solutions 
such as the one mentioned above would enable the people of Kaktovik to 
continue generating profits while also allowing the Gwich'in to 
continue our way of life.
Recommendations
    H.R. 770 would serve to beneficially designate the coastal plain of 
the Arctic Refuge as Wilderness. Conferring such status upon the 
coastal plain would serve to protect the subsistence rights of all 
Alaskan Natives who maintain a relationship of traditional and 
customary use of this area. Wilderness designation is simply an overlay 
over the existing refuge purposes- and these include protection of 
subsistence resources and access. Therefore, the Wilderness bill is 
designed to provide continued opportunities for subsistence practices 
in protection of our Native way of life. We recommend that the Chairman 
and his colleagues take these important points into consideration as 
they make their decision regarding the H.R. 770 bill.
    Our Nation's leaders must be willing to begin taking these first 
few steps to adequately address our current energy problems in ways 
which will ultimately be beneficial to the health and well being of all 
our future generations. The maximum production-based philosophy that 
guides are energy consumption practices serves to currently undermine 
our sacred responsibility to act as stewards of our environment. We 
therefore ask that this distinguished body call upon the United States 
to permanently protect the Arctic National Wildlife Refuge from oil 
exploration and drilling, and to uphold the economic, social, and 
cultural rights of the Gwich'in People.
    Mahsi' Choo (Thank you).
                                 ______
                                 
    Ms. Miller. Thank you. You might wonder why I'm here. I 
don't live in Kaktovik, I could be considered an outsider. I 
love the Arctic Refuge. I'm a 28-year Alaska resident. My 
daughter who is now 16 years old learned to walk on the coastal 
plain of the Arctic Refuge. When she was a 1 year old, she came 
on her first trip here.
    This is a national treasure. We only have one Arctic 
National Wildlife Refuge. It's a beautiful area. I was thinking 
about the comment of it being a moonscape, I think Senator 
Murkowski at one time referred to the coastal plain as a 
moonscape.
    Yesterday when I flew into Kaktovik, I looked down as we 
got over the coastal plain, beautiful day, you could see all 
the Brooks Range. And as we reached the coastal plain, I looked 
down and I saw craters on the coastal plain. It reminded me of 
your comment of the moonscape.
    The craters were made by caribou digging through the snow 
to get their lichens to sustain them. Even in this time of 
year, there are caribou on the coastal plain of the Arctic 
Refuge, not anywhere to the degree that we have in the summer 
when, of course, the area explodes with life.
    I would love to see you come back here as a Committee to 
see the area in the summertime. This is a vital area of the 
Arctic Refuge. If you had to pick one place in the Arctic 
Refuge, one place that is the most sensitive area, it is the 
coastal plain. This is the center of wildlife activity.
    The second largest herd in Alaska, the Porcupine caribou 
herd, has come here for thousands of years. They follow the 
same trails that are etched in the tundra to deliver their 
calves.
    I have witnessed this. I have been out on the Coastal 
Plains, and I have had 50,000 caribou surrounding me. Here is a 
picture that I took on the coastal plain. This is a wildlife 
spectacle when you are surrounded by 50,000 animals, calves.
    Oil development would change all this. You would lose the 
wilderness quality, and that's what we're advocating here.
    I wholeheartedly support H.R. 770. We--largely because it 
is a wilderness, it has always been a wilderness. The House of 
Representatives twice voted to designate the coastal plain and 
the former Arctic Range, wilderness back in 1978 and '79--
twice.
    And the Senate changed that with passage of ANILCA, the 
Alaska Lands Act, requiring that this area be studied. Not only 
for its oil and gas potential, but also for its biological 
values, and its wilderness values.
    That study was released in 1987, and while there may be 
potential oil and gas resources in the 1002 area, and the 
numbers vary, some people say billions of barrels, maybe 
there's zero, but what we do know is that the whole coastal 
plain meets the wilderness criteria. It is an extraordinary 
birthplace for wildlife.
    Another picture that I have here, shows the mountains of 
the coastal plain. We look at this picture, this is what it 
looks like in the summer. You're here in the winter, but in the 
summer, this was my first trip along the Opilak River.
    We were walking across the tundra--it looks empty in this 
picture, but if you were on the ground, there are over a 
hundred species of birds that come to this area to nest from 
six continents. This is a convergent point for many, many 
millions of birds that flock to this area. It's not only a 
birthplace for the caribou, it's a birthplace for birds that 
make exhaustive migrations.
    I stood on the top of that mountain in the picture. When 
you're on the top of that mountain you see the whole coastal 
plain area. You see the Arctic Ocean. It's the wildest view 
that I have ever seen in my life. I felt the greatest peace 
when I stood on top of that mountain.
    There is nothing like that in the circumpolar north. These 
are the highest mountains above the Arctic Circle in the world. 
We're talking a world-class area that is magnificent.
    Oil development will change that, with hundreds of miles of 
pipelines, of roads, of facilities, air pollution, oil spills, 
and people would no longer be able to hunt and fish from 
Kaktovik.
    Wilderness would protect the people of Kaktovik because in 
wilderness, you can still hunt and fish, you can drive snow 
machines in wilderness, but in an oil field, if you go to 
Prudhoe Bay, there's a big sign on the guard shack that says no 
firearms. You can't hunt next to an oil facility where you 
might kill a worker, or you might hit a pipeline, or you might 
hit the side of a building.
    The people in Nuiqsut that are surrounded by oil 
development, they are troubled by this. Many of their comments 
are in this report that Mr. Thompson has referred to, the 
Cumulative Environmental Effects of Oil and Gas Activities on 
Alaska's North Slope.
    Here is a 400-page report that talks about what oil 
development does to a landscape and does to the people of 
Nuiqsut, which is the only Inupiat village that is surrounded 
by oil development. They are not happy.
    I, as a journalist, went to Nuiqsut, wrote an article about 
my trip there, about what the people felt about the benefits of 
oil, and what they felt about the negative parts of oil 
development in the community. I've attached that article to my 
testimony. It's an extensive article. I spent several days 
there.
    To sum up, the North Slope of Alaska, if you could hold up 
that map. Just so the members can see, if we look at the North 
Slope of Alaska, 95 percent of the North Slope is dedicated to 
oil and gas development in this state.
    The Federal Government has opened the National Petroleum 
Reserve,a 23-million-acre area, where you see the yellow, and 
the red area to the east, state lands, development extends for 
120 miles, which you will fly over today.
    Thousands of miles of pipelines, roads, 25 producing fields 
is what we have on the North Slope of Alaska right now. Not 
one, we don't just have one Prudhoe Bay, we have 25 producing 
fields.
    And just to show you that we have an alternative to 
drilling here, on the front page of the paper today, this is 
very meaningful, the front page of the Fairbanks Daily News-
Miner, ``An Elephant in NPR-A, Foothills?''
    First paragraph, ``Anadarko Petroleum Corporation now 
believes the hydrocarbon potential of the National Petroleum 
Reserve and Foothills regions of the North Slope is as great as 
the huge Prudhoe Bay and Kuparuk fields combined, in the 
neighborhood of 17 billion barrels.''
    This is land west of the Arctic Refuge. This will keep the 
pipeline flowing not only for 30 years, as Mr. Thompson has 
indicated, this will keep the pipeline flowing for another 30 
years after that.
    The Chairman. I'm going to have to ask you to--
    Ms. Miller. This is very important, you know, and I submit 
this into the record, as well.
    We have other alternatives to drilling, we do not need to 
drill in the Arctic Refuge. If there was no other place to 
drill on the North Slope, we could consider areas like this. 
This is a national treasure for all Americans and to protect 
the people of Kaktovik for their subsistence access, and 
traditions, this should be designated as wilderness.
    Thank you very much for allowing me to testify before the 
Committee..
    [The prepared statement of Ms. Miller follows:]

        Statement of Debbie S. Miller, Author, Fairbanks, Alaska

    Mr. Chairman and members of the House Resources Committee, thank 
you for inviting me to testify on H.R. 770, the Morris K. Udall Arctic 
Wilderness Act. This significant piece of legislation will formally 
designate the 1.5-million-acre 1002 coastal plain area of the Arctic 
National Wildlife Refuge as wilderness in recognition of its 
extraordinary and unique values As part of the National Wilderness 
Preservation System, the Arctic Refuge coastal plain will be off-limits 
to any industrial development. By designating the Arctic coastal plain 
wilderness, Congress will permanently protect the truly wild character 
of this spectacular and wildlife-rich land that is wedged between the 
Brooks Range and the Beaufort Sea. Congress will also protect 
subsistence resources and access that are specific purposes of the 
Arctic Refuge today.
    I'm honored to be testifying in full support of this wilderness 
legislation at this first field hearing in Kaktovik. However, I'm 
surprised and extremely disappointed that three days ago the House 
Resources Committee passed Energy legislation that would allow oil 
development on the coastal plain, which would destroy the wilderness 
values of the area. I speak in opposition to H.R. 39, the Arctic 
Coastal Plain Domestic Energy Security Act of 2003 that would allow 
drilling and was basically wrapped into the Energy bill earlier in the 
week. Why hold what appears to be a disingenuous field hearing after 
the Committee has already made its decision on the issue at hand?
    Having lived in the Gwich'in village of Arctic Village, I'm also 
disappointed that some members of your Committee have traveled a great 
distance to attend this hearing, yet your Committee has declined the 
invitation to stop in Arctic Village, a community that lies on the 
southern boundary of the Arctic Refuge. The Gwich'in people have 
depended on the wildlife resources of the Arctic Refuge for many 
thousands of years, in particular the Porcupine Caribou Herd. The 
Gwich'in Steering Committee has asked me to hand-deliver their 
invitation to hold a hearing in Arctic Village, and their testimony to 
you. I submit their heartfelt words into the record.

Introduction
    I have been asked to testify about the wilderness values of the 
Arctic Refuge coastal plain on behalf of the Alaska Wilderness League 
and other conservation organizations. Over the past 28 years, I have 
explored the Arctic National Wildlife Refuge on numerous occasions, 
hiked across the coastal plain, assisted with a wilderness study of the 
1002 area, shared incredible wilderness experiences with my family, and 
written several books and publications about the wilderness and 
wildlife of the Arctic Refuge. Like the people of Kaktovik and Arctic 
Village, I love the wilderness, the beauty, and the extraordinary 
diversity of wildlife of the Arctic Refuge with my whole heart and 
soul.
    There are some wild places in the world that are so special and 
unique that they deserve full protection from industrial encroachment. 
The coastal plain of the Arctic National Wildlife Refuge is one of 
those extraordinary places on earth that we should permanently protect 
for the benefit of the wildlife that depends on these coastal lands, 
the truly great wilderness itself, and for the Inupiat and Gwich'in 
people who have depended on the subsistence resources of the coastal 
plain for thousands of years. By fully protecting the coastal plain, 
Congress will also bequeath to all Americans, and the world, an 
unmatched wilderness legacy. I am here today to share with you my views 
of why the coastal plain of the Arctic Refuge is so special and 
deserving of full wilderness protection.

Wilderness and Subsistence Hunting and Fishing
    If the coastal plain is designated wilderness, it will protect the 
subsistence resources and cultural values of the Inupiat and Gwich'in 
peoples. While oil fields restrict people and hunting access with the 
complexity of infrastructure, pipelines, security checks, coastal plain 
wilderness would continue to allow subsistence hunting and fishing, 
berry picking, camping, and traditional access by snow machine and 
boats. Subsistence hunting and fishing opportunities are clearly 
protected in ANILCA under Title I and Title VIII, and through the 
Arctic Refuge management purposes. Nothing in the wilderness bill would 
change these basic purposes of the refuge.
    Simply put, coastal plain designated wilderness will protect the 
area from industrial and commercial-scale developments and road 
building. Subsistence hunting and fishing opportunities will continue 
as they always have.

Wilderness and Other Wildlife on the Coastal Plain
    I always marvel at the diversity of birds when I visit the coastal 
plain during the nesting season. Graceful tundra swans mate for life 
and fly to the Arctic Refuge each year from places like Chesapeake Bay. 
The American golden plover makes a 10,000 mile migration from the 
Pampas in Argentina to nest on the tundra. Lapland longspurs sing their 
hearts out in the stiffest of arctic gales. Four species of loons can 
be spotted on ponds and in the lagoons. Golden eagles and snowy owls 
might glide by you. I love the birds of the coastal plain and marvel at 
their dramatic annual migrations.
    The coastal plain provides habitat for 135 species of birds, 
including 70 regular nesters. Birds come from all 50 states, Mexico, 
Central and South America, the mid and South Pacific Islands, Asia, and 
even Africa and Antarctica. The coastal plain is a critical migratory 
destination for birds from nearly every continent.
    While wilderness would protect this vital birthplace, oil field 
development would destroy and fragment bird habitat. Noise, general 
disturbance and pollutants from oil spills and other activities would 
degrade habitat. Recent findings reported by the National Research 
Council indicate that the oil fields have increased populations of 
ravens, gulls and foxes that are attracted to human food and garbage. 
Predation on some species of tundra nesting birds has significantly 
increased as a result.[1]
    Grizzly bears have also been impacted by garbage on the North Slope 
oil fields. The National Research Council sadly reveals that out of 12 
grizzly bear cubs, seven bears were killed in defense of life and 
property because they had been conditioned by scavenging on garbage.[2] 
Shouldn't wildlife refuges offer a place where bears can be wild and 
not grow dependent on landfills and garbage dumps? If the coastal plain 
is designated wilderness, grizzlies will have a better chance of 
running wild and living garbage-free lives.

Wilderness and Polar Bears
    The coastal plain of the Arctic Refuge has the highest density of 
land-denning maternal polar bears in America. Of great concern would be 
the significant adverse effects from proposed oil development on these 
magnificent animals and their newborn cubs. It is imperative that our 
country protects the bears during their sensitive denning period in the 
winter. The United States, along with other circumpolar nations, are 
required to protect ecosystems that contain polar bears with special 
attention given to denning habitat. If oil development is allowed on 
the coastal plain, the U.S. will be violating this international 
Agreement on Conservation of Polar Bears.
    Current three-dimensional (3D) survey techniques require multiple 
survey lines about 300 to 400 yards apart. These surveys create more 
trails and tundra damage than older 2D methods because of the increased 
number of lines and the amount of vehicle turning that is required. 
Noise from heavy equipment, work crews and seismic vibrations can 
disturb denning polar bears, causing them to abandon their dens and 
lose their cubs.
    By designating the coastal plain wilderness, polar bear denning 
habitat would be permanently protected and the United States would take 
a leadership role in following the requirements of the international 
polar bear agreement.

Oil Development and the village of Nuiqsut
    In 2001, I was asked as a journalist to write a detailed article on 
the subject of cumulative effects of oil and gas development on 
Alaska's North Slope. Over the past three decades North Slope oil 
development has spread extensively from the Canning River to beyond the 
Colville River into the NPRA. 25 producing fields now sprawl across 
1,000 square miles (see attachments). I decided to focus on the Inupiat 
village of Nuiqsut, the only community that is surrounded by oil 
development on Alaska's North Slope. Since few journalists had visited 
Nuiqsut, I thought it was important to hear their views on oil field 
activities.
    I spent many days in Nuiqsut and interviewed individuals at the 
school, health clinic, city office, public safety office, village 
corporation, hotel, and general store. I met with youths and elders, 
oil field workers and village leaders, hunters and hotel workers. 
Villagers were extremely open and friendly, and they wanted to share 
their concerns.
    Many had complaints about the changes their community was feeling 
from increased oil development. While some appreciated their jobs at 
the Alpine field, about 8 miles from the village, others were 
distressed about the increased number of health and social problems, 
air pollution, oil spill clean up procedures, poor hunting access, and 
the difficulty of finding caribou. While the community first welcomed 
oil development because of jobs and increased revenues, many residents 
expressed their concern and frustration over the increased number of 
outside workers and traffic in the village, and the feeling that the 
village was boxed in by oil development.
    If Nuiqsut is any indication, I fear that the Inupiat of Kaktovik 
may be faced with similar concerns and frustrations if oil development 
was ever allowed on the coastal plain of the Arctic Refuge. My article 
entitled ``Ground Zero'' is attached.

History
    The wilderness values of the Arctic National Wildlife Refuge have 
long been recognized by conservationists, ecologists, scientists, 
explorers, public land specialists, the majority of Americans, the U.S. 
House of Representatives, and two former presidents--President Dwight 
Eisenhower and President Jimmy Carter. Support for protecting the 
Arctic coastal plain from oil development has been bipartisan, 
reflecting the overwhelming voices of Americans who believe that as a 
nation we should leave one relatively small portion of our Arctic 
coastal region free of industrialization. It has been well documented 
that the coastal plain of the Arctic Refuge is the most sensitive 
reproductive area of the refuge, the birthplace for many migratory 
species, including one of the largest caribou herds in North America.
    It's important to look back at the history of the establishment of 
the original Arctic National Wildlife Range. During the early 1950s the 
National Park Service conducted an Alaska Recreational Survey under the 
leadership of the late George Collins who traveled extensively across 
Alaska to a develop a parks and recreation program. At that time, all 
lands north of the crest of the Brooks Range were still withdrawn under 
Public Land Order No. 82, which reserved the use of North Slope lands 
in connection with World War II. This sweeping withdrawal was about the 
size of South Dakota and included the 23-million acre National 
Petroleum Reserve (NPRA), 20 million acres of Central Arctic lands 
where Prudhoe Bay and 24 other producing fields are now located, and 5 
million acres of lands that would eventually become part of the Arctic 
National Wildlife Range.
    When Collins investigated the Arctic region in 1951, it is 
interesting to note that he met with USGS senior official John C. Reed. 
Reed had traveled throughout northern Alaska and recognized that the 
northeastern corner had ideal characteristics for a future park. Since 
the Navy was exploring for oil and gas in NPRA, Reed recommended that 
Collins concentrate his survey efforts in the northeastern corner of 
Alaska, steering clear of potential oil and gas development conflicts. 
In a 1988 letter to Representative Morris K. Udall Collins wrote:
        ``It is true that the USGS told me during the early fifties 
        that if the Park Service would stay east of the Canning River, 
        well away from the National Petroleum Reserve, we would not be 
        in the hair of the oil people...''[3]
    Collins acted on the advise of the USGS and ultimately chose the 
Canning River as the western boundary of the proposed Arctic Range. 
When Collins surveyed the area he noted that the northeast region 
contained all of the ideal values of conservation area. The region 
contained the highest glaciated peaks in the Brooks in arctic North 
America, a complete spectrum of habitats from the south slope of the 
Brooks Range to the Arctic Ocean, and a tremendous diversity of 
wildlife that was virtually undisturbed.
    Collins and biologist Lowell Sumner lay the groundwork for the 
establishment of an arctic preserve. They drew support from prominent 
conservationists such as Olaus and Margaret Murie, Richard Leonard, Sig 
Olson, and others. The dream of preserving the northeast corner 
bloomed. In 1959, the Department of Interior drafted legislation to 
establish the Arctic National Wildlife Range. Hearings on this 
legislation were conducted in several Alaska towns and in Washington 
D.C. While some were opposed to the establishment of an Arctic Range, 
the majority of those who testified favored the concept of preserving 
some of Alaska's vast wilderness for future generations.

Establishment of the Arctic Range in 1960
    During the waning hours of the Eisenhower administration, it was 
clear that the Arctic Range legislation would not pass Congress. 
Secretary of Interior Fred Seaton was convinced that the proposal 
should move forward. On December 6, 1960, Secretary Seaton signed 
Public Land Order 2214 which established the 8.9 million acre Arctic 
National Wildlife Range in order to preserve its unique wildlife, 
wilderness, and recreational values.
    In addition to establishing the Arctic Range, Seaton also revoked 
Public Land Order No. 82, which opened some 20 million acres of North 
Slope lands. Many at the time considered this a fair trade, but there 
were some Alaskans from the mining sector who were disgruntled. The 
Fairbanks Daily News Miner published a strong editorial that supported 
the formation of the Arctic Range and the 20 million acre deal.
    ``We favor the proposal for the Arctic Wildlife Range. We think the 
complaint of those opposing it is akin to that of a small boy who has 
just been given a pie much larger than he can eat but who cries anyway 
when someone tries to cut a small sliver out of it.
    We ask those who would raise strong protest over reserving this 
comparatively ``small sliver'' to stop and ponder the fact that 20 
million acres now being made available for development by Secretary 
Seaton's action comprises an area which exceeds the total land area of 
five New England states combined.''[4]
    Indeed, it was more than a fair trade. The giant Prudhoe Bay oil 
field would later be discovered on those North Slope lands. Today, the 
State of Alaska has reserved 14 of those 20 million acres for oil and 
gas leasing, and has received billions of dollars in revenues from the 
public lands that Seaton relinquished.
    It is unthinkable, particularly on the 100th anniversary year of 
the National Wildlife Refuge System, that Congress would consider 
violating the purposes for the establishment of our only Arctic Refuge, 
by allowing oil and gas development in the most biologically sensitive 
area of the refuge. Such an action would stab the heart of the Arctic 
Refuge and set a horrible precedent for the more than 500 wildlife 
refuges that have been set aside to protect precious wildlife and 
habitats. Oil field development with its maze of roads, pipelines, 
processing centers, facilities, airports, and scattered drilling pads 
is clearly not compatible with the purposes for which our country set 
aside this refuge.

Wilderness Proposals
    Subsequent to the passage of the 1964 Wilderness Act, the 
Department of Interior produced a wilderness study and proposal for the 
Arctic Range. A 1978 draft environmental impact statement noted that:
    ``All of the 8.9 million acres within the Arctic National Wildlife 
Range have outstanding wilderness qualities and ones considered 
suitable for inclusion of the National Wildlife Preservation System 
(with the exception of the Distant Early Warning Station sites which 
have since been cleaned up).
    The 1978 draft specifically notes that the Arctic coastline 
ecosystem is the most biologically productive area in the Arctic Range 
and that the proposed wilderness would include a rare example of an 
undisturbed tundra ecosystem.
        ``Located in a region which is rapidly being altered by 
        industrial development, its value as an ecological study area 
        increases with time...With wilderness designation, this segment 
        of the ecosystem may be the only portion of the Arctic coastal 
        plain saved in its natural condition, considering the degree of 
        development that is occurring to the west...''[5]
    During the late 70s there were many hearings regarding the 
wilderness and wildlife values of the Arctic National Wildlife Range 
with respect to the proposed Arctic Gas Pipeline and the Alaska 
National Interest Lands Conservation Act (ANILCA). Secretary Cecil 
Andrus summed up the Administration's position in a speech before the 
Outdoor Writers Association on June 14, 1978:
        ``In some places, such as the Arctic Refuge, the wildlife and 
        natural values are so magnificent and so enduring that they 
        transcend the value of any mineral that might lie beneath the 
        surface. Such minerals are finite. Production inevitably means 
        changes whose impacts will be measured in geologic time in 
        order to gain marginal benefits that may last a few 
        years...''[6]

House of Representatives designated the Arctic Range wilderness
    After much debate over ANILCA, the House of Representatives 
ultimately voted twice in 1978 and 1979 to designate the original 
Arctic National Wildlife Range (including the coastal plain) as 
wilderness. However, when the legislation reached the Senate, study 
provisions were added under Title 10, including Section 1002, which 
mandated an assessment of the fish and wildlife resources and the oil 
and gas potential of 1.5 million-acre coastal plain. While a one-time 
seismic exploration program was authorized in the 1002 area, any 
further exploration, leasing, and oil and gas development or production 
was prohibited under Section 1002(i) and 1003.
    Over the years, some members of the Alaska delegation have 
erroneously claimed that the 1002 coastal plain area is not part of the 
refuge. The Title X studies of ANILCA did not change the land status of 
the coastal plain. This de facto wilderness has always been a part of 
the Arctic National Wildlife Refuge, and was part of the original 
Arctic Range. This is spelled out in Section 303 (2) of ANILCA which 
also defines four purposes for which the Arctic National Wildlife 
Refuge was established:
    <bullet> to conserve fish and wildlife populations and habitats in 
their natural diversity including, but not limited to, the Porcupine 
caribou herd, polar bears, grizzly bears, muskox, Dall sheep, wolves, 
wolverines, snow geese, peregrine falcons and other migratory birds and 
Arctic char and grayling;
    <bullet> to fulfill the international treaty obligations of the 
United States with respect to fish and wildlife and their habitats;
    <bullet> to provide the opportunity for continued subsistence uses 
by local residents; and,
    <bullet> to ensure, to the maximum extent practicable and in a 
manner consistent with the purposes set forth in paragraph (i), water 
quality and necessary water quantity within the refuge.
    It is unthinkable, particularly on the 100th anniversary year of 
the National Wildlife Refuge System, that Congress would consider 
violating the purposes for the establishment of our only Arctic Refuge, 
by allowing oil and gas development in the most biologically sensitive 
area of the refuge. Such an action would stab the heart of the Arctic 
Refuge and set a horrible precedent for the more than 500 wildlife 
refuges that have been set aside to protect precious wildlife and 
habitats. Oil field development with its maze of roads, pipelines, 
processing centers, facilities, airports, and scattered drilling pads 
is clearly not compatible with the purposes of the Arctic Refuge. 
Significant adverse impacts cannot be avoided with a major oil field 
complex. The wilderness character of the coastal plain would be 
destroyed, which would also violate one of the original 1960 purposes.

An Unforgettable Wilderness
    Over the past 28 years I have been most fortunate to make many 
trips to the Arctic National Wildlife Refuge. I've hiked through the 
majestic Brooks Range, climbed many nameless peaks, floated down wild 
rivers such as the Canning and Kongakut Rivers, walked across the 
coastal plain on numerous occasions, and camped in some of the most 
beautiful places on earth. The vastness, peace and great beauty of the 
Arctic wilderness keeps calling me back. Encounters with the tremendous 
diversity of wildlife in the Arctic Refuge are not forgotten.
    Beauty is in the eye of the beholder. The coastal plain offers 
spectacular vistas of the Brooks Range, which includes the highest 
glaciated peaks above the Arctic Circle in North America. When I've 
waked from the Beaufort Sea coast to the mountains in the summer the 
expansive views across the flower-specked plains are magnificent. To 
the south you can watch storm clouds billow above snow-capped 
mountains, to the north the never-setting midnight sun rolls across 
above the ice-mantled sea. It is a vast, open land free of man's 
industrial hand, but so full of life.
    My most memorable wilderness experiences in the Arctic Refuge have 
occurred on the coastal plain. On one summer day, a herd of 40,000 
caribou migrated past us, on their way to the coast to seek relief from 
the swarming mosquitoes. There were so many caribou that the earth 
appeared to be moving. I could only see a jungle of legs, cows with 
their newborn calves. The land was flooded with new life. The varied 
sounds of the caribou were as impressive as the spectacle. I like to 
think of it as a caribou symphony with clicking hooves, grunts and 
bellows, and young voices of calves. It was a once in a lifetime 
experience.
    The coastal plain is the birthplace and nursery grounds for one of 
the largest caribou herds in North America--- 129,000 animals. Even 
during years when the caribou are forced to drop their calves outside 
the coastal plain, due to heavy snowfall or a late spring, the 
Porcupine Herd always returns to the coastal plain because of the 
desirable foraging and insect relief habitat, and there are fewer 
predators than in the mountains.

Oil Development and Caribou
    Does a major oil field development belong in such a birthplace? The 
coastal plain is a relatively narrow stretch of tundra, 15 to 40 miles 
wide. It is well-documented that the Central Arctic caribou herd has 
been displaced from their former range by oil field facilities, roads, 
pipelines and associated disturbances. The cows and calves are 
particularly vulnerable to noise and traffic. While the smaller Central 
Arctic herd has grown over the years, the herd has moved away from oil 
field activities into non-industrialized areas.
    The National Research Council recently issued the first report on 
the Cumulative Environmental Effects of Oil and Gas Activities on 
Alaska's North Slope. This report presents disturbing findings on the 
effects of oil field activities on the Central Arctic Herd. The 
findings state:
    *The intensively developed part of the Prudhoe Bay Oil Complex has 
altered the distribution of female caribou during the summer insect 
season. Elsewhere, a network of roads, pipelines, facilities has 
interfered with their movements between coastal insect relief and 
inland feeding areas. Possible consequences of these disturbances 
include reduced nutrient acquisition and retention throughout the 
calving and midsummer periods, poorer condition in autumn, and a 
lowered probability of producing a calf in the following spring.
    *As a result of conflicts with industrial activity during the 
calving and an interaction of disturbance with the stress of summer 
insect harassment, reproductive success of Central Arctic Herd caribou 
in contact with oil development from 1988 through 2001 was lower than 
for undisturbed females, contributing to an overall reduction in herd 
productivity.[7]
    The report suggests that consequences similar to those reported for 
the Central Arctic Herd are possible on the Porcupine Caribou Herd 
summer range. However, the Porcupine Caribou Herd has the lowest growth 
capacity of the four arctic herds and the least capacity to resist 
natural and man-induced stresses. With the lack of suitable alternative 
habitats, due to the size of the herd and narrowness of the coastal 
plain, industrial activity could have substantial effects on the 
Porcupine Herd.
    The first Arctic Refuge purpose is to ``conserve fish and wildlife 
populations and habitats in their natural diversity.'' Based on studies 
to date, oil development would clearly put the Porcupine Herd at risk 
in terms of reproductive success. The disturbance from the possible web 
of facilities, roads, traffic, compressors, and pipelines would disrupt 
and alter the natural diversity of the coastal plain wilderness 
ecosystem and the free movements of caribou.
    Arctic Refuge purposes also provide for the opportunity of 
continued subsistence uses by the Inupiat and the Gwich'in people. If 
the Porcupine Herd suffers as a result of oil field activities and loss 
of habitat, so will the Gwich'in people who have traditionally depended 
on the herd as a major subsistence resource for at least 10,000 years. 
The Inupiat will also be impacted, as they will be restricted from 
hunting near oil field facilities and pipelines due to public safety 
issues.

Existing Wilderness:
    Approximately 8 million acres of the Arctic Refuge, south of the 
coastal plain, is official wilderness. One summer I climbed Mt. 
Michelson, the second highest peak in the Brooks Range, located in the 
wilderness portion of the refuge. From the top of this magnificent 
mountain you have a sweeping view of the Brooks Range mountains to the 
east and west, and you can look north across the vast sweep of coastal 
plain to the Beaufort Sea, beyond toward the North Pole.
    I have climbed many mountains in Alaska, British Columbia, the 
Pacific Northwest, the Rockies, and in the Sierra. The view from Mt. 
Michelson stands alone as being the greatest wilderness vista that I 
have ever seen. It is an unlimited, far-reaching view that takes you 
beyond the edge of the North America continent. I have never felt more 
free, more humble, more awestruck, or felt such great peace, as when I 
gazed out that day across the Brooks Range, across the expansive 
coastal plain.
    If oil development invades this last protected stretch of Arctic 
coastline, not only would we lose the wilderness character of the 
coastal plain, and our last undeveloped wild stretch of coastline, but 
we would also degrade the scenic values of the existing wilderness. If 
one climbs a mountain in the Brooks Range and looks out at belching 
smoke, gas flares, and a web of pipelines and roads, the true 
wilderness will be gone. All for what may be a few billion barrels of 
oil that might fuel our nation for six months, and reduce our imports 
by only 2%. We could easily save more oil by driving more fuel 
efficient vehicles.
    The original Arctic Range and the Arctic National Wildlife Refuge 
should not be taken apart and carved up. Of all the places in the 
Arctic Refuge, the coastal plain is perhaps most deserving of 
wilderness designation because of its wildlife and scenic values. It is 
a sensitive birthplace. An open wilderness full of life. A place where 
oil fields don't belong. It is an extraordinary beautiful place that we 
should forever protect for future generations of Americans, Arctic 
wildlife, and for the great land itself.

REFERENCES
    [1] National Research Council. Cumulative Environmental Effects of 
Oil and Gas Activities on Alaska's North Slope. Pg. 194
    [2]National Research Council. Pg. 191
    [3] Letter from George Collins to Morris K. Udall, May 3, 1988
    [4] Fairbanks Daily News Miner editorial, Fall of 1957
    [5] U.S. Department of Interior, U.S. Fish and Wildlife Service. 
Draft Environmental Statement, Proposed Arctic Wilderness, Alaska, 
February, 1978.
    [6] U.S. Department of Interior, U.S. Fish and Wildlife, Fairbanks. 
Arctic National Wildlife Range: Wilderness Proposal History. June, 
1978.
    [7] National Research Council. pgs. 187-188. March, 2003.
                                 ______
                                 
    [Attachments to Ms. Miller's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T6329.004
    
    [GRAPHIC] [TIFF OMITTED] T6329.005
    

    The Chairman. Thank you. Mr. Thompson, do you support 
making all of the lands that the village corporation owns as 
wilderness lands, as well?
    Mr. Thompson. The corporation lands, I don't think that the 
government can make it a wilderness. It's private land, as far 
as I know.
    The Chairman. Well, it--one of the questions that's come up 
on Mr. Markey's bill is whether or not those lands would be 
included in his wilderness designation because of the language 
that's used in his bill.
    Mr. Thompson. I was under the assumption that it's fee 
simple land and the people own it. So it's up to them.
    The Chairman. But by the definitions that he's used, 
there's a question as to whether that is included, as well. And 
I'm just wondering if you support that or you don't support 
that?
    Mr. Thompson. I'm not sure what the corporations, if they 
agree, but I think they should look at the legality of it 
because it is private property.
    The Chairman. I agree with that, but you don't support 
doing that? Including that in the wilderness?
    Mr. Thompson. Well, wilderness designation, but I--
    The Chairman. If it were possible?
    Mr. Thompson. Yes. But it's inconsistent to say they don't 
want it.
    The Chairman. One of the things that you said in your oral 
testimony was that there were less caribou today than there 
were before, I believe you said 50,000--
    Mr. Thompson. Yes.
    The Chairman. --less than there were before.
    Mr. Thompson. Yes, about 50,000 less in the last few years.
    The Chairman. We have heard differing testimony on that. 
Which herd are you talking about and which population of 
caribou are you talking about?
    Mr. Thompson. This is the Porcupine caribou herd.
    The Chairman. Because we've actually heard that there were 
more now than there were before.
    Mr. Thompson. You're thinking of the Central Arctic, that 
has increased. But the Porcupine herd, from what I've heard, is 
less than it was previously.
    The Chairman. And what do you believe has caused that?
    Mr. Thompson. We had 2 years where it was very deep snow 
and the caribou weren't able to get into their normal calving 
area on schedule. And they had a very high mortality rate.
    The deep snow is kind of unusual, it's been happening more 
and probably related to the warmer weather, to the global 
warming, more precipitation, and a lot of snow, takes longer to 
melt off in the spring.
    The Chairman. And how do you believe that the exploration 
will impact that?
    Mr. Thompson. The exploration is in the calving area of the 
Porcupine caribou herd. So whatever infrastructure, equipment, 
activity will have an adverse effect. They are very sensitive 
to disturbance during that stage. In fact, at Prudhoe Bay, the 
calving area that they previously had has been displaced and 
they don't calve there anymore.
    The Chairman. OK. Well, I thank you for your testimony. I'm 
going to recognize Mr. Rehberg.
    Mr. Rehberg. Thank you, Mr. Chairman. You mentioned the 
National Research Council study in your testimony. Who 
requested that study.
    Mr. Thompson. That's what I read in the paper. Just a 
newspaper account. The Republicans in support of drilling, and 
requested in that report.
    Mr. Rehberg. And it's within that report, then, that 
specifically talks about disruption of traditional social 
systems?
    Mr. Thompson. Yeah.
    Mr. Rehberg. And forgive me, and the audience as well, I'm 
more familiar with reservations in Montana: The Crow and the 
Northern Cheyenne and the Blackfeet and the Sioux. The Inupiat 
are Eskimos. Is everybody within the area that we're talking 
about from the same group? Inupiat Eskimos?
    Mr. Thompson. Well, there's nonnatives there also.
    Mr. Rehberg. Are you--
    Mr. Thompson. I'm Eskimo.
    Mr. Rehberg. Inupiat?
    Mr. Thompson. Yes. But I'm not in the corporation here. I 
mean, there is different people, different status. I was from 
another area. So--
    Mr. Rehberg. Well, we'll have an opportunity to ask you 
after I've talked to the proponents from the residents here, 
what are the traditional social systems that you think that the 
development will permanently affect?
    I assume we're going to hear that there is a reason for it, 
they want to change some of the culture, they want to bring 
some economic opportunity for their children and futures for 
their own retirement. And what is it exactly that you, as an 
Eskimo, think it's going to destroy?
    Mr. Thompson. Well, for the biggest part it would be the 
hunting. The oil activity most likely will be concentrating 
here on the coast as the indications are that large deposits 
are near shore and off shore. So that is a big concern. Most of 
our caribou hunting is very close on the coastline.
    Mr. Rehberg. If the footprint is limited to what the 
legislation last year said, 2,000 acres or less, out of 19 
million acres, is it, in your estimation, all or nothing, that 
2,000 acre footprint is going to destroy the traditional 
culture?
    Mr. Thompson. Some people are led to believe that 2,000 
acres would be over by the existing oil field, but the 2,000 
acres is all through the refuge. The oil will have to be 
transported by pipes, and so the calculation is--doesn't sound 
like very much, but it traverses the whole area.
    Mr. Rehberg. But 2,000 acres is 2,000 acres.
    Mr. Thompson. Yeah, but you've also got airports, you've 
got jetports involved, you've got traffic, helicopter traffic 
going on. You've got--
    Mr. Rehberg. But that has to be included within the 2,000 
acres. That's--that's why--
    Mr. Thompson. The 2,000 acres is just part of it because 
the activity related to you getting onto that 2,000 acres is 
extensive.
    If they use ice roads, there won't be any road system in 
the summer, you'll have to service all these facilities with 
aircraft. And so there will be a constant stream of aircraft.
    Mr. Rehberg. And maybe you can't answer this and I'll ask 
somebody else later if they can. I'm certainly no engineer, but 
why do they have to bring water in for the ice field? I mean, 
if there isn't water there, can't they bring water in for the 
ice fields?
    Mr. Thompson. They can't use--
    Mr. Rehberg. Or ice roads, I'm sorry.
    Mr. Thompson. They can't use saltwater because it's harmful 
to the environment. There's very few lakes or rivers that are--
well, most of the rivers are frozen to the bottom, there's no 
water in them right now. And they need the water to mix with 
the snow to create the ice.
    Mr. Rehberg. You can't keep packing the snow down and down 
and down and down and create a pad?
    Mr. Thompson. Right. They don't--they don't have a supply. 
I mean, there's no water.
    Mr. Rehberg. Thank you.
    The Chairman. Mr. Renzi.
    Mr. Renzi. Thank you, Mr. Chairman.
    Ms. Miller, I want to go back to your testimony, if you 
don't mind.
    You made a statement about your personal peace that you 
felt when you were on top of that mountain. And then you 
jumped, under sworn testimony, to what I thought was kind of an 
extreme statement, you said that no longer would the people of 
Kaktovik be able to hunt or fish. Under sworn testimony.
    That sounds a little strong, particularly given the people 
here in this room whose livelihood depends very much on hunting 
and fishing. And I have a tough time kind of putting the two 
together.
    Ms. Miller. Would you like me to clarify that.
    Mr. Renzi. Would you like to clarify that?
    Ms. Miller. I would be happy to clarify that. Have you been 
to the Prudhoe Bay oil fields?
    Mr. Renzi. I have not.
    Ms. Miller. If you go to the Prudhoe Bay oil fields, you 
have to go through security checkpoints, there's a big sign 
that says you can't take firearms.
    I have talked to hunters when I did my research in Nuiqsut 
and they are eight miles from the Alpine Field, which you will 
be seeing later today.
    I have talked to hunters that have gone out hunting caribou 
and have been unable to shoot at animals because they have been 
standing in front of the facilities. So for public safety, it's 
an issue.
    If you have this 2,000 acres, it's not consolidated, as Mr. 
Thompson was trying to explain, you might have 10 different 
small oil fields scattered across the coastal plain, you might 
have 20 because the USGS report in 1998 specifically said that 
there are many small traps of oil in the 1002 area, which will 
require more, not less pipelines, facilities.
    So when I said that about the hunting, my thought was if 
people in Kaktovik are used to going out on snow machines and 
hunting across the coastal plain, they will have obstacles. 
There will be barriers if the infrastructure covers this area, 
and they will not be able to hunt as they have always hunted. 
So I'm totally honest about that.
    Mr. Renzi. I see. Thank you. The information and testimony 
that we received from the Committee talks about the size of the 
footprint, talks about the new technology. The law demands that 
the newest technology be used, the absolute newest. Not the 
technology that exists 20 years ago or when the original 
pipeline was first created. It demands not just the most 
commercial technology be used, but it demands that the 
environment and the people's way of life not be impacted.
    Ms. Miller. It's impossible.
    Mr. Renzi. Well, ma'am, the impact in relation to the game 
is something that I think is why we have such a contentious 
argument between each other. You talk about an absolute or a 
pristine model that you have in your mind, and you talk about 
the need to have oil for a nation that is getting oil from a 
dictator right now.
    You talk about the fact that you're up here and as if--and 
as if you don't belong to the Nation of the United States. As 
if this is your ground and it's not to be included in the 
country. There is an absolute brother and sisterhood 
relationship between Alaska and the Lower 48 states, it's not a 
separate entity. And our nation and our people need to work in 
harmony with each other.
    Ms. Miller. I--
    Mr. Renzi. If I can finish, please.
    The letters that we receive, you've got a little Morgan 
VanHatten, student body president, who says that she feels ANWR 
should be opened up.
    You've got Isaac Akootchook, who is the reverend here, who 
says that we should work in harmony with the earth, but that 
he's willing to work, given the provisions of the language that 
the Chairman has included.
    You've got Herman Aishanna, who was a captain here, a 
whaling captain, a former mayor and city council person who 
favors beginning and working together with new technologies, 
with legal parameters that protect the landscape, that protect 
the wildlife, that protect their way of life.
    And so I find your statement to be extreme. I find it to be 
personal in nature, as to what you want as your own pristine 
environment. And given the fact that, sir, I think you've got 
local people here who don't agree with your local view.
    It's interesting that a lot of the letters that we're 
receiving want to make sure the language is involved, does 
protect, and that we do move forward together.
    Would you like to comment?
    Mr. Thompson. Well, I heard the comments from Nuiqsut where 
the same language presumably was in place when their 
development started and the oil field is much more extensive 
than what they anticipated. And they are not happy with it.
    And also, in this situation, there's more oil development 
in the works that's not even being considered with this 
hearing, talking about off shore, that--that's going to be 
happening. So there's much more affecting the future that 
aren't being addressed.
    Mr. Renzi. I want to--let me just close with this, Mr. 
Chairman, I have one other question.
    We received testimony about a study of this Arctic herd of 
the caribou. And in this testimony, not only did we learn that 
the Central herd has grown in population, but that the 
Porcupine herd that you referred to actually doesn't always 
calve on the Coastal Plains. And in fact, in 2000, 2001, and 
2002, that that was the case. Now, that was a bipartisan study. 
Go ahead.
    Mr. Thompson. They did calve on the coastal plain in 2002. 
That is an incorrect statement.
    Mr. Renzi. In 2000, 2001, and 2002, you're saying this 
bipartisan study that was conducted by the U.S. Geological 
Survey is incorrect?
    Mr. Thompson. That is incorrect.
    Mr. Renzi. As your sworn testimony?
    Mr. Thompson. Yes. It is my belief that I saw the calves.
    Mr. Renzi. That may be a percentage, a small percentage of 
the calves actually in 2002. Either way, my point is the calves 
don't always occur here, the birthing place doesn't always 
occur here of the Porcupine herd; is that a fact?
    Mr. Thompson. Well, occasionally, as I mentioned, they 
can't make it because of the deep snow conditions. And every 
time they don't make it, when they don't get here, the survival 
rate is reduced substantial. And it's this area that they 
traditionally or usually goes to calve in is very central to 
their continued survival.
    We're having these adverse effects with no impacts of the 
people, so throw in the oil activity and so on, and it 
deteriorates.
    Mr. Renzi. Thank you, sir. Thank you, Mr. Chairman.
    The Chairman. Mr. Nunes.
    Mr. Nunes. Thank you, Mr. Chairman.
    The Chairman. If the gentlemen will suspend for just a 
minute. If I could ask the members and the witnesses to try to 
keep the talk loud because I step to the back of the room and 
we really can't--the folks in the back can't really hear. So 
when you're asking questions or answering questions, try to 
speak loudly because they really can't hear.
    So thank you. Mr. Nunes.
    Mr. Nunes. Thank you, Mr. Chairman.
    Mr. Thompson, I want to ask you some personal questions 
since you're a resident of this area. And we have a lot of 
residents of this area here today.
    What role, in your opinion, should the Federal Government 
play in regards to not only this community, but the surrounding 
19 million acres?
    I know what role they have played in the past with the 
designation, but what role do you personally feel that folks 
like myself and the Chairman and others should have here in the 
most northern part of North America?
    Mr. Thompson. Well, it should be to the dictates of the 
people of the United States. They--you know, people vote on it 
and whatever happens will happen anyway. That's why we're 
having this process to let people's views be known. Whatever is 
outcome is, that's the obligation of the representatives.
    Mr. Nunes. So you feel that the Lower 48 states should 
dictate what happens with the 19 million acres in this Refuge?
    Mr. Thompson. Well, if it was up to me, I would say the 
people here should, but that's not--you know, it belongs to the 
Federal Government. We have had our land claims and we can't 
claim it anymore. So it's up to the Federal Government.
    Mr. Nunes. So that gets back to my question, sir. Do you 
think that the local people should have control of these lands 
and not the Federal Government, like the Federal Government 
has?
    Mr. Thompson. The 19 million acres?
    Mr. Nunes. Yes. Would you rather see the local people have 
control over it, versus the Secretary of the Interior and 
ultimately Congress?
    Mr. Thompson. Well, what we have, we've got corporations 
that are mandated to make money, and the officials of these 
corporations, if they didn't pursue ANWR development, they 
would be derelict in their duties. So they are doing what their 
corporations mandate, but there's people like me that don't go 
along with it.
    Mr. Nunes. The corporations meaning who?
    Mr. Thompson. The village corporation, the native 
corporation, the regional corporation.
    Mr. Nunes. And who mandates them to make money?
    Mr. Thompson. Well, it's a for-profit corporation. I mean 
according to bylaws, it's created for the purpose of making 
money. And if they did not pursue ANWR development, which is to 
make money, they would be derelict in their duties. So they 
must do that.
    Mr. Nunes. So I come from a farm, and 2000 acres out of 
this 19 million acres is where the footprint would lay. And 
you--earlier, you disagreed with that, you said it's going to 
be more than 2,000 acres, or do you agree that the 2,000 acres 
is where the footprint would lay?
    Mr. Thompson. Well, I'm a little unclear of how this 2,000 
acres is calculated. At times I have heard that it is the 
square footage of the support beams rather than the pipe 
itself. So can you clarify that? I don't know.
    Mr. Nunes. I'm asking you.
    Mr. Thompson. OK. I believe it's 2000, but it will, in any 
event, it will have to be scattered over an area of about 100 
miles in length and about 40 miles in depth.
    Mr. Nunes. One and a half million acres?
    Mr. Thompson. Whatever.
    Mr. Nunes. So then you do agree, that the footprint is 
2,000 acres?
    Mr. Thompson. That's what they say, yes.
    Mr. Nunes. And you think that this footprint would be--
    Mr. Thompson. I don't know if it's in the bill that's 2000, 
but industry has been stating they would only utilize 2,000. So 
I'm not sure if that's part of the bill, the 2000 acres. Is it? 
I mean, I don't know.
    The Chairman. Well, it's not--it's not in the current bill. 
It was in last year's bill.
    Mr. Thompson. Everybody says it's 2000, but I didn't read 
it in the bill.
    Mr. Nunes. So let's say that it's not 2000. Let's say that 
it's 20,000 acres. What real damage, is going to be done, in 
your opinion, to the environment if it was 2,000, 10,000, 
20,000 acres?
    Mr. Thompson. Well, I've been to Prudhoe Bay and there's 
flaring goes on, and I've seen the black smoke from Prudhoe Bay 
all the way over to here, and I don't believe the government 
has ever created any regulations to determine if that is a 
harmful substance or not.
    But we do have a lot of smoke pollution from that, that 
even gets to here, without anything being done here. So when it 
starts here, I presume it will be the same, we will be exposed 
to that.
    Mr. Nunes. So you're concerned about black smoke that would 
come from drilling on--
    Mr. Thompson. Well, it's done in Prudhoe and I presume they 
would have to do that.
    Mr. Nunes. If the people of this community feel that there 
should be drilling on this one and a half million acres, should 
they be allowed to do it?
    Mr. Thompson. Well, the large part of that doesn't belong 
to the people of this community. It belongs to the people of 
the United States. And the people of the United States, as I 
understand, don't want it.
    Mr. Nunes. But you said earlier in your testimony that you 
thought that that was wrong, that people should control this 
land.
    Mr. Thompson. Well, at one time the Native people of Alaska 
controlled all of the Alaskan state. Now we're down to like 10 
percent through Native Claims Settlement Act, so we don't have 
any control over the rest of it.
    To me it would be a hypothetical to even, you know, think 
that we--we as the people have--our voice only is concerned, 
considered. It's the people of the United States, of the whole 
United States.
    Mr. Nunes. Thank you, Mr. Chairman.
    The Chairman. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Unlike my colleague who brought up the corporations, can 
you explain, do the villagers here or the Native people here, 
are they part of these corporations or are these all outside 
interests?
    Mr. Thompson. The Native Claims Settlement Act was set up 
so there is a corporation in each village. And I believe the 
corporation and members of this village are probably only about 
one-third of the population. They don't represent all of the 
people in Kaktovik.
    Ms. Bordallo. About one-third. OK. Do you, when you speak, 
Mr. Thompson, do you represent people here or is this just your 
own singular thoughts?
    Mr. Thompson. I'm not--
    Ms. Bordallo. You're not an organization?
    Mr. Thompson. No, I'm not representing any other entities.
    Ms. Bordallo. Other than your own. Because I think it's 
important here and I feel all of us want to hear from the 
people, you know, I think that's important, and the people that 
live in this region and so forth.
    And how about you, Ms. Miller, do you represent anybody 
other than yourself?
    Ms. Miller. Well, I represent my family, I represent the 
Alaska Wilderness League, I'm a founding board member of that 
particular group that is based in Washington D.C., the only 
conservation group that specifically focuses on Alaska 
conservation issues. And that is my love, my passion is the 
wilderness of Alaska.
    I write about the area, so I really represent myself, as an 
author, as a mother, and also as a member of the Alaska 
Wilderness League.
    Many conservation groups in Alaska do support the position 
that this area is very special, not only to Alaskans, but to 
the United States and the world, as a treasure, an arctic 
ecosystem that is unmatched anywhere in the world. And that is 
why we have worked so hard to protect this area. So hard.
    I didn't show one picture, if I may, just--Richard, I 
wanted to--we have been talking about pipelines and buildings. 
You won't get on the ground quite to see this, but you'll 
probably be getting an overflight, but this is in the Prudhoe 
Bay oil fields.
    We have many, many pipelines, buildings, the gas flaring 
that Mr. Thompson was just talking about that goes off all the 
time and creates a tremendous amount of pollution. The people 
of Nuiqsut have had increased asthma cases, it's documented in 
my article, from the flaring.
    Very toxic kinds of pollution that many people in Nuiqsut 
have been very troubled over because of increased asthma cases 
and carcinogenic problems, as well. So you'll be hearing more 
about that if you--
    Ms. Bordallo. Yes, I haven't had a chance to look at the 
report.
    Ms. Miller. This picture gives you an idea of what the oil 
fields look like. You can't go hunting in a place like that. 
You can imagine a snow machine.
    Ms. Bordallo. I do thank you both, you know, for your 
testimonies, and I know that we all want to hear the input of 
the people of this region.
    Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Thompson, I think you've indicated--I think you've 
indicated you're not a shareholder here?
    Mr. Thompson. I'm not.
    Senator Murkowski. OK. You know, I guess the concern that I 
have, you've indicated that you support the legislation that 
would create a wilderness area here.
    Mr. Thompson. Yes.
    Senator Murkowski. And the concern I think that so many of 
us have is under the land selections, the people of Kaktovik 
selected, I understand it was about 92,000 acres around here, 
they have the surface rights, the Arctic Slope Regional 
Corporation has the subsurface rights.
    So if, in fact, we were to designate this as wilderness, 
how do we--how do we address the land grant that we made to the 
residents of this room saying, you've got your right to select 
these lands, they have selected them, and now we are saying, 
whoops, pulling the rug out from underneath you, we are 
designating it as wilderness, and they now have no rights to 
develop the land that they were granted?
    And I'm not really asking you a question, I guess I'm just 
expressing my concern that these lands were selected by the 
folks in Kaktovik to the Arctic Slope Regional Corporation, and 
a wilderness designation, unfortunately, a wilderness 
designation, in my opinion, is an area that is wilderness 
completely, has always been wilderness.
    And these people have been here for, I don't know, how many 
generations back people in this room go. And as we know, there 
has been significant activity up here for quite some time.
    You say you are a wilderness guide by occupation. As a 
wilderness guide, how do you--how do you do your guiding? How 
do you get your clients around?
    Mr. Thompson. Well, in the winter I use snow machines.
    Senator Murkowski. And in the summer, how do you--like, for 
instance, when you took this photographer around, how were you 
able to do the guiding?
    Mr. Thompson. We flew in with aircraft.
    Senator Murkowski. If you were able to fly in with 
aircraft, you've got to have areas where you can land. And if 
we were to designate this as wilderness area, what would that 
do to you and your wilderness guide business?
    Mr. Thompson. It wouldn't change it. The landing places are 
already there. A lot of the places where a guide can park are, 
in fact, wilderness at this moment.
    Senator Murkowski. Ms. Miller, I wanted to ask you, there 
was--there was mention made by both of you about this report, 
Cumulative Impact of Development on the North Slope. I will 
confess I have not read the full 400 pages, I've probably read 
about a hundred of it.
    And I found the report interesting in many of the things 
that it stated that we were doing right up here. And in 
speaking, I had a briefing by about eight of the scientists 
that were involved with the preparation of that report.
    And I asked them flat out, I said, this report is going to 
be released this afternoon, and we're trying to get ANWR open, 
there are those that are trying to keep ANWR closed, how is 
this report going to be used to help those of us that are 
proponents of opening ANWR?
    And the scientists that were in that room said, you know 
what, this is a blueprint of how to do it right. How to do it 
better.
    So it is a fascinating study. I thought the one thing that 
was very compelling, and you mentioned this, you said the 
concern about oil spills, we are going to have oil spills. 
Well, in fact, the report provides that there is no cumulative 
effect of oil spill up here on the North Slope, and so I think 
we need to look at that.
    One of the things that it did state, though, is there is an 
impact with development?
    And this community center is an impact of what happens on 
the North Slope, what happens as a consequence of oil drilling 
of oil resources.
    And I asked, do you--would you consider a school or a 
community center or a clinic as a negative impact. And the 
scientists said to me, well, yeah, because it's not the way it 
used to be.
    So the folks that are in this community center now, if you 
consider this a negative impact, we've got some talking to do 
with the scientists and the people back East.
    Ms. Miller. Could I comment?
    Senator Murkowski. Yes, please.
    Ms. Miller. One thing I think is really important to 
recognize is the people of Kaktovik and Barter Island, they 
have their own surface lands, with their own origin, their 
own--they use their own lands.
    But the fact that the 1002 area is around them, actually, 
is like a wilderness buffer. It's always been a wilderness, 
it's de facto wilderness. They have used these lands over time. 
Wilderness doesn't prevent that.
    Wilderness can be used by people for traditional 
subsistence hunting, fishing, and snow machine use. Wilderness 
does not preclude that. It actually protects the cultural 
traditions and the rights of the people. It doesn't preclude 
that use.
    So I--I don't--it meets the criteria under the Wilderness 
Act, but they don't actually look at this medium as part of 
that criteria. All of the wilderness studies have focused on 
the land itself beyond the township.
    Senator Murkowski. Would you support--
    The Chairman. Would you yield here just a moment? There's 
one thing that both of you keep saying that I think I need to 
point out to you, this bill puts the Arctic Coastal Plain in 
the Wilderness Act, under the Wilderness Act. You can't take 
your snow machine into the wilderness area.
    Ms. Miller. Yes, you can. No, this is absolutely wrong. 
These people in Kaktovik hunt for Dall sheep in the wilderness 
area of the Arctic Refuge.
    The Chairman. That is a separate--that is the Alaska 
Wilderness Act. That is not what this bill does. This bill puts 
it under the 1964 Wilderness Act.
    Ms. Miller. But their rights are guaranteed under ANILCA.
    The Chairman. That's not what this bill calls for.
    Ms. Miller. If it doesn't call for that, it should be added 
as a provision. I would recommend that today because--
    The Chairman. But that is not what it calls for. But--
    Ms. Miller. But it's already written into law. That those 
rights are protected by ANILCA.
    The Chairman. That's a separate law. And what this is 
saying is that it would be pulled in under the Wilderness Act. 
It doesn't say that it would be taken in under the Alaska 
Wilderness Act, which is something different. And there are 
different things that were protected under the Alaska 
Wilderness Act than are in the generic Wilderness Act. And that 
is not what this law requires.
    Ms. Miller. If that is your understanding, that is a 
shortcoming.
    The Chairman. I'm just reading the bill.
    Ms. Miller. And ANILCA guarantees that. Guarantees that.
    The Chairman. This is not ANILCA. This is not--that is not 
what this bill does.
    Ms. Miller. Well, there should be a provision added to 
clarify that because that is definitely--it is my understanding 
that that is not the case. And ANILCA allows for hunting and 
fishing and traditional activities--
    The Chairman. That is not ANILCA.
    Mr. Renzi. That is not ANILCA. That's not what the bill 
does.
    Ms. Miller. Then it should be--
    Mr. Renzi. I apologize to the Senator.
    Ms. Miller. Then it should be added for a point of 
clarification, and I would still recommend that provision--and 
I'm sorry Representative Markey isn't here because that should 
be in the bill to clarify that this wilderness and this area 
would be used just as it always has been for the last 6,000 
years that the Inupiat people have lived in this area, it would 
not change.
    And if it's not clear in the bill, then that is an error. 
Because ANILCA guarantees that for the Native people in this 
village, as it does for the Gwich'in people. This clarification 
should be in the bill.
    Senator Murkowski. Mr. Chairman, I just wanted to follow up 
on the wilderness discussion.
    Currently, there's some discussion about designating 
certain parts of NPR-A as wilderness, would you support that?
    Ms. Miller. I would support the special areas that have 
been identified and I have not studied that very closely. I 
know that it's a 23 million acre petroleum reserve, and there 
have been very few special areas, as I understand it, that have 
been identified that are very sensitive for wildlife, and I 
would support a special area to be protected in a possible 
wilderness classification. I think that would be a wise choice 
to have a little bit of NPR-A set aside. The most sensitive 
areas. In fact, the best protections.
    Senator Murkowski. I think in your testimony, and I didn't 
write it down, but you indicated that the potential there in 
NPR-A for vast reserves was certainly there. And I was just 
wondering if you were supportive of the wilderness designation?
    Ms. Miller. I'm supportive of the development there.
    Senator Murkowski. Mr. Chairman, I would just like to, for 
the benefit of the members that are here, there were a couple 
charts that we did bring down.
    I know the people of Kaktovik have probably seen them, but 
since we've been showing pictures. There's one chart here, 
we're talking about the caribou. And this is--this is up in 
Prudhoe. This is not Kaktovik. But I do need to tell the story.
    And anybody who has been around Prudhoe, I spent--I put 
myself through law school working up in Prudhoe and helping to 
develop oil activity up here, and am proud of what we were able 
to do up there. And I was fascinated with the compatibility of 
the caribou to the fields.
    And I understand that calving is different, but if we're 
concerned about these caribou migrating through, they go over 
the roads and under the line and looking for a place to get out 
of wind and get up on the road, and I think it's significant to 
look at the pictures.
    The other one is just a--it's just a fun shot because we 
like to talk about our wildlife. And these are the three bears 
on the top of the pipeline. I have no idea how they got up 
there, but everyone likes to see that picture. E I think I put 
them up there.
    Senator Murkowski. Thank you, Mr. Chairman.
    Ms. Miller. About the bears, one of the things I would urge 
you to read is the effects of oil fields on bears. In the study 
it notes that there were 12 grizzly bears, cubs. And of the 12 
grizzly bear cubs in this study, 7 were killed in defense of 
life, defense of property and life because they had become 
habituated to garbage and landfills, and had to be killed 
because, you know, the story of Toby that walked into the 
Prudhoe Bay Hotel and had to be shot. So there are impacts to 
bears.
    Senator Murkowski. Just as when wildlife comes into a 
community that's not associated with any kind of oil 
development, they become a garbage bear, we have to do 
something with them.
    Ms. Miller. It also notes in the same report that--and I 
can read from it. It says, ``as a result of conflicts with 
industrial activity during calving and an interaction of 
disturbance with the stress of summer insect harassment, 
reproductive success of the Central Arctic herd female caribou 
in contact with oil development over a 13-year period was lower 
than for those that were undisturbed,'' that were living away 
from the oil fields. So this contributed to an overall 
reduction of the herds--as stated in this report.
    So what we have is animals that live away from the oil 
fields--and Prudhoe Bay is very different from this 1002 area. 
The coastal plain near Prudhoe Bay stretches for 100 miles from 
the coast of the mountains.
    So the caribou there are a much smaller herd, currently, 
27,000 animals in the Central Arctic herd, and we have 129,000 
in the porcupine herd here, those animals have moved away from 
the disturbance areas, the cows and the calves that are so 
sensitive have moved away from it. And the animals, although 
the herd has grown, they have been displaced.
    If that happened with the porcupine herd, in the 1002 area, 
they would be displaced into the mountains. And in the 
mountains, that's where you have the predators and that's where 
you have a lower survival rate, higher mortality, and the herd 
would decrease. That's all documented in this report and the 
1002 report.
    The Chairman. Thank you. And I thank both of our panelists 
for their testimony, for answering the questions. I'm going to 
excuse you and call up our second panel.
    We have The Honorable George Tagarook, The Honorable Herman 
Aishanna, Ms. Morgan VanHatten, and Mr. Isaac Akootchook.
    If we could also have Mr. George Kaleak, Sr., join us at 
the witness table, as well.
    If I can have the members sit down.
    Mr. Akootchook. I need to have an interpreter.
    The Chairman. Yeah, would you please step forward. If I can 
have the members of the panel now who have settled in, if I 
could have the members of the panel stand.
    [witnesses sworn.]
    The Chairman. Let the record show all witnesses answered 
``yes.''
    As I explained to the previous panel, your entire written 
statements will be included in the record. If you could 
maintain your oral testimony to 5 minutes.
    The lights up here in front of you will give you an idea. 
During your oral testimony, the first 4 minutes the green light 
will be on and the yellow light will come on when you have a 
minute left. When red light comes on, I would appreciate it if 
you would stop at that point or sum up as quickly as possible. 
But the entire written testimony that you gave us will be 
included in the record.
    So I appreciate it, you being here. I would also like to--
there was a slight mix-up on the part of the Committee. Mr. 
Kaleak was supposed to testify, and because of a mix-up on the 
part of the Committee, he was not included in the official 
record.
    I would like to ask the unanimous consent that Mr. Kaleak 
be allowed to testify before the Committee, and that his entire 
testimony be included in the record.
    Hearing no objections, so ordered.
    I think we will start with Mr. Tagarook, if I may.
    Mr. Tagarook. Thank you, Chairman Pombo, Committee, 
Governor. And to you, Mayor. Audience.
    With respect to my elders, I'll request that they have the 
elders talk first, then work my way over.
    The Chairman. That would--that would be fine. They didn't 
give them to me in the line of--
    Mr. Tagarook. Well, we will have Isaac start first, then 
Herman, then George, then Morgan, and then I'll speak. If you 
have no objections to that, we'll start with Isaac.
    The Chairman. Well, I had him wrapping up, but--
    Mr. Tagarook. Oh, you did? OK.
    The Chairman. If that's the way you want to do it, that's 
perfectly fine.
    Mr. Akootchook. (Spoke in Native language.).
    The Interpreter. He would like to have the younger 
generation speak first so he would have a chance to fix them.
    The Chairman. We can deal with that.

 STATEMENT OF GEORGE TAGAROOK, CITY COUNCIL MEMBER AND FORMER 
                    MAYOR, KAKTOVIK, ALASKA

    Mr. Tagarook. Then I will start. Thank you.
    Welcome to Kaktovik. I'm here to submit a statement from 
the city of Kaktovik. And also a few more items I'm going to 
present while I give my oral.
    I'm kind of tired, my arms, because we took an 8-hour snow 
machine ride from Deadhorse to Kaktovik yesterday. The only 
caribou I saw were between Prudhoe Bay and Badami. There's no 
caribou on the Coastal Plains like somebody has just stated 
today. They are up in the mountains, on Hulahula and the 
Sadlerochit area. There are no caribou, there's nothing on the 
Coastal Plains. I want to make that a record.
    We're in support of the development, responsible oil 
development, and we're opposed to any wilderness designation. I 
don't know, somebody from Outside making decisions for us, 
that's pretty bad. And I'm glad you guys are here to hear our 
comments.
    The 1002 area can be developed in an environmentally sound 
way. We've witnessed that in Prudhoe Bay. Prudhoe Bay has been 
in existence for over 30 years. And I would like to submit a 
fact that 95 percent of the North Slope is not open to oil and 
gas development. The fact is, only 14 percent of Alaska arctic 
shoreline is actually open to oil and gas development. I will 
submit that for the record.
    And they talk about wildlife. This is an article I want to 
submit, it talks about moonscapes and mountains. The one that 
we're responding 10 miles out of Kaktovik and works its way to 
the foothills. And we do hunt that area. We hunt, fish, hunt 
geese.
    The other native tribe that lives on the south Brooks of 
Arctic National Wildlife Refuge do live on the south side, but 
they are not native to the 1002 area. They are adamant about 
turning this place into a wilderness. Their concern is caribou.
    The caribou in the Porcupine caribou are here 30 to 40 days 
a year for calving. That's only the spring. From June until 
about mid July. That's the only time they are here. We do get a 
mixture of Central caribou herd and some mixture of Porcupine 
herd intermingled in, you know, together.
    But the fact is that caribou, you know, are here 25 to 30--
30 to 40 days of the year. They don't hang--hang around all 
winter long. I don't know. I wished I had saw caribou yesterday 
on the Coastal Plains, I could have brought it home, but I 
didn't.
    It's amazing what the environmentalists do to an area where 
they don't live in. They use the ANWR issue as a, you know, 
cash cow. Those big Manillaq books, articles, maps, photos, 
pictures, that's really absurd.
    I mean, if we put it here, we would be millionaires right 
now, but we're not. But they got the money and the power, I 
mean, they got the people.
    But we're--we're here for responsible development. If we 
could somehow help the Committee and have the Committee help us 
in responsible development, we're prepared--pretty prepared for 
the exploration.
    So I adamantly oppose a wilderness designation, and that 
concludes my comments. But I'll take any questions that you 
might have.
    The Chairman. Thank you.
    [The prepared statement of Mr. Tagarook follows:]

      Statement of George Tagarook, Member, Kaktovik City Council

    As the only resident people of the Arctic Drainage from east of the 
Canadian border to west of the Canning River, and thus the entire 
northern portions of what has been called the Arctic National Wildlife 
Refuge, we, the people of Kaktovik want to express our appreciation to 
the Mouse Resources Committee and especially to Chairman Pombo for 
coming hereto the very heart of the ANWR 1002 debate to hear the views 
of the people most directly affected in this matter.
    For background on this issue and our place in it, we refer the 
Committee to consensus documents drawn up by the people of Kaktovik 
some years ago. These documents what we call ``the Kaktovik Papers'' 
and titled In This Place: A Guide to Those Wishing to Work in the 
Country of the Kaktovikmiut--express our views not only on oil and gas 
development but also our view of the larger picture, our place in the 
scheme of things. The City Council recently reviewed these documents 
and confirmed that they remain current and consistent with their 
original objectives, to explain to others just how things are here. We 
recommend that anyone with any interest in these precious lands and 
waters that form the homelands of our people read and respect our views 
collected and expressed in these documents. We hope they will help 
those who do not understand that this part of the world is not the same 
seen from here as from other places. We believe our view of it is a 
valid, important and indeed a crucial one in this debate.
    We urge the Committee to watch and respect the words of our people 
presented in our video also entitled: In This Place. We were driven to 
produce this video because what we saw on TV about us was so far off 
base that we could barely recognize ourselves in it. People with video 
cameras seemed, as if by magic, to record and then edit it selectively 
so that we ended up saying things we would never say. So we thought to 
try our hand at this magic, to see if it could be made to say what we 
really do think and feel. In This Place does that, and we put it 
forward as the real voices of Kaktovik.
    Years ago, when the issue of oil exploration within the 1002 
portion of the ANWR first came up, we were scattered on it. Some here 
thought it a bad idea, a terrible risk both to us and to the country on 
which we depend, the country that defines most of us as Native people. 
Some thought it a good idea because it would allow us to benefit from 
the petroleum resources that belong to us. As time went along, we 
watched with some suspicion the activity at Prudhoe Bay, but as we 
developed a working relationship with the petroleum industry, and as 
they did things the way we wanted them to do, we assessed the costs and 
the benefits of their being here on the North Slope and became 
increasingly comfortable both with the industry and with our ability to 
work with them. Today, nearly everyone here has moved towards the 
development side. It does not frighten us as it once did when we knew 
less about what it would be like, how the oil people would behave as 
neighbors and what the downside would be.
    However, the consensus drawn up here by the City and people of 
Kaktovik should not be seen as an endorsement of anyone nor of any 
position held by others. That is not the way we are. We don't choose up 
sides, especially sides brought in from elsewhere. We have never spoken 
as partisans on this issue. We respect the concerns of everyone, even 
those with whom we disagree. Indeed, we have a few people here who are 
rather passionate in their opposition to development of the 1002. That 
is their right, and we respect them for making their point. Most of us 
think they are wrong, that they simply do not understand this place or 
its people, but we do listen to them and respect them.
    Indeed, for anyone who really cares about this place, especially 
those who respect us and our place at the center of this debate, who 
recognize that nobody could possibly love this country more than we do, 
to them we reach out our hand and ask that they join with us to see 
that the things of value here are fully and completely protected 
whatever happens.
    To that end we have asked that any legislation drawn up to open the 
1002 to development be written to allow our full and effective 
participation in both the development and the direction of that 
development. We hold that the best way to protect this country is to 
see that those of us who understand it best and care most about it are 
effectively empowered to aid and assist any who would work here, to see 
that they do things right. We have put such language forward and are 
now working with the staff of this Committee to assure that it becomes 
law.
    Those who know us know that the Inupiat are a progressive people 
but a people with our feet solidly on the ground here. The ancestors of 
our people found this place empty and have survived here for thousands 
of years. The spirits of our people are here and will be here forever. 
They are hard-wired to this place. And we, the now living, intend to be 
here forever, never to leave our spirits behind. That is the point of 
all this, to survive here in this magnificent place that is so much a 
part of what we are, to protect it and to make the most of it. For us 
this is not a romantic dream, a respite for a week to get away from the 
mess people have made of other places, some cover for the awful things 
they have done elsewhere. No, we intend to stay right here and to keep 
sweet and whole both our people and this land to which we so firmly 
attach.
    To those who cannot see this, who see only emptiness here, who 
cannot or will not recognize our shadows on the land, our footprints 
that are everywhere, who cannot feel the spirits among us, all across 
this country and far out to sea, to those who deny our very being by 
declaring this a wilderness, to them we say this: Shame on you. Shame 
for trying to deny that we are here and that we exist. Shame for coming 
here and saying we do not matter. Shame for going into other Native 
communities and having them seem to say things no Native person would 
ever say about the homelands of another Native tribe. Shame. Shame. 
Shame.
    We can live with the oil people. They will come and go. They listen 
to us and they have come to show us respect. Indeed, we can work with 
and accommodate any who come here and show us respect. But for those 
who come here to displace us with their own shallow visions and empty 
illusions, we must ask you to leave. This is not a place for you. This 
is no empty land and surely not a wilderness. We are here, even if you 
will not see us. And you shall never displace us.
                                 ______
                                 
    The Chairman. Thank you. Let's go to Mr. Kaleak.

STATEMENT OF GEORGE KALEAK, SR., WHALING CO-CAPTAIN AND MEMBER, 
               NATIVE VILLAGE OF KAKTOVIK COUNCIL

    Mr. Kaleak. Hello. I welcome every one of you. Mayor 
Ahmaogak.
    Thanks for letting me speak today. My name is George 
Kaleak, Sr.
    I welcome you to my country, the country of my people who 
discovered this place thousands of years ago, settled here, 
protected, have never given it to anyone. This is our place, 
the place that defines us as Native people. The place that 
makes us whole.
    We are at least as much a part of it as the caribou and the 
snow geese, except we do not migrate as they do. We use all of 
this country that drains into the Arctic Ocean. There is no 
place on the Arctic Slope that does not bear our footprints. No 
place.
    We have never been everywhere gathering food, visiting both 
the living and the spirits of those passed. All who reside 
forever here with us in this vast home of the Inupiat, if it 
seems empty to you, you are just not looking, not seeing the 
real picture here.
    Don't be confused by these little houses we sometimes stay 
in here on Barter Island. We stay in them so our kids can go to 
school and so we can make the money we need to live the lives 
we want to live. Our home is far more than this little village. 
Our home is all our country, from the Brooks Range to the 
south, to many miles to sea.
    As you may have noticed, it is often not easy to tell just 
what is the land and what is sea, where the one ends and the 
other begins. We use it all, every inch of it. We have to use 
it all as we have always done, otherwise we could not survive 
here.
    People talk lots about jobs, jobs are important to 
everyone. Their importance to us is probably different than 
their importance to others. Jobs for our people give us money, 
and we need to live off this country of ours.
    Today it takes money to harvest the resource of land and 
sea. Years ago before they found oil at Prudhoe Bay, many 
people had so little money they could not afford the boats or 
guns or anything else they needed to harvest the food they 
need.
    Some lived on the very edge of starvation, begging for food 
from those who did have the means to gather it. Those were 
wretched times, indeed. There have not been a lot of good times 
here until recently.
    We see lots of people with romantic ideas about the past, 
people who think it would be nice to live the way we used to 
live--indeed, that we should live that way. That there is 
something wrong with the way we live now.
    Let me assure you that nobody ever lived that way or--at or 
over the edge of starvation would say that. That is not a good 
place to be.
    The income most of us have now have allowed us to buy the 
tools we need to harvest the land, the sea, to find delivery of 
the native food that we crave, the only food that can really 
sustain people like us.
    It also gives us the leisure that every civilization needs 
to have a decent culture. Among other things, the new revenue 
generated from our underground resources have created a great--
greatly enriched cultural life for the Inupiat.
    We dance more and sing more and have much better times than 
ever before. We speak our language more even have it taught in 
our schools. In those good old days, our people were beaten for 
speaking our language. In those days, outsiders ran the North 
Slope and told us what to do.
    It's not that way anymore, we run our own affairs. We 
control our lives. We send our kids off to Harvard or Norway, 
if that pleases them. We can afford to do that.
    And we can afford to go to sea and catch a big black whale 
that gives himself to us. We catch them and thank them and then 
bring them home and eat them as they wanted us to do.
    We go out in weather like this and look for wolves and 
wolverines and great bears. And we catch the ones who want us 
to catch them and make all kinds of beautiful things from them, 
as they wanted us to do.
    We catch a fish and the musk-oxen and the white sheep in 
the mountains and the caribou and the snow geese and the ducks 
who come to visit, who come here to give themselves to us, and 
we eat them as they wanted us to do.
    We can do all that because we have the means now to do it, 
and the time to dance and sing and talk in our own language 
about what we want to happen here.
    Here in these lands that matter more to us than anyone from 
any other place could ever imagine for reasons beyond us, some 
people want to take that from us, take our food from our 
tables, the tools we need to get that food, the joy we now have 
from being able to dance and sing and tell stories in our own 
language.
    Maybe these strange people don't like the sounds of our 
drums, which really is the beats of our hearts. That seems to 
think--they seem to think this place is empty, a wilderness, a 
place without people, or they want to make it that way, the 
drums of its people seem--seem to bother them. They want all 
that to go away.
    It will not. In the end we shall be here, and these 
strangers will go back to where they came from, whatever anyone 
calls it, these homelands, these homelands of the Inupiat will 
never be a wilderness. Thank you.
    [The prepared statement of Mr. Kaleak follows:]

   Statement of George Kaleak, Whaling Co-Captain and Member, Native 
                      Village of Kaktovik Council

    My name is George Kaleak, Sr. I welcome you to my country, the 
country of my people, who discovered this place thousands of years ago, 
settled here, protected it have never given it to anyone. This is our 
place, the place that defines us as a Native people, the place that 
makes us whole. We are at least as much a part of it as the caribou and 
the snow geese. . . except we do not migrate as they do.
    We use all of this country that drains into the Arctic Ocean. There 
is no place on the Arctic Slope that does not bear our footprints. No 
place. We have been everywhere, gathering food, visiting both the 
living and the spirits of those passed, all who reside forever here 
with us in this vast home of the Inupiat. If it seems empty to you, you 
are just not looking, not seeing the real picture here.
    Don't be confused by these little houses we sometimes stay inhere 
on Barter Island. We stay in them so our kids can go to school, and so 
we can make the money we need to live the lives we want to live. Our 
home is far more than this little village. Our home is all of our 
country, from the Brooks Range to the south to many miles to sea. As 
you may have noticed, it is often not easy to tell just what is land 
and what is sea, where the one ends and the other begins. We use it 
all, every inch of it. We have to use it all, as we have always done. 
Otherwise, we could not survive here.
    People talk a lot about jobs. Jobs are important to everyone. Their 
importance to us is probably different from their importance to others. 
Jobs for our people give us the money we need to live off this country 
of ours. Today it takes money to harvest the resources of the land and 
the sea- Years ago, before they found oil at Prudhoe Bay, many people 
had so little money they could not afford the boats or guns or anything 
else they needed to harvest the food they needed. Some lived on the 
very edge of starvation, begging food from those who did have the means 
to gather it. Those were wretched times. Indeed, there have not been a 
lot of good tunes here, not until recently.
    We see lots of people with romantic ideas about the past, people 
who think it would be nice to live the way we used to live, indeed, 
that we should live that way, that there is something wrong with the 
way we live now. Let me assure you that nobody who ever live that way, 
at or over the edge of starvation, would say that. That is not a good 
place to be.
    The income most of us now have allows us to buy the tools we need 
to harvest the land and the sea, to find and deliver the Native food 
that we crave, the only food that can really sustain people like us- It 
also gives us the leisure that every civilization needs to have a 
decent culture. Among other things, the new revenues generated from our 
underground resources have created a greatly enriched cultural life for 
the Inupiat. We dance more and sing more and have a much better time 
than ever before. We speak our language more, even have it taught in 
our schools. In those ``good old days'', our people were beaten for 
speaking our language. In those days outsiders ran the North Slope and 
told us what to do. It is not that way anymore. We run our own affairs. 
We control our lives. We send our kids off to Harvard or Norway, if 
that pleases them. We can afford to do that.
    And we can afford to go to sea and catch the big black whales that 
give themselves to us. We catch them and thank them and then bring them 
home and eat them, as they wanted us to do.
    We go out in weather like this and look for wolves and wolverine 
and great bears and we catch the ones who want us to catch them and we 
make all kinds of beautiful things from them, as they wanted us to do.
    We catch the fish and the muskoxen and the white sheep in the 
mountains and the caribou aud the snow geese and the ducks who cone to 
visit, who come here to give themselves to us, and we eat them, as they 
wanted us to do.
    We can do all that because we have the means now to do it. And the 
time to dance acid sing and talk in our own language about what we want 
to happen here, here in these lands that matter more to us than anyone 
from any other place could ever imagine.
    For reasons beyond us, some people want to take that from us, take 
our food from our tables, the tools we need to get that food, the joy 
we now have from being able to dance and sing and tell stories in our 
own language. Maybe these strange people don't like the sound of our 
drums, which really is the beat of our hearts. They seem to think this 
place is empty, a wilderness, a place without people. Or they want to 
make it that way. The drums of its people seem bother them. They want 
all that to go away.
    It will not. In the end, we shall be here and these strangers will 
go back where they came from. Whatever anyone calls it, these homelands 
of the Inupiat will never be a wilderness.
                                 ______
                                 
    The Chairman. Thank you. Mr. Aishanna.
    Mr. Aishanna. Aishanna.
    The Chairman. You can give your testimony.

 STATEMENT OF HERMAN AISHANNA, CITY COUNCIL MEMBER AND FORMER 
                    MAYOR, KAKTOVIK, ALASKA

    Mr. Aishanna. Chairman Pombo, I welcome you to Kaktovik. 
Governor. Our good Mayor Ahmaogak. And the rest of the people 
that are visiting.
    My name is Herman Aishanna. Some of the people know me, I 
guess. I've been around. I would like to say this is my home. 
It's a little village by the side of the sea we call Kaktovik 
is my home. Our home. We have about pretty close to 300 people 
living here.
    And all the lands that drains in the Arctic Ocean, we 
consider it as our home. Where we harvest food for our people. 
And all the way down to the ocean, as far as our little skiffs 
can take us out safely. 30, sometimes more than 30 miles out 
and come back. It's sometimes kind of dangerous to live here, 
but I'm proud to be Kaktovikmiut.
    My family is here, most of our families. We have a lot of 
grandchildren growing up right now.
    And look at this young lady right here. She's up there. 
She's in school. And that's what we want. Some people want ANWR 
to open, to help the education, get it funded more so these 
people can finish their education.
    And it's been awhile since I testified in front of you. 
That was in Anchorage quite awhile back, since Governor Hickel. 
Governor Hickel was my buddy then.
    I'm just trying to highlight some of my written testimony.
    We are glad that you're here, and I know that you came here 
to listen to the people that actually live in Kaktovik. And I 
thank--thank you for coming, coming up here.
    And this debate about ANWR has been going on--I don't know. 
If they had opened it when we first started, it would have been 
flowing already.
    Anyway, my corporation here actually has 92,000 acres of 
its own up here. And Congress is holding it from being 
developed anyway. And that is they're depriving my corporation 
from economic development. I want you to understand that.
    We are trying to be blocked out by people from so many 
miles away. The people that are not living here, the 1002 area 
is not a very beautiful place this time of the year, especially 
when the wind is blowing and the snow is--snow is blowing.
    The only time some people visit is in the summertime and 
everything blooms. And I would like to see some people that 
think that it's beautiful. It's not very beautiful in the 
wintertime.
    I will--I will submit this written statement. And also, I 
have a Resolution 303-02, a resolution with respect to lands 
use occupied and truthfully harvested by the people of Kaktovik 
will be included in my written testimony.
    As for--as for the wilderness, for any who think they can 
make this rich and fully peopled country of the Kaktovikmiut 
into a wilderness, they should be aware not only that we, the 
living, are here, but also that the spirits of our people since 
time immemorial are here.
    No matter how blind, no matter what anyone wants to a 
wilderness, and it will never be a wilderness. This country has 
a people and today, you are looking at them.
    Thank you.
    [the statement of Mr. Aishanna follows:]

       Statement of Herman Aishanna, Whaling Captain and Member, 
                Kaktovik City Council, Kaktovik, Alaska

    My name is Herman Aishanna. This is my home, this little village by 
the sea that we call Kaktovik--and all the lands that drain into the 
Arctic Ocean--and all of that ocean as far out into it as we can get 
our little boats and return safely--sometimes even beyond that. Our 
people have often perished as they tried to provide for themselves and 
their children in this dangerous country that is our home. Their 
spirits and those of all the rest who have gone before us remain among 
us, certifying that this is Inupiat country, now and forever, as it has 
been for thousands of years.
    I welcome you to this place, these homelands of our people. With 
all due respect this visit is long overdue. For more years than I can 
remember we have debated the opening of the 1002 to oil and gas 
development. I have testified myself all over the place, even to this 
Committee once in Anchorage. We have lots of visitors coming here not 
so much to listen to us as to say they have been here, that they have 
seen the 1002 and talked with us. We know they do not listen because 
they do things we told them not to do. We know they do not listen to us 
because we see them telling people how we feel about this, and they get 
it all wrong.
    That is why we are so happy to see you here today, to have this 
chance to tell you what we think about this oil and gas thing, about 
what we think should be done here on this precious country that defines 
us as a Native people. We know you have not come just to tell people 
you have been here. We know you have not come here to hear people from 
someplace else. We know you have come to listen to us, to hear what we 
have to say. We know you will not rush away, before you have heard us. 
We know you will hear and respect our words. Otherwise, why would you 
have gone to all this trouble?
    One thing I want to make very clear. We seldom borrow the views of 
others. We do not parrot their words. We are not part of some outside 
point of view. We have our own views and our own concerns. We are not 
part of some team with some agenda that make no sense to us. Although 
we have said it many times in many places, I am sure many will be 
surprised to learn that we are neither for nor against oil and gas 
development east of the Canning River. Our position is far more 
sensible than that.
    Indeed, we wonder how anyone could be for or against something they 
do not know or understand. Nobody knows what oil and gas development 
east of the Canning will mean. Nobody has yet defined it.
    On the other hand, we do have a great deal of knowledge of this 
industry. The one thing we know about it is that they will do what they 
are required to do. We also know that if they are properly controlled, 
they need do very little harm. And so our position is a simple one. 
They can work here if they do things the way they should. To assure 
they do that, we have asked to be right in the middle of it, to help 
those who come here to find oil do it right and to help those assigned 
to protect this country make sure that they do do it right.
    We have said this over and over again. We have said that this can 
be done if it is done right. We know it can be done right. To see to 
that, we want to be right on the cutting edge. We Inupiat are not a 
passive people. When the whalers came, we took every advantage of them 
we could. We picked and chose what we wanted from them. That is the way 
it has to be here.
    This Committee has the language we want to see in any bill that may 
open the 1002 to oil and gas development. Our attorneys have given it 
to you. Give us that language, give us that chance to protect our 
people and our country, and we will be there to help you.
    Those who know me know I have hardly ever threatened anyone. I am a 
peaceful man. My people are peaceful people. But you may note that 
nobody has ever us displaced here. Let me assure you nobody ever will.
    For any who think they can make this rich and fully peopled country 
of the Kaktovikmiut into a wilderness, they should be aware not only 
that we the living are here but also that the spirits of our people 
since time immemorial are here. No matter how blind, no matter what 
anyone wants to call it, this country is hardly a wilderness--and it 
will never be a wilderness. This country has a people and today you are 
looking right at them.
                                 ______
                                 
    The Chairman. Thank you, sir. Ms. VanHatten.

            STATEMENT OF MORGAN VANHATTEN, STUDENT, 
               KAVEOLOOK SCHOOL, KAKTOVIK, ALASKA

    Ms. VanHatten. Hello. My name is Morgan VanHatten and I'm 
the student body president at my school. I would like to start 
off by thanking all of you for being here to discuss this 
important issue about the 1002 plans.
    Personally, I think that ANWR should be opened because I 
think that our community would benefit greatly from it. I also 
support the decision that we, Kaktovik, need to make sure that 
we get the support and acknowledgment that we deserve as a 
community, especially during this time.
    And if oil development does occur, then the Kaktovik people 
need to be involved because it is us who know the land the 
best.
    It's also important that people around the country, as well 
as yourselves, know that we are a community that use the land 
around us for everyday purposes and we care just as much about 
what happens and only want to see the best.
    It's our responsibility to look out for the interests in 
our community, rather than a person who is trying to take over 
what is ours.
    I hope that all of you see that whatever happens here, 
whether ANWR opens or not, that we need to have a say and take 
part in the decisionmaking.
    And in addition to that, there was an article written by 
the Mayor of Nuiqsut saying that oil drilling does threaten 
native ways, and I think that's what could happen here if our 
language isn't put into the bill.
    And I think that if oil drilling does occur and Kaktovik 
doesn't have a say, then it will threaten our native ways. And 
I want to make sure that that gets put into it because I don't 
think that happened with Nuiqsut, and I think that's where it 
went wrong there.
    And I would like this tape, In This Place, to be part of my 
testimony also. The video. That's all. Thank you.
    [The prepared statement of Ms. VanHatten follows:]

       Statement of Morgan VanHatten, Student, Kaveolook School, 
                            Kaktovik, Alaska

    Hello, my name is Morgan VanHatten and I'm the students body 
president at my school. I would like to start off by thanking all of 
you for being here to discuss this important issue about the 1002 
plans. Personally I think that ANWR should be opened because I think 
that we as a community would benefit greatly from it. I also support 
the decision that we, Kaktovik need to make sure that we get the 
support and acknowledgment that we deserve as a community, especially 
during this time. If oil development does occur, then the Kaktovik 
people need to be involved because it is us who know the land best. 
It's also important the other people around the country as well as 
yourselves know that we are a community that use the land around us for 
everyday purposes and we care just as much about what happens and only 
want to see the best. It's our responsibility to look out for the 
interest in our community rather than a person who's trying to take 
over what is ours. I hope all of you see that whatever happens here, 
whether ANWR opens or not that we need to have a say and take part in 
the decision making. Thank you.
                                 ______
                                 
    The Chairman. Without objection, it will be included in the 
record. Thank you.
    [The video has been retained in the Committee's official 
files.]
    The Chairman. Mr. Akootchook.

  STATEMENT OF REVEREND ISAAC AKOOTCHOOK, PRESIDENT, KAKTOVIK 
                NATIVE VILLAGE, KAKTOVIK, ALASKA

    Mr. Akootchook. My name is Isaac Akootchook. Born in 
Kaktovik 1922, and I still live here.
    Welcome Governor, and senators from Outside, to see this, 
our place. I say this in English for a little bit, so you 
understand me.
    (Spoke in native language.).
    The Interpreter. He would like to thank you for being here, 
and he would like to speak to the ANWR that you want to testify 
for ANWR today, in front of you.
    Mr. Akootchook. (Spoke in native language.).
    The Interpreter. You may want to help me, George, a little 
bit with that because I'm not too familiar with the area where 
the Demarcation is, but he wants to allude you to the areas 
where they have grown up and known as the Federal lands that 
are near the Demarcation.
    Mr. Tagarook. The imaginary line we see on the map, Alaska 
USA and Canada. The Demarcation.
    The Interpreter. He wants to speak to those lands. Near the 
Demarcation where between Canada and US.
    The Chairman. OK.
    Mr. Akootchook. (Spoke in native language.).
    The Interpreter. He does not want to see this land to be 
put into wilderness area so that this land can also be used for 
the young generations to come, so that they will be able to 
utilize this land.
    Mr. Akootchook. (Spoke in native language.).
    The Interpreter. His fathers before him have used this 
area, and that near the runway, there are some old remains 
where their forefathers have lived before.
    Mr. Akootchook. (Spoke in native language.).
    The Interpreter. Their forefathers before them that have 
been here have known this and have handed these hunting areas 
down to them. He's speaking for himself, so the generations 
before him, his forefathers, have used this area, and then he's 
glad that you are here to be able to listen to him.
    Mr. Akootchook. (Spoke in native language.).
    The Interpreter. And he's also thankful that you're here, 
that you're able to listen firsthand, that when it's time to 
vote on this issue, that you've come here to listen to the 
concerns that everybody needs to be heard.
    Mr. Akootchook. (Spoke in native language.).
    The Interpreter. He also wants to be able to work with the 
industry and that so that it does not harm their way of life, 
and that it should be worked to a point where everybody can 
live harmoniously together with the industry and the people 
that lives here in the community, and thanks the people that 
are listening and that are able to help them to get this far.
    Mr. Akootchook. (Spoke in native language.).
    The Interpreter. Thank you, he said.
    [the statement of Mr. Akootchook follows:]

  Statement of Isaac Akootchook, President, Kaktovik Native Village, 
                            Kaktovik, Alaska

    My name is Isaac Akootchook. I am the Reverend at the Kaktovik 
Presbyterian Church. I'm 81 years old and I am a life-,long resident of 
the North Slope of Alaska and as such have traveled by dog sled in my 
younger days, because that was the only mode of transportation at that 
time. I have served on the Kaktovik City Council and have been Mayor of 
Kaktovik. Currently, I am President of. the Native Village of Kaktovik.
    I love this land and as I have stated in the Kaktovik video, I 
believe that man was put on this earth to use the land. If anything 
happens here in our homelands; then we need to be involved. I want this 
place to be a useful place for my children and grandchildren and great-
grandchildren.
    I wish to speak about the land and the people and how we fit 
together to make this place our home. The land and the people and the 
animals are all important and we want to take care of this land the 
best way we know how.
    I thank you for the opportunity to speak here in my home about the 
things. that affect my life directly. We appreciate the chance to have 
our voices heard.
                                 ______
                                 
    The Chairman. I thank you very much. Thank all the panel 
for their testimony.
    I would like to ask Mr. Akootchook a couple of questions, 
if I may.
    Your people, your forefathers, have been here for many, 
many years. Did they always hunt with snow machines and rifles 
and did they live in heated buildings like this?
    Mr. Akootchook. When I grown up, when I grown up, when we 
have no electricity, at all. And just use driftwood and a sod 
house. That's what we live when I was growing up.
    The Chairman. And you lived in this community?
    Mr. Akootchook. Same place, 1922 until today.
    The Chairman. The reason I ask you is that one of the 
things that continually comes up, the opponents of any kind of 
development here talk about wanting things to be the way that 
they always were, and wanting to maintain it in some kind of a 
natural setting.
    Since the day that your people came here, if it was 10,000 
years ago, 20,000 years ago, they changed this area, just being 
here. The first time they put up a house, the first time they 
built a fire, the first time that they hunted a caribou, they 
permanently changed this area. And I look at the young lady who 
testified and think about her future and how things would 
change for her.
    Would you say that it's for the betterment of you, your 
people, the next generation, to have development here?
    Mr. Akootchook. (Spoke in native language.).
    The Interpreter. From his--from the past, when they have 
lived, it has changed considerably from the time he is alluding 
to, from times past. It has changed very much.
    Mr. Akootchook. 1938 and '39. (Spoke in native language.).
    The Interpreter. He's alluding to the years that he just 
mentioned, 1939--
    Mr. Akootchook. '38.
    The Interpreter. '38, that in those years, their lives were 
in a state of starvation, where they didn't have too much. This 
was near the Colville area.
    Mr. Akootchook. (Spoke native language.).
    The Interpreter. In the 1940's, they moved from the 
Colville or the Kutchik area to Kaktovik, and they have 
remained here since.
    Mr. Akootchook. (Spoke in native language.).
    The Interpreter. He's very satisfied with the changes that 
now has occurred to up to date for that they are enjoying the 
heat in their homes, the schools, and also what the 
government--I think he's alluding to the North Slope Borough--
providing the necessary things that they are now enjoying. He's 
very happy with those changes.
    Mr. Akootchook. (Spoke in native language.).
    The Interpreter. And the education that the young folks 
have received, they now understand how to run the governments, 
they know how to run the schools, and they are very--are 
knowledgeable enough to run these things when they become of 
age.
    The Chairman. Thank you. And just finally, I ask Ms. 
VanHatten, obviously, this area is very important to you, and 
it's something you care about. Those of us that are here come 
in and go, you know, we'll fly in, we'll fly out. We'll be here 
for a few hours, some of us may never have the opportunity to 
come back here, but for you, you've got a little different 
perspective on that.
    If you would, what do you see as your future here? What 
would you--what would you like?
    Ms. VanHatten. I would like--well, I would want ANWR to 
open, I think. But if it did, I think that a lot more things 
would happen here, and everyone would get--everyone would just 
benefit from it.
    And I also would like to just see more young people taking 
part in the native ways, more people learning how to live off 
the land. As they said, we don't want to go back to the old 
ways, but we do want to preserve a lot of the old ways.
    And I would like to see the young people being able to take 
action in it and being able to take action in stuff like this 
because we are the future, we are the next generation. And I 
just hope to see that the young people take part in it and 
learn from everyone around us so that our community would 
benefit.
    The Chairman. Thank you. Thank you very much. Mr. Rehberg.
    Mr. Rehberg. Thank you, Mr. Chairman.
    I want to thank you for being with us today. And point out 
to you that President Clinton, in the closing days of his 
administration, created a new monument in the state of Montana, 
which is where I'm from, that included 81,000 acres of private 
property. 81,000 acres.
    So your acreage is at risk. And currently, there's a 
movement afoot to shut down snowmobiles in Yellowstone Park. So 
there could be an opportunity for them to come in because there 
are no promises in our form of government.
    Democracy is kind of ugly that way. We can promise you one 
thing today, but the next Congress hasn't made that same 
promise, so they can undo that and do something else.
    And so I think if you're adamant in your position, which I 
believe you ought to be, always watch what's going on down 
there because they can also eliminate your snowmobiles.
    Mr. Tagarook--am I pronouncing that correctly?
    Mr. Tagarook. Well, you can call me Ray, call me Jay.
    Mr. Rehberg. How about George? Can I call you George?
    Mr. Tagarook. Yes.
    Mr. Rehberg. You're the one that brought up your natives to 
the south. Now, are you speaking specifically of the Arctic 
Village, that area?
    Mr. Tagarook. Anybody south of the Brooks Range. The 
nonnative. Those who live there.
    Mr. Rehberg. I'm looking at a map that has Gwich'in 
historic oil leases. Is that some of them?
    Mr. Tagarook. Might be, yes. Could be considered LA, Lower 
Alaska.
    Mr. Rehberg. Is there enough--is there oil and gas 
production in--on their property?
    Mr. Tagarook. They did back in, I think, the early '70's.
    Mr. Rehberg. But not now?
    Mr. Tagarook. I have no idea. I think the interior, 
interior people are--explored for gas. But I don't know which 
tribe it is. Probably Tanana or Doyon.
    Mr. Rehberg. So you don't know if they are proponents for 
opening your area for oil production? You don't know if they 
have taken a position? Or do you believe that those that have 
an opportunity to have oil production on their property are in 
opposition to yours?
    Mr. Tagarook. Yeah, they are in opposition specific to take 
over their own lands that they want to develop, you know.
    Mr. Rehberg. They would like to develop their lands, but 
have they--
    Mr. Tagarook. I wouldn't have any opposition on that.
    Mr. Rehberg. OK. But have they taken a position on your--
    Mr. Tagarook. Yes. I'm not a village shareholder, I'm a 
shareholder from the Village of Barrow. So I can't speak for 
the corporation here.
    Mr. Rehberg. OK. I guess what I was trying to get at was as 
a point that you would like to see oil development on your 
property, but perhaps there's those that are south of here that 
don't want you to have oil production on your property, but do 
have oil production on their property.
    And I think it goes back to something you said that is 
extremely powerful and that is your U.S. Congress is keeping 
you from economic development, which, in fact, keeps you from 
economic opportunities.
    Mr. Tagarook. Yes.
    Mr. Rehberg. And I think that point needs to be made.
    Mr. Tagarook. Yes.
    Mr. Rehberg. Mr.--Herman. I apologize.
    Mr. Aishanna. You can call me Her Man, if you want.
    Mr. Rehberg. I'm getting there. Is there any corporation 
property that is outside of that 91,000 acres?
    Mr. Aishanna. 92.
    Mr. Rehberg. 92,000? Do you have a financial interest in 
any properties outside of that 92,000 acres? As a corporation?
    Mr. Aishanna. No.
    Mr. Rehberg. You don't. So it's all this little area around 
the community here. OK.
    Let me ask you, then, you support opening up. Do you--do 
you believe that there's any irreparable damage to the culture 
of your people or your animals by opening this property?
    Because that was the statement that was made by the 
opponents to opening it, there was irreparable damage to the 
culture of you and your wildlife. Do you believe that's a true 
statement?
    Mr. Aishanna. What we've been trying to work on is if it 
does open to development, Kaktovik would like to be at the 
table in the planning stages. And that way, we would like to 
minimize the impact, minimize the spoils. I'm pretty sure we 
can work things out.
    Mr. Rehberg. You can?
    Mr. Aishanna. Yes.
    Mr. Rehberg. So the benefits outweigh the potential change 
in your culture, similar to what Chairman Pombo was talking 
about where some of the change in your culture was changed by 
snow machines.
    Mr. Aishanna. They definitely have their own regulations, 
they have to follow every--every set of rules if they are going 
to work here. And we would like them to do everything they are 
supposed to do. Protect the environment.
    Mr. Rehberg. Well, just to clear up the record, then I'll 
stop with this, Mr. Chairman, there were statements made about 
the smoke at Prudhoe Bay. It all falls within the Clean Air 
Act.
    Mr. Aishanna. Pardon?
    Mr. Rehberg. It falls within the protections of the Clean 
Air Act.
    Mr. Aishanna. Yes.
    Mr. Rehberg. So I think that there's one thing our 
regulatory agencies are pretty good at is controlling business.
    Mr. Aishanna. Yeah.
    Mr. Rehberg. So I could perhaps alleviate some of your 
fears.
    Mr. Aishanna. I've been hearing a lot about new technology. 
And instead of spreading out everything all over the place, I 
think it can be centralized someplace, so it won't be--it won't 
be like a Christmas tree.
    Mr. Rehberg. Yes. Thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Renzi.
    Mr. Renzi. Thank you, Mr. Chairman.
    The Honorable Her Man. You have been a captain at the sea, 
you've fished these waters. The statement was made earlier that 
if we bring drilling and extracting oil from the land, that you 
won't be able to fish.
    You know the neighbors, you know how well these neighbors 
have been at Prudhoe Bay, if they have been good neighbors or 
not.
    Will you be able to fish if we are allowed to go on the 
Federal lands and extract the oil?
    Mr. Aishanna. On ANWR?
    Mr. Renzi. How would the oil--how would we taking oil out 
of ANWR affect your fishing? It's been stated that you--
    Mr. Aishanna. Probably people with big--big smarts.
    Mr. Renzi. Yeah.
    Mr. Aishanna. I wouldn't recommend they go through the 
ocean now.
    Mr. Renzi. Yeah. So you don't see it affecting your fishing 
at all, then? You don't see us drilling--
    Mr. Aishanna. No.
    Mr. Renzi. --on ANWR affecting your fishing, do you?
    Mr. Aishanna. No, I don't think the caribou is so blind 
they just run into a pipeline.
    Mr. Renzi. I've listened, Mr. Akootchook, to your 
testimony.
    The Interpreter. Akootchook.
    Mr. Renzi. Isaac. I'm the father of 12 children, seven boys 
and five girls. In Arizona, I thought I was Her Man. But one of 
the things that's interesting is that in your philosophy, you 
talk about how the earth and the land has been given to us to 
take care of. It's been given to us also to take the resources 
from and to use the land. The idea that the oil within the land 
also is a resource.
    If we set this up properly, if we give you the laws that 
allow you to require the best technology to be used, to require 
that we restore the land, and leave it, that we don't impact 
the wildlife, that studies be done, both from--from both sides, 
studies be looked at, is it your viewpoint that we should move 
forward and begin to use these resources, not just to leave 
them, lock people out from using them?
    Mr. Akootchook. (Spoke in native language.).
    The Interpreter. He believes in that philosophy that what 
was given to us should be utilized by all.
    Mr. Renzi. That's beautiful.
    Mr. Akootchook. (Spoke in native language.).
    The Interpreter. And we all understand that this will be 
for the benefit of all our people, and we are now, all of us 
are just talking about it and saying it, but it is something 
that when done right, can be to the benefit and for all the 
people.
    Mr. Renzi. Thank you. Morgan, in 20 years I want to come 
back and I believe you'll be the mayor. I also represent one of 
the largest Native American peoples of the United States, the 
Navajo people, the Grand Canyon, in Northern Arizona.
    I was able to learn that when we brought water into the 
Navajo lands that were dry, and they were able to grow a good 
cattle crop, they were able to grow their traditional corns, 
that that provided a--an economic impact, it provided monies 
that they were able to use to preserve the traditional ways of 
life, to preserve their languages, to hire more teachers, to 
teach their culture in their schools.
    So I leave you, as I know you are going to be a leader in 
the future, with the idea that if we are allowed to do this, 
that you take some of the monies and you use it to protect your 
heritage and your culture, and all the life, the traditions 
that you mention. And I appreciate your statement today. Thank 
you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Nunes.
    Mr. Nunes. Mr. Tagarook.
    Mr. Tagarook. Yes.
    Mr. Nunes. You were talking about the caribou. There's been 
some discussion about the caribou. Do you hunt caribou here?
    Mr. Tagarook. Yes, I do. I hunt both Porcupine and Arctic 
Central herd, yes.
    Mr. Nunes. OK. And can you explain to us, in your opinion, 
what would happen if you did develop some of this land for oil 
drilling, what would happen to the caribou?
    Mr. Tagarook. What would happen to the caribou? Well, I 
think the development and wildlife are coexistent, you know, 
they could co-exist together.
    The Porcupine caribou herd, like I said, is here 40, 45 
days a year. And when they go south to their wintering area, 
they have to cross a major highway, they cross a highway in 
Canada, some--some oil industry infrastructures, and the people 
there hunt them on roads and on the highways would have to take 
either a boat or a snow machine to go out and--to go out and 
get them.
    Mr. Nunes. Prudhoe Bay, in the area where the pipeline is 
now, what has the development there done to the caribou 
population? Or have you hunted in that area before?
    Mr. Tagarook. Not so much over by Prudhoe, no, just east of 
Prudhoe, you know, about 20 miles. I think it's a safe haven 
for the caribou because of the pipeline, the predators relief, 
mosquito relief, and I'm sure they will coexist.
    Mr. Nunes. So would you agree that some of the studies have 
shown that the caribou population has increased near the 
pipeline? Would that be a true statement?
    Mr. Tagarook. That could be a true statement with the facts 
and figures that I've been hearing. With the Central Arctic 
caribou, you know, they are less than 3,000, now they have 
multiplied fivefold. So--
    Mr. Nunes. So that's true--that's a true statement?
    Mr. Tagarook. That's a true statement.
    Mr. Nunes. Thank you. Mr. Kaleak?
    Mr. Kaleak. Kaleak.
    Mr. Nunes. Kaleak. Do you also hunt caribou?
    Mr. Kaleak. Yes.
    Mr. Nunes. And do you fish?
    Mr. Kaleak. I fish. Whale.
    Mr. Nunes. Whale. What would this potential development do 
to your hunting, fishing? Would it hurt it? Would it help?
    Mr. Kaleak. No. I don't think it would have an impact.
    Only, the only thing I would be worried about is the 
stipulations on hunting near an oil rig or a pipeline. If 
there's a way you can work around that, I mean, I'm all for it. 
And I know there's a way to work around that.
    Mr. Nunes. OK. OK. And maybe I can ask this to both of you 
because both of you snowmobile, I assume.
    Mr. Kaleak. Yes.
    Mr. Nunes. H.R. 770, which is better known as the Markey 
bill? Is that right?
    The Chairman. Yeah.
    Mr. Nunes. Are you aware that if this bill does pass, that 
snowmobiling would be banned and you guys would not be able to 
use your snowmobile?
    Mr. Kaleak. No, I wasn't aware of that.
    Mr. Nunes. And airplanes.
    Mr. Kaleak. No, I was not aware of that.
    Mr. Nunes. And I think that's something I was made aware of 
today that I find interesting.
    Mr. Kaleak. Until he mentioned it, before there was talk of 
deleting that.
    Mr. Nunes. So it would not be a good thing for snowmobiles 
to be banned in this area?
    Mr. Kaleak. No, that wouldn't. I mean, we depend on our 
snow machines, and iron dog, if you will. And our boats, we 
depend on all that to get our subsistence food to feed our 
children and our elders. And that's why everybody, almost 
everybody here has a snow machine so we can utilize that to go 
hunting.
    Mr. Nunes. I understand. Thank you very much. I have one 
quick question then I think my time is up.
    The Chairman. Go ahead, if you want to finish.
    Mr. Nunes. Mr. Isaac--
    The Interpreter. Akootchook.
    Mr. Nunes. Akootchook. I just want to thank you for being 
here today and testifying. And just for my background and a 
historical perspective, how many generations does your family 
go back, that you know of, in this area?
    Mr. Akootchook. I'm a grand, grand, grand, and third now.
    The Interpreter. Three. Third generation.
    Mr. Akootchook. My dad is beyond, four more and beyond from 
my father's side. But I don't know the name because I'm born in 
1922.
    The Interpreter. So four fathers before him have been here 
before him.
    Mr. Nunes. Four fathers?
    The Interpreter. Four fathers before him, have been here 
before him.
    Mr. Nunes. That you know of. Only that you know of.
    Mr. Akootchook. Just know my father, but my mom's side is 
grandma and granddad. I have a picture of them.
    Mr. Nunes. So many years. Thank you very much. Thank you 
all of you. And thank you, Mr. Chairman.
    The Chairman. Miss Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    I have been sitting here and listening very intently to 
everyone who is at the table, and I have to tell you, I 
represent a small island in the Pacific very much like this 
group of people here today.
    In fact, it's brought back many memories just to see you at 
a witness table here, from you, sir, 81 years old, to Morgan, a 
young student in high school. It is truly a cross section of 
the community.
    And in Guam, we were under the Spanish for many years, and 
then the United States, and just like you, many years ago, we 
didn't have a lot of opportunities. Now, we're a thriving U.S. 
Community where our young generation go on to colleges all over 
the United States and the world, and we're given opportunities 
that their forefathers would never have ever realized.
    We also have our own language, our own culture, and we're 
preserving it right along with progressing. So I truly am 
impressed.
    Morgan, you are such a beautiful young girl. Are there more 
like you here? Very beautiful.
    And I enjoyed hearing Reverend Isaac and his wealth of 
experience over the years, and he's truly a very respected 
person here in the community, you can tell from the audience.
    And of course, the others have been mayors, presidents of 
different councils, and so you have a lot of experience under 
your belt. So Mr. Chairman, we truly have a cross section of 
representation from this region.
    I wanted to ask one question, and I was very impressed with 
8 hours of snowmobiling to get here?
    Mr. Tagarook. From Deadhorse, yeah, 131 miles. 131.3 miles.
    Ms. Bordallo. That is awesome, sir.
    Mr. Tagarook. Do you want to go for a ride?
    Ms. Bordallo. I would love to do that. But I want to ask, 
are you the fireman? You're both Georges, right? Are you the 
fireman?
    Mr. Tagarook. Yes. I've been a fire chief for 20 years.
    Ms. Bordallo. All right. Now, I was just curious. You know, 
you said the water is solid. Water is scarce.
    Mr. Tagarook. It's pretty hard to fight fires at 40 below.
    Ms. Bordallo. I was going to say, how do you fight fires 
here if one occurs?
    Mr. Tagarook. You keep the fire truck inside the fire 
station where it's warm, the water is 70 degrees, and when you 
take it out at 40 below, the temperatures drop, you have to put 
the fire out really fast.
    Ms. Bordallo. So you really do have quite a bit of water on 
hand?
    Mr. Tagarook. Yeah. And when your hands get cold, you can 
squirt water inside your gloves and it will warm up your hands.
    Ms. Bordallo. Oh, I see. All right.
    All right. Now, to all of you here, the five of you, of 
course, the interpreter, what I'm gathering is that you want to 
open up this area for development, you want to know that it's 
environmentally safe, and you want a voice in it; is this 
correct?
    Mr. Tagarook. Yes.
    Mr. Akootchook. That's right.
    Ms. Bordallo. Thank you very much.
    Ms. VanHatten. Actually, I do want it to be open, but when 
they said that the chance that we can't use snow machines or 
our planes, I think--I don't think it should be open because 
our tradition and our culture is our first priority, and that's 
what needs to be--that's at the top of our priorities. And if 
that is threatened, then I don't think that they--
    The Chairman. If you--we're actually talking about two 
different bills. One would put it into the--under the 
Wilderness Act, and that would restrict your ability to do 
certain things within the wilderness area.
    Ms. VanHatten. OK. All right. I was unclear about that.
    The Chairman. The other bill is Mr. Young's bill, which is 
designed to open the area up for potential development. So it's 
two separate bills that we're actually taking testimony on.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    The Chairman. Senator.
    Senator Murkowski. Thank you, Mr. Chairman. And again, Mr. 
Akootchook, thank you for being here and speaking on behalf of 
the elders. And to you, Morgan, thank you for speaking on 
behalf of, as you say, the next generation.
    And as I look around the room and see all these--these 
young children and the babies and recognize that what we are 
doing today, conversations we're having, and ultimately the 
votes that happen 6,000 miles from here really affect your life 
tomorrow.
    And perhaps the reverend, in 20 years, might not be around 
to testify, but you'll be testifying and your children will be 
testifying. And this has been going on for 20 years now. So I 
think we're at that point where we need to stop just talking 
about it and figuring out what's going on.
    I think it was you, Mr. Tagarook, you mentioned that--I 
believe your statement was the environmentalists are making 
money off ANWR through, you mention, photographs and books, but 
the people who live here are not.
    Mr. Tagarook. Yes.
    Senator Murkowski. And that's a very, very telling 
statement because as we drove into Kaktovik from the airport, 
you've got a small community here, you've got a school, looks 
pretty nice, you've got a nice community center here.
    We've heard from you, Mr. Aishanna that you're a fisherman 
and there's a subsistence life-style that goes on here, but how 
are the residents of Kaktovik earning their living right now? 
What are the opportunities for you and for your children and 
for some of these babies that are here?
    Mr. Tagarook. It's seasonal construction like water and 
sewer projects that has been here for about 2 years now, we're 
on the third year. The borough has the municipal services, the 
water, sewer, the water drainage, the sewage pickup, they have 
the utilities, the maintenance of roads, airports, landfills.
    Some of the services that are funded by the borough through 
the Kaktovik infrastructure and the industry, the property 
taxes for the city, or the villages, and those are declining. 
And if we could get the NPR-A opening up, there will be some 
infrastructure attached on that, along with ANWR opening up, 
you know, boost the Canning River, it will help.
    Senator Murkowski. For the most part, then, the jobs that 
are here, the people that are in this room who have those jobs, 
are primarily borough related in some way?
    Mr. Tagarook. Some are borough related and the corporation, 
as well.
    Senator Murkowski. Corporation related.
    Mr. Tagarook. In the school district, I don't know about, 
10 percent borough, probably 60 percent, somewhere in there.
    Senator Murkowski. Let me ask you this, and I'll direct it 
both to you, Mr. Tagarook, as well as Mr. Akootchook. Before we 
saw oil development on the North Slope, and this is Prudhoe, 
this is going back to--to predating 1980, what--what was here 
in the community of Kaktovik? Did you have a school? Did you 
have a community center? Did you have a clinic? What was the 
community like before we had the resources from oil development 
up here?
    Mr. Akootchook. We started with our native village of 
Kaktovik, coming up--we have our words. (Spoke in native 
language.).
    The Interpreter. (Spoke in native language.)
    Mr. Akootchook. The Air Force.
    The Interpreter. Air Force was here.
    Mr. Akootchook. 19--1947, after the Second World War, the 
Air Force set up here patrolling back and forth.
    The Interpreter. There was no hospital, no school. There 
was no community center.
    The Chairman. Was there electricity?
    Mr. Akootchook. No electricity, no.
    The Chairman. No heat?
    Mr. Akootchook. North Slope Borough and Dew Line started, 
and that's what we have.
    The Interpreter. Then we got the heat, the heat to the 
city.
    Mr. Akootchook. We usually used driftwood--
    The Interpreter. Driftwood for heat.
    Mr. Akootchook. For heat.
    The Chairman. Driftwood?
    Mr. Akootchook. Would haul--haul wood and haul ice for 
water. That was the way we'd grown up.
    Senator Murkowski. And so until we had development, oil 
development off the North Slope, which was about 20 to 25 years 
ago, you had no electricity, you had no school.
    Mr. Akootchook. Maybe the electricity started maybe 
around--maybe just about--
    Senator Murkowski. Just about that time? So I think it was 
your testimony that--
    Mr. Aishanna. I think you forgot I was buying electricity 
from you for a while.
    Senator Murkowski. It's important to put this in context in 
terms of a time line, for these people up at this table, they 
come from states where in their state, they have had 
electricity for a hundred and some odd years. They have had 
water systems and sewer systems and schools and fire stations.
    And so what you have now has been brought about through oil 
development, and it has allowed you to have a quality of life 
that is, as all of you, I think you pointed out, it allows you 
the opportunity to--to speak your languages more often, sing 
more often, dance more often, and truly be part of the culture 
and tradition instead of, I think you used the term, Mr. 
Kaleak, it was a wretched world. It was a world of starvation. 
So we've come a long way in 25 years.
    Mr. Akootchook. Yes.
    Mr. Aishanna. 30 years.
    Senator Murkowski. 30 years. Mr. Aishanna, you mentioned 
something in your testimony, and I'm going to take your 
testimony back to Washington, D.C. and make sure that it's 
entered in the record back there.
    Because you state that you're neither for oil or gas 
development, your position is far more sensible than that, and 
you say I want--we wonder how anyone could be for or against 
something they do not know or understand. Nobody knows yet what 
oil and gas development east of the Canning would mean, nobody 
has yet defined it.
    And yet we're dealing with people in Washington, D.C. who 
will never know this area, they will not understand what it 
means to you, and what you're asking for is to have it 
developed responsibly, and have the input that Morgan has 
suggested, that you've all suggested.
    So your words are very, very compelling. And I appreciate 
the thought that was put into them.
    Mr. Aishanna. Yeah. A lot when I was back there, a lot of 
people from all over the world that came up to Kaktovik. And 
it's the same question all the time. Are you for or are you 
against.
    Senator Murkowski. And your response is?
    Mr. Aishanna. I haven't made up my mind yet.
    Senator Murkowski. But you're going to keep an eye on it?
    Mr. Aishanna. Yeah, I'm not jumping to conclusions right 
away. I want to check them out first.
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Akootchook. Mr. Chairman, could we say one more before 
we close up? Because I think these here are up to me. And I 
heard something about the Skidoo travel.
    We would oppose that because they are not going to go 
hunting without Skidoos, you know. Back and forth from 70, 80 
miles up. We have to look at it more.
    So we used--we work with the wildlife people, we have Fish 
& Wildlife up here, and those people. We always come together, 
we talk about lot those things.
    The Interpreter. He wanted me to kind of elaborate, I know 
he's pretty hard on his English, but he really wanted to 
mention again before he closed that he would like to thank the 
panel here that's sitting with him and you folks.
    And that he wants to make it known again that he's very 
opposed to H.R. 772, which would designate the area, 
wilderness, which would prohibit the use of snow machines for 
travel and hunting. Because they are subsistence hunters, and 
that they really need to have the use of the land for travel by 
snow machine. And that they are opposing H.R. 772.
    Mr. Tagarook. Also, Mr. Pombo, before you close I want to 
add to the record the testimonies of Fenton Rexford, the 
Kaktovik Corporation, for the record.
    The Chairman. Without objection--
    Mr. Tagarook. And the testimony of Richard Glenn, from--the 
Vice-President of Arctic Slope Regional Corporation. And our In 
This Place documentary, Operational Guide For Those Wishing to 
Work in the Country of Kaktovikmiut, it's a working document. 
We have had it revised, but we haven't changed any of it yet, 
so...
    The Chairman. Without objection, they will be included in 
the record..
    [The prepared statement of Mr. Rexford follows:]

  Statement submitted for the record by Fenton O. Rexford, President, 
                      Kaktovik Inupiat Corporation

    Honorable Chairman Pombo, members of the Committee, thank you for 
allowing me to submit my written comments on H.R. 39 and H.R. 770 for 
the record. My name is Fenton Okomailak Rexford and I am the President 
of my village corporation Kaktovik Inupiat Corporation (KIC). KIC is 
the surface land titleholder to 92,000 acres of privately owned land 
within the Coastal Plain of the Arctic National Wildlife Refuge. On 
behalf of my Native corporation I write in support of H.R. 39 and in 
strong opposition to H.R. 770.
    I am a life-long resident of Kaktovik and I intend to grow old 
here. I can compare what life in Kaktovik was like prior to oil 
development on the North Slope to the quality of life we have today 
because of my personal experience. I am an elected official locally and 
regionally, and have held the office of President of KIC for 8 years. I 
have spent time listening to the people of Kaktovik and to the 
residents across the North Slope and the majority support responsible 
development of the Coastal Plain of ANWR. I have spent time educating 
Congress on this issue, with a considerable amount of my time consumed 
in Washington, D.C. I am very familiar with this issue and have been 
fighting the misrepresentations of the opposition for over 10 years. 
Therefore, I write with the institutional knowledge my people have 
about ANWR.
BACKGROUND
    Kaktovik Inupiat Corporation is an Alaska Native village 
corporation established through the 1971 Alaska Native Claims 
Settlement Act (ANCSA). Instead of emulating the Indian reservation 
system of the Lower 48, ANCSA intended to create organizations that 
provided an economic base for Alaska Natives. Thus, the State was 
divided into twelve regions, each with a regional corporation. Within 
each region ANCSA also provided the local villages with a corporation, 
and it was out of that structure KIC was born.
    The membership within KIC and its regional corporation, Arctic 
Slope Regional Corporation, are Inupiat Eskimos. KIC represents 110 
shareholders, while ASRC represents roughly eight thousand 
shareholders.
    Kaktovik Inupiat Corporation owns 92,000 acres of surface land 
within the Coastal Plain of ANWR. Our regional corporation, Arctic 
Slope Regional Corporation (ASRC), owns the subsurface rights to that 
land.
    The Inupiat people of Kaktovik use the lands in and around ANWR to 
support our traditional subsistence lifestyle. The land and sea are our 
gardens and we respect them. We subsist off of the land and sea. As 
such, we would not support responsible development if it adversely 
affected our Inupiaq traditional subsistence way of life.
H.R. 39
    On behalf of the KIC shareholders and the majority of the residents 
of Kaktovik, I write in support of H.R. 39. Responsible development of 
ANWR's Coastal Plain is a matter of self-determination for my people. 
It will enable the entire North Slope region to provide essential 
services taken for granted by people from the Lower 48, even places 
like urban Alaska. Responsible ANWR development means my people will 
have the ability to provide running water and flush toilets throughout 
the region, including Kaktovik. I grew up in the days of the ``quqtaq'' 
or pleasantly stated, ``honeybucket.'' For your information a 
honeybucket is usually a five-gallon bucket with a seat top attached 
provided to humans to release their waste. Once full, the bucket is 
carried from the bathroom, through the house and to the front door 
where a collection agent disposes of the waste. When the bucket is full 
there is always the possibility of spillage onto the floor. This 
increases the risk to our young children, especially our infants to 
serious illnesses caused by unsanitary living conditions. The luxury of 
a flush toilet and running water decreases our risk of exposure to 
health hazards such as hepatitis.
    Responsible development also means access to local health care 
facilities and professionals. Our region is vast and covers roughly 
89,000 square miles. With eight tiny villages within our region, the 
only access we have to a hospital is 360 air miles from Kaktovik to 
Barrow. The flight time to Barrow in a twin-engine 1900 Beechcraft is 
roughly 90 minutes, weather permitting. It is very expensive to travel 
to Barrow and often difficult for families to cover the costs in a 
village with little economy. Localized health care provides access for 
our people to receive medical attention for minor ailments. However, in 
the case of an emergency, the local health clinic is the first line of 
defense for containing damages, and at the very least they provide the 
triage necessary to sustain a patient until emergency transport 
arrives.
    Further, development of the Coastal Plain enables our community to 
sustain a local school. Growing up Kaktovik did not have a school after 
eighth grade and as a result, I attended high school at Chemawa Indian 
School in Oregon to receive my high school education. This was common 
practice for people of my generation in this region.
    Finally, responsible development will continue to provide search 
and rescue, police and fire protection for our North Slope communities. 
The weather conditions within the North Slope are harsh and at times 
life threatening. As we continue to practice our traditional 
subsistence lifestyle, we take comfort in knowing that if we are 
misguided in our journeys, our region has the capability of conducting 
search and rescue missions.
    We have seen Prudhoe Bay oil development evolve in the last 30 
years. My people also know industry and wildlife can coexist. For 
example, the Central Arctic Caribou herd, home to the Prudhoe Bay 
region, numbered around 3,000 in the 1960's. Today the population is 
thriving above and beyond 30,000. Recently caribou researchers have 
tracked caribou from that herd as far south within the hunting grounds 
of the Gwich'in of Arctic Village.
    My people have strong confidence in the North Slope Borough's 
ability to protect our natural wildlife environment and resources from 
adverse impact. I must state that local input is necessary to continue 
along this forward path.
    Responsible development of the Coastal Plain of ANWR is a matter of 
self-determination for the Inupiat. My people want to champion their 
own causes. Opening the Coastal Plain for development will allow that 
to happen. Otherwise, we will continue to be refugees on our own land.
H.R. 770
    KIC is strongly opposed to ``Wilderness'' designation of the 
Coastal Plain of ANWR. President Jimmy Carter acknowledged its 
potential and in his wisdom, did not authorize the Coastal Plain as 
Wilderness when signing ANILCA into law.
    Wilderness designation means zero growth for our community. If in 
twenty years our community chooses to connect itself to Prudhoe Bay 
through the construction of a road, we will not be able to do so 
because Kaktovik will be surrounded by Wilderness.
    Wilderness implies the area is untouched by man. Kaktovik is a 
village with a population of roughly 260 people. Long before any 
contact with the Western world my ancestors used this area to live, to 
exist. The United States government constructed DEWLine sites all along 
the Alaska's Coastal Plain during the cold war in an effort to detect 
oncoming attacks from the Russians. This area is far from untouched by 
man. Those statements are misleading.
    Wilderness designation will prohibit any type of economic growth 
for the community. If our residents were interested in providing any 
form of ecotourism or wilderness guiding, the Wilderness designation 
would prohibit our residents from providing such services in the 
Wilderness area. Since our community is surrounded by Federal land, 
Wilderness designation would prohibit ecotourism and guiding prospects 
outside the boundaries of our Native-owned lands.
    Couple the expensive travel to and from Kaktovik; a ban on road 
construction connecting Kaktovik to Prudhoe Bay; with zero opportunity 
for economic or community growth, we offer nothing to future 
generations.
    As a result of Prudhoe Bay development we are the last village on 
the North Slope to receive running water and flush toilets. The new 
village water and sewer line is currently under construction in 
Kaktovik. In order to sustain the maintenance and operation of this 
utilidor system, Kaktovik is in need of a stimulated local economy. If 
we cannot support this system we will have to revert back to unsanitary 
living conditions that pose a hazard to our health. Wilderness?!
    Education in Alaska, especially Kaktovik, is very important. We 
constantly encourage our children to do well in school, get an 
education and/or formal training so they are better equipped to compete 
in the labor market. As our children grow, attain an education and 
acquire skills, they need opportunities that foster healthy 
communities. Wilderness designation ensures zero growth potential for a 
community surrounded by Federal land; and thus, Kaktovik will not have 
the capacity to provide jobs for our residents including opportunities 
for our young people we so encouraged. Instead, our most educated and 
skilled residents will leave Kaktovik in search of other opportunities. 
Wilderness will be the beginning of the end of Kaktovik as we know it 
today. Rather than a healthy, thriving, educated, skilled community, 
Kaktovik will be a community on the population decline. Wilderness 
designation will suffocate our community into eventual extinction. 
Wilderness?!
CONCLUSION
    As you consider both H.R. 39 and H.R. 770, please understand that 
the Inupiat people of Kaktovik, North Slope, residents of Alaska and 
U.S. citizens support responsible development of ANWR. This is a matter 
of self-determination for my people. I ask that you consider the facts 
and disregard the comments intended to invoke emotion or mislead the 
public. So often we hear about the opposition misrepresenting the local 
opinion on ANWR. They would like you to believe the Inupiat do not 
exist and the only indigenous group affected by ANWR development will 
be the Gwich'in. The facts are the Inupiat people are indigenous to the 
area and have been for thousands of generations. Kaktovik is the only 
village within the entire 19.6 million acres of the Federally 
recognized boundaries of ANWR. The majority of Kaktovik residents favor 
H.R. 39 and oppose H.R. 770. We are the aboriginal environmentalists of 
the North Slope and have deep respect for the land and all its 
bounties. Therefore, we would not recommend development if it created 
adverse impact on our traditional subsistence lifestyle.
    Chairman Pombo, members of the Committee, I thank you from the 
bottom of my heart for holding this hearing in my hometown. I 
appreciate the fact you value our opinion and chose to conduct a 
hearing here. Quyanaqpak for all of your hard work, effort and time on 
this issue.
                                 ______
                                 
    [The prepared statement of Mr. Glenn follows:]

 Statement submitted for the record by Richard Glenn, Vice President, 
                   Arctic Slope Regional Corporation

    My name is Richard Glenn. I am the Vice President of Lands for 
Arctic Slope Regional Corporation (ASRC). I write on behalf of ASRC to 
offer testimony in support of H.R. 39, which would allow 
environmentally sound leasing of the Coastal Plain of the Arctic 
National Wildlife Refuge (ANWR) and remove the legal hindrances 
preventing the economic self-determination of the Inupiat Eskimos of 
Alaska's North Slope. I offer additional testimony of behalf of ASRC 
against H.R. 770, which would establish ``wilderness'' status for the 
Coastal Plain of ANWR, and shut down the rights of the Inupiat people 
to exercise economic self-determination on Native-owned lands in the 
ANWR Coastal Plain.
    ASRC is the Alaska Native-owned regional corporation representing 
the Inupiat Eskimos of Alaska's North Slope. ASRC owns surface and 
subsurface title to certain Alaskan North Slope lands. This ownership 
stems from an earlier claim of aboriginal title--covering the entire 
Alaskan North Slope--that was eventually settled in part by the Alaska 
Native Claims Settlement Act of 1971 (ANCSA). Under the terms of ANCSA, 
ASRC's land selection rights, which amounted to a small fraction of 
what was originally claimed as aboriginal title, were further limited 
by what at the timer were pre-existing state- and Federal-selected 
lands. ASRC lands now include the subsurface estate to 92,160 acres of 
lands within the 1.2 million-acre ANWR Coastal Plain. The ASRC-owned 
subsurface estate lies under and adjacent to the village of Kaktovik. 
The Kaktovik Native Village Corporation, KIC, holds the surface title 
to these same lands.
    More than eight thousand Inupiat Eskimos comprise the membership of 
ASRC, most of who live on the Coastal Plain of Alaska's North Slope in 
communities scattered from the Canadian border in the east to the 
Chukchi Sea in the west, covering an area about the size of the state 
of Minnesota. Our people live close to the land and sea and depend on 
the resources they provide, including caribou, fish, seabirds and 
marine mammals. In addition, we also depend on jobs, as today's 
subsistence lifestyle demands a mix of financial and traditional 
resources. As a result, the values of the ASRC membership reflect a 
balance of a need for economic self-determination and respect for the 
environment. This blend of development and stewardship is reflected in 
a core value statement of ASRC, which states that ASRC shall ``develop 
our lands and resources by means that respect Inupiat subsistence 
values and ensure proper care of the environment, habitat and 
wildlife.''
H.R. 39: A Balance of Stewardship and Responsible Development
    The Inupiat people have contributed to responsible North Slope oil 
and gas development. Thirty years ago, our people strongly opposed all 
forms of oil and gas exploration in our region. We feared it. With our 
regard for the environment in mind, we created strong permitting and 
zoning policies within our local borough municipal government. We were 
not complacent with oil development, we were--and still remain--
vigilant. In the face of strong local ordinances, oil industry 
exploration and development methods have improved over the last twenty-
five years. In fact, the North Slope oil and gas practices of today are 
the best examples of environmentally responsible hydrocarbon 
development. Industry practices in our region still are not perfect, 
and we remain vigilant, in an effort to continually improve their 
performance in our environment. We are confident that with the passage 
of House Resolution 39 and the appropriate level of local consultation 
and control, the Coastal Plain of ANWR, and the Native-owned lands 
contained therein, can be explored and developed in a way that protects 
natural resources for everyone.
Economic Self-Determination for Alaska's Inupiat People
    In northern and northwestern Alaska, there is no industry except 
for resource extraction. The land is too cold for agriculture, and too 
remote for refined manufactured products. In addition, the way of life 
in our rural communities has with time become a combination of 
subsistence and cash economies. Hence, our people are needful of both a 
healthy natural environment and access to gainful employment. Over 
time, we have assisted with the development of North Slope oil and gas 
resources through our own Native-owned oil field service company 
subsidiaries, which have employed and developed the skills of our 
people. In addition, we have made efforts to seek title to subsurface 
and surface lands, including the KIC lands acreage, that hold natural 
resource potential, that we might benefit from the oil and gas industry 
as a resource owner. As it now stands we are prevented from developing 
our Kaktovik-area lands due to Section 1003 of ANILCA. The exploration 
and development of the Coastal Plain of ANWR, including the KIC lands, 
then represents an issue of economic self-determination for our people.
    In addition, our local government and village residents realize 
great benefits from the sustained presence of the oil and gas industry 
on the North Slope. Because of the industry practices developed over 
time, our residents live in a land with few environmental hazards, and 
have begun to build in their communities infrastructure that is taken 
for granted in other parts of the country. Facilities for education, 
health care, police and fire protection, reliable power generation, and 
simple sanitation have all been initiated by the North Slope Borough, 
thanks to a revenue stream generated by the taxation of property 
including oilfield infrastructure. Our communities are cleaner and 
safer; our people are living longer and are less dependent on Federal 
assistance thanks to responsible North Slope oil and gas development.
Opposition to H.R. 770
    ASRC is opposed to ``wilderness'' designation for the Coastal Plain 
of ANWR. Establishing ``wilderness'' status for the Coastal Plain would 
permanently remove the Inupiat Eskimos' right to develop, should they 
choose to do so, their Native-owned lands. By attempting to create 
``wilderness'' out of the ANWR Coastal Plain, H.R. 770 would shut down 
the right of the Inupiat Eskimo people to do what they want on their 
own lands, and remove from them the promise of economic self-
determination that figured so prominently in the passage of the Alaska 
Native Claims Settlement Act of 1971 (ANCSA).
    In addition, as it now stands, the existing ``wilderness'' lands of 
ANWR are already the cause of problems regarding subsistence and other 
land uses for the residents of Kaktovik and our Inupiat Eskimo 
shareholders. Our belief is that more ``wilderness'' status would mean 
more problems. The Committee may not be aware that the setting aside of 
large swaths of land in the name of conservation often has dramatic 
unintended consequences on the subsistence and economic needs the 
people of our region. We have learned in many instances, ranging from 
the existing Arctic National Wildlife Refuge ``wilderness'' to the 
enclaves of ``Special Management Areas'' in the National Petroleum 
Reserve-Alaska to the Gates of the Arctic National Park, that set-aside 
areas are often unnecessarily limiting. On the ANWR Coastal Plain, like 
in other areas of the North Slope, an appropriate level of protection 
can be afforded to our caribou, fish, waterfowl and other animals by 
applying existing permitting rules and an earnest and reasonable 
consultative process for any exploration and development.
    ASRC thanks Chairman Pombo and the House Committee for its visit to 
Alaska's North Slope, and hopes that the voice of Alaska's Inupiat 
people will be heard and remembered when the Energy and Budget bills 
are debated in our nation's Capitol.
                                 ______
                                 
    [In This Place documentary, Operational Guide For Those 
Wishing to Work in the Country of Kaktovikmiut, has been 
retained in the Committee's official files.]
    Ms. VanHatten. I had a question. Is it OK?
    The Chairman. Yeah.
    Ms. VanHatten. Earlier, he, Mr. Rehberg, had made a 
statement that--
    The Chairman. Just call him Denny.
    Ms. VanHatten. --that many promises are made that aren't 
kept, that aren't able to be kept. How can we change that? How 
can--or why are promises continuing to be made about our 
traditions to be protected that you guys know that might not be 
kept? How can we--
    Mr. Rehberg. That's a very good question, and it's by being 
involved. They can't ignore you if you pay attention. Too many 
people help pass a law and they go, whew, got that taken care 
of. Now you don't need to pay attention anymore. When you're 
not looking, they are doing something.
    And you guys are all very involved, when you look around 
this room, and as long as you all remain as involved as you 
are, your interests will be considered and I think should take 
precedent in Congress.
    They really ought to be listening to you, and that point 
has been made over and over here, that we hope to take back 
your ideas, your concerns, your dreams, and your desire for a 
future for your people. And hope to help Mr. Young be a 
representative for you.
    Ms. VanHatten. OK. Thanks.
    The Chairman. Ms. Bordallo.
    Ms. Bordallo. I would like to comment on that same thought. 
In Guam, you know, during World War II, we asked for war 
reparations from our government, and to this day, we have not 
received it. You're looking at 55 years. And it has a lot to do 
with our own fault because we did not continually go back and 
air our concerns.
    And now, of course, we do have a commission set up and 
hopefully we'll be able to fund it and appoint the members, and 
maybe something will be done to take the atrocities that were 
committed with World War II and compensate our people for loss 
of land and other things.
    But you have to continue to be vigilant and you have to 
watch out for these things. You know, they are considering your 
future now, so just be sure that you have your voice and you 
have your input.
    The Chairman. Before we formally adjourn the hearing, I 
would like to invite the mayor of the North Slope Borough, Mr. 
George Ahmaogak. Mr. Mayor, if you want, you can just stand 
here. Use the microphone.

          STATEMENT OF MAYOR GEORGE AHMAOGAK, MAYOR, 
                      NORTH SLOPE BOROUGH

    Mr. Ahmaogak. I don't know if I'm going to need a mike. I'm 
so used to being in public service, I know how to talk loud.
    Thank you very much for this opportunity. We are biting at 
the bit to want to come up here and talk. And we are the 
residents of Kaktovik, giving that opportunity, to give their 
testimony while we're sitting in back patiently, allow them to 
finish.
    But first, I would like to thank Members of Congress here 
that came here to look these people in the eye, the residents, 
and to hear from them firsthand. And I think that makes a world 
of difference when you look people in the eye that you 
represent, as elected leaders that you are, like I am, you've 
got to look at these people and give them a chance to talk.
    And that's civility. That's part of public process. And for 
that, I commend you to let your ears hear exactly what these 
residents are trying to say, what their positions are, relative 
to 1002, and also the other bill that wants to designate ANWR 
as a wilderness. And I commend you for doing that.
    First, Mr. Chairman, members of the House Resources 
Committee, other Members of Congress, Congressional staffers, 
if there's any here, Senator Murkowski, thank you for coming. 
Governor Murkowski, we're glad to see you over here. Glad that 
you could come.
    Mayor Tagarook, I also would like to introduce you before I 
get started.
    We have another mayor, Mayor Edith Worsbrott (ph) 
representing the city of Barrow. Mayor. Mayor, welcome.
    Also welcome all, again, give my regards to the residents 
here of Kaktovik and this village.
    My name is George Ahmaogak, Senior. I'm the mayor of the 
North Slope Borough. I'm now serving my fifth term as being 
mayor. Each term is 3 years, so in my lifetime as being in 
public office, I've gone through a lot of oil and gas issues.
    But the North Slope Borough is our regional government for 
Northern Alaska. It is the Home Rule Government that was 
created in 1972 under the Constitution of the State of Alaska, 
as a home rule government.
    We have a total of 69 million acres of jurisdiction. We 
have eight villages, including with this Kaktovik that is here, 
including Prudhoe and the total population across it, we've 
been going as 10,000 to 12,000 people, so there's a lot of 
elbow room within our jurisdiction.
    I want to welcome you, all of you to the North Slope and to 
the community of Kaktovik. The people you'll meet in this 
village today have hosted many times dozens of congressional 
visits over the years, and hundreds of fact-finding missions by 
organizations of all kinds.
    They have kept a pretty good sense of humor through it all. 
And I think you'll find that they are still very friendly and 
welcoming people.
    I forgot to mention, excuse me, Mayor Lon Sonsalla. The 
former mayor. Lon Sonsalla, and now the current mayor, right? 
The current city mayor. Excuse me.
    I think for the Committee, it's important--
    (Applause.).
    [The prepared statement of Mr. Ahmaogak follows:]

    Statement of George N. Ahmaogak, Sr., Mayor, North Slope Borough

    Mr. Chairman, members of the House Resources Committee, other 
members of Congress, and Congressional staffers:
    My name is George Ahmaogak, Sr., and I am the Mayor of the North 
Slope Borough, which is the regional government for northern Alaska.
    I want to welcome you to the North Slope and to the community of 
Kaktovik. The people you will meet in this village today have hosted 
dozens of Congressional visits over the years and hundreds of fact-
finding missions by organizations of all kinds. They have kept a pretty 
good sense of humor through it all, and I think you'll find that 
they're still very friendly and welcoming people.
    It is important for you to realize that this village is the capital 
city of the Arctic National Wildlife Refuge. I know it sounds a little 
strange to talk about a community in the midst of a wildlife refuge. 
That's because there are really two ANWRs--the one you see in the ads 
by environmental organizations, and the one that extends about as far 
as you can see in every direction from here.
    The first ANWR is beautiful mountain scenery that seems to go on 
forever. It's a world of wildlife, a refuge from the noise and 
disruption of human community. Obviously, you are not in that ANWR at 
the moment.
    You are here in the second ANWR. It is tundra, and old military 
sites, and Eskimos who have lived and hunted and survived around here 
for thousands of years. You won't see this ANWR on the Sierra Club 
posters. That's because it's not really a refuge; it's a land of many 
uses. Those uses predate its designation as a refuge and, in some 
cases, predate the founding of the United States.
    This is Eskimo country. It has a thriving village whose residents 
work at local jobs and travel in all directions to hunt for caribou, 
bowhead whales and all the other animal species that have always 
sustained our people. This is the way we live. It is the nature of our 
culture, and nothing is going to change that.
    The Sierra Club would probably be happier if we stopped hunting and 
fishing. We'd be happier if they stopped floating down all the rivers 
in ANWR, disrupting the wildlife that we depend on. But we can all get 
along if we acknowledge two ANWRs and if we allow both to exist.
    That seems to be what Congress had in mind when it set aside the 
1002 area in ANILCA. It recognized that ANWR is huge--about the size of 
South Carolina--and that it contained more than just scenic resources. 
Twenty-three years ago, Congress understood that ANWR is big enough to 
accommodate undisturbed wilderness and human habitation and the 
possibility of oil development.
    Nothing has happened in this part of the world to revise that 
understanding. Here in the capital city of the Arctic National Wildlife 
Refuge, the reality of two ANWRs still exists. Nothing has changed out 
here on the multiple-use tundra. Nothing has been threatened in the 
scenic mountains of ANWR.
    Environmental groups have discovered over the years that Americans 
will donate to the cause of preserving ANWR. If people really 
understood that there are two ANWRs successfully coexisting--one of 
protected wilderness and one of human habitation and multiple uses--it 
might become more difficult for the Wilderness Society to raise money.
    So ANWR is pictured as caribou country. You'll never see a picture 
of this town in a fundraising ad about ANWR. That's because it's 
inconvenient when issues are not just black-and-white.
    ANWR is not a black-and-white issue. There is more than caribou and 
oil involved here. There are the subsistence and cultural needs of the 
Inupiat. There are the economic needs of people who live in the capital 
city of ANWR. There are the interests of private landowners, including 
the Native corporations that are responsible for helping to create 
local jobs.
    H.R. 770 ignores most of these concerns, and that is why the North 
Slope Borough opposes this bill. Declaring Kaktovik a wilderness area 
is like declaring Seattle or Atlanta or Washington, D.C., a wilderness 
area. It doesn't make sense, and it ignores reality.
    H.R. 770 pretends that there is only one ANWR, and it honors only 
wilderness. In that respect, it is offensive to the people who live 
here. They are as much a part of ANWR as the land and the caribou. The 
people of Kaktovik have a greater stake in the land and the caribou 
than any card-carrying member of Greenpeace. That's because our people 
depend on the subsistence value of this area for the health of their 
culture. Subsistence hunting and Inupiat culture cannot be separated. 
The culture depends on a subsistence way of life.
    H.R. 39 acknowledges the multiple interests in this part of ANWR. 
It recognizes the need for economic opportunity and cultural vitality 
for the people in one ANWR, and it preserves the wilderness values in 
the other. The North Slope Borough supports exploration and development 
of the Coastal Plain, as long as protections for subsistence, the 
environment and wildlife are included.
    H.R. 39 makes specific provision for impact assistance to affected 
communities. The bill's establishment of an impact aid fund is 
recognition that even careful development has impacts on the people and 
the lifestyle in the area. H.R. 39 sets up a mechanism for helping to 
deal with these economic, social and cultural impacts.
    The North Slope Borough expects to play an important role in 
monitoring and dealing with the effects of development. Our dependence 
on the land and wildlife gives us the incentive. Our zoning and 
permitting powers--as well as our regional health and safety services--
give us the tools. We will always watch over development to make sure 
it serves the historic interests of our people, along with the energy 
future of the nation.
    There is much more to say about the Inupiat perspective on ANWR. I 
want to yield the floor now to other speakers, but I will send the 
Committee an expanded version of these comments in the very near 
future.
    In conclusion, I ask that when you consider these bills and any 
other ANWR legislation, you remember that there are really two ANWRs, 
and there is room within these 19 million acres for both ANWRs to 
exist. ANWR is not just a battleground over caribou and oil--it's also 
home to real people with deep cultural roots here and the hope of a 
productive future for their children. Please talk with the people of 
Kaktovik while you're here today. They are the voice of ANWR.
    Enjoy your visit.
    Quyanaqpak.
                                 ______
                                 
    Mr. Ahmaogak. I think for the Committee it's important for 
you to realize that this village is the capital city of the 
Arctic National Wildlife Refuge.
    I know it sounds a little strange to talk about a community 
in the midst of the wildlife refuge. That's because there are 
actually two ANWRs. The one you see in the ad in the newspaper 
by environmental organizations, and the one that extends about 
as far as you can see in every direction from here.
    The first ANWR is beautiful mountain scenery that seems to 
go on forever. It's a world of wildlife, a refuge from noise 
and disruption of human community. Obviously, you are not in 
that ANWR at the moment, sitting here with us.
    You are here in the second ANWR. It is tundra. And the old 
decommissioned military site, which is just adjacent next door. 
And the Eskimo residents who have lived and hunted and survived 
around here for thousands of years.
    You won't see this ANWR on the Sierra Club poster. That's 
because it's not really a refuge. It is a land of multiple 
uses, of many uses. Has been for a long period of time. Those 
uses predate its designation as a refuge, and in some cases, 
predate the founding of the entire United States.
    This is Eskimo country. This is Inupiat country. It has a 
thriving village whose residents work at local jobs and travel 
in all directions to hunt for caribou. The bowhead subsistence 
whaling and all of their animal species that have always 
sustained our people. This is the way we live. It is the nature 
of our culture, and nothing is going to change any of that.
    The Sierra Club would have--probably be happier if we 
stopped hunting and fishing. We would be happier if they 
stopped floating down all the rivers in ANWR. Disrupting the 
wildlife that we depend on. But we can all get along if we 
acknowledge two ANWRs, and if we allow both to exist, coexist.
    That seems to be what Congress had in mind when it set 
aside the 1002 area in ANILCA. It recognized that ANWR is huge, 
about the size of South Carolina. And that it contained many 
more than just scenic resources.
    Years ago, Congress understood that Arctic National 
Wildlife Refuge is big enough to accommodate undisturbed 
wilderness and human habitation, and the possibility of oil 
development. Nothing has happened in this part of the world to 
revise that understanding.
    Here in the capital city right here, in the Arctic National 
Wildlife Refuge, the reality of two ANWRs still exists. Nothing 
has changed here on the multiple use tundra. Nothing has been 
threatened in the scenic mountains of ANWR.
    Environmental groups have discovered over the years that 
Americans will donate to the cause of preserving ANWR. If 
people really understood that there are two ANWRs, successfully 
coexisting, one a protected wilderness, and one of human 
habitation and multiple uses, it might become more difficult 
for the wilderness society to raise any money at all.
    So ANWR is pictured as a caribou country. You'll never see 
a picture of this town in a fund-raising ad about ANWR. They 
never have, they never will. That's because it's inconvenient 
when issues are not just black and white. ANWR is not a black 
and white issue. There is more than caribou and oil involved 
here.
    There are the subsistence and the cultural needs of the 
Inupiat. There are the economic needs of people who live in the 
capital city of ANWR. There are the interests of private 
landowners, including the native corporations, private 
corporations that are responsible to help in creating more 
jobs.
    H.R. 770 ignores most of all of these concerns. And that is 
why the North Slope Borough, the government that I represent, 
opposes this bill. H.R. 77. We oppose that bill. Declaring 
Kaktovik as a wilderness area is like declaring Seattle or 
Atlanta or Washington, D.C. as a wilderness area. It doesn't 
make any sense. And it really ignores a lot of reality.
    H.R. 770 pretends that there is only one ANWR, and it 
honors only wilderness. In that respect, it is offensive to the 
people who live here. They are as much a part of ANWR as the 
land and the caribou.
    The people of Kaktovik have a greater stake in the land and 
the caribou than any card-carrying member of Green Peace. 
That's because our people depend on the subsistence value of 
this area for the health of their culture.
    Subsistence hunting in Inupiat culture cannot be separated, 
no matter what. The culture depends on a subsistence way of 
life. We have to depend on that.
    Now to talk about H.R. 39. H.R. 39 acknowledges the 
multiple interests in this part of ANWR. It recognizes the need 
for economic opportunity and cultural vitality for the people 
of one ANWR. And it preserves the wilderness values in the 
other.
    The North Slope Borough, the municipal government, the 
regional government supports exploration and development of the 
Coastal Plains, as long as the protection for subsistence, the 
environment, and the wildlife are included. Amen to that.
    H.R. 39 makes specific provisions for impact assistance to 
affected communities. The bill's establishment of the Impact 
Aid Fund is recognition that even careful development has 
impact on the people and the life-style in this area. H.R. 39 
sets up a mechanism, language in that bill for helping to deal 
with each economic, social, and cultural impacts.
    The North Slope Borough, our regional government, expects 
to play an important role in monitoring and dealing with the 
effects of development. Our dependence on the land and wildlife 
gives us the incentive. Our zoning, permitting, land use, 
governmental powers, as well as our regional health and safety 
services, give us those tools.
    We will always watch over development to make sure it 
serves the historic interests of our people, along with the 
energy future of this nation.
    There is much more to say about Inupiat respect upon ANWR, 
and I'm glad we had an opportunity to hear the residents today.
    In the conclusion, I ask that when you consider these 
bills, and any other Arctic National Wildlife legislation, you 
remember that there are really two ANWRs, and there is room 
within this 19 million acres for both ANWRs to exist.
    ANWR is just not--is not just a battleground over caribou 
and oil, it's also the home of real people with deep cultural 
roots here, in the hope of a productive future for our 
children. You've heard that young lady talk today. And I'm glad 
that you're talking to the villagers of Kaktovik here today. 
These people are the voice of ANWR.
    Now, let me talk about North Slope Borough and the many 
questions, to answer a lot of questions that were raised, that 
you asked the panels.
    The North Slope Borough is a regional form of a government 
created as a home rule government under the Constitution of the 
State of Alaska. They gave us--in 1972, it was incorporated, 
and we were allowed to select within our jurisdiction 94 
million acres of land.
    The North Slope Borough is our tool, our municipal 
government for self-determination. That government was created 
right after the initial Alaska Native Claims Settlement Act in 
1971. Because we see the benefits of really taking a form of 
government as a tool to improve the quality of life for all of 
our residents in all of the eight villages.
    With our broad governmental powers of land use, zoning, 
permitting, coastal zone management, and the power of taxation, 
and the power of taxation, real property and personal property 
as the North Slope Borough exercises authority as a municipal 
government and tax the oil and gas industry, the Prudhoe Bay, 
the TransAlaska pipeline, Endicott, Kuparuk, now Alpine, and 
now NPR-A.
    But those funds that we tax went into major improvement of 
life for all of our residents across the whole North Slope. 
What you see in this village, we have hospitals, health aide 
clinics, we have police stations, we have water, sewer being 
constructed, we've got municipal services, we've got search and 
rescue.
    All of these government funded departments that we serve, 
serve our purpose and our residents here, and to improve the 
quality of life that we have. And we have done that since 1972 
by taxing the oil and gas industry.
    And we improved the standard of living for our people, 
something that we--everybody else across the whole Lower 58 
took for granted. We took that self-determination as our local 
government, and used our broad governmental powers to improve a 
lot of that.
    Unfortunately, at least at this stage, like one of the 
panelists, the Mayor of Kaktovik said, revenues are declining. 
That is a very true statement.
    Our municipality is projecting $30 million cuts in 6 years. 
For all of these services that we provide, including the 
education in the high school and middle school and elementary. 
We took the school district in our own hands as a self-
determination, away from the Borough of Indian Affairs.
    But that takes tax dollars, too, and by all of us and we 
may gain no services. 60 percent of the work force that you see 
in entirety in all of our eight villages are employed by the 
borough. And we depend on that oil money.
    And for me, that's why, at least the assembly, and me as 
being the mayor, support the opening of the 1002 area. That we 
need those future revenues to keep this life-style that we have 
created since 1972 and beyond. We don't want to go back to the 
old ways, go back in igloos.
    We want to continue the way that we're progressing, to keep 
our people, our young people educated, jobs for our residents, 
services for our residents, that everybody takes for granted in 
the whole Lower 48.
    And by God, they gave us that tool, the North Slope 
Borough. And we have successfully built all of this 
infrastructure, basic infrastructure in each and every one of 
our villages.
    Opening up 1002 will give us additional income. But I 
question whether, since there's overlapping jurisdictions, very 
important, that if we're going to allow for 1002 to be open, 
that the city of Kaktovik's concerns and their positions be 
taken very seriously, and including the North Slope Borough. 
You're going to have to need that.
    If you want to see environmental sound development, 
including the state of Alaska, you're going to have to see that 
form of partnership. We don't want this Federal supremacy rule 
all over us. Then you're going to really see some real problems 
that's going to happen if you allow that to happen.
    You need to involve the city of Kaktovik, you need to 
involve the North Slope Borough, you need to involve the tribal 
IRAs, the native corporations in the oil and gas industry.
    I think there's a lot of reports today from panelists, from 
Arctic Village mention the cumulative effects of oil and gas, 
the report that was done by the National Academy of Sciences, 
and they referred to that. I want to make a statement regarding 
that.
    I was a very much part of that whole process. In fact, they 
took my statements from the very text of that report. I think 
that report, like Senator Murkowski had said earlier, it's a 
tool to make things a lot better than what they were.
    The recommendations in that report came up to a couple of 
conclusions that I understand. If we are to have any oil and 
gas development, exploration development, then we need 
comprehensive planning.
    Second, we need to do research in the effects of oil and 
gas, social, human, cultural, and all those areas that need 
further research, to get that data, to verify that impact 
definitely happened.
    The third thing that needs to happen is that mitigation 
plans need to be set in place. Because once you disrupt the 
migration of the caribou, how do you mitigate that?
    Well, you can work with the city of Kaktovik, North Slope 
Borough, with our wildlife department, the community, and we 
can find ways and plan and mitigate those areas.
    The Chairman. I have to ask you to wrap up.
    Mr. Ahmaogak. OK. And I'm saying this right now. Use at 
least McCovey, which is our first offshore prospect that was 
drilled. That was a form of mitigation that we worked closely 
with that oil and gas exploration off shore.
    And there was mitigation made. In fact, we even got the oil 
and gas company to post the bond in the event of a major 
catastrophe of oil spill. But it was a mitigation of oil spill, 
that came from us and our demand. Tools like this.
    You have got to keep in mind we have been in the oil and 
gas business, municipality here for a long time. And I think 
it's time that at least Members of the Congress understands 
that. I think we can have sound oil field exploration and 
development, so long as we work with the city of Kaktovik, so 
long we work with the North Slope Borough, and all of the 
entities that are involved.
    I urge you to take that into full consideration. We can 
work with the oil and gas industry. There can be mitigations 
that can be had. We have done that successfully. But we 
definitely need the future revenues of the 1002 area.
    Now, the other thing that I wanted to mention, there were 
some questions also to the panelists about economic 
development, job opportunities, and so forth. I want to go back 
to Alaska Native Claims Settlement Act.
    And there was questions referencing economic development 
and oil potential of our private native corporation, Village of 
Kaktovik and Arctic Slope Regional Corporation, in 1972, 1971, 
when ANCSA was created, another piece of Federal legislation, 
it allowed ASRC, it allowed ASRC to select subsurface substate. 
It allowed Kaktovik to select surface substate.
    And I'll be darned, they connected, partnered up with 
Chevron and they put the first ever exploratory well that is 
just right located out here, and it's a commercial field.
    And this was self-determination under the Alaska Native 
Claims Settlement Act extinguishing aboriginal title. Congress 
deeded those titles over to the native corporations.
    Ironically, because of ANWR, the problem is that the native 
corporations are not allowed to develop that resource. Why? 
Here we're debating about ANWR. And here's a proven field, 
commercial field, private native interest that were deeded 
under the Alaska Native Claims Settlement Act, which should be 
allowed to be developed as private corporation. Dividends 
should flow.
    But no, ANWR legislation prohibits that. They have no room 
for any right-of-ways. How do you expect them to develop and 
transport that resource? In other words, you gave them the land 
claims, you gave them the right for self-determination, you 
gave them the right to select their birthright, then you told 
them that you can't develop.
    That's wrong. That is very wrong. They should be allowed to 
develop their land. It's their resources, it's private 
property, but the problem is that Federal legislation hinders 
that progress.
    And if 1002 area is not going to be opened, keep a careful 
eye on what that piece of Federal legislation that you pass, 
that you promised that you would give them self-determination, 
you gave them that land, but now they have got obstructions.
    I want you to keep in mind, I hate to go through land 
claims that tell me that I can't develop my land. The private 
sector. That's wrong. That was self-determination for 
extinguishing aboriginal rights on state land.
    And I think the corporations, the native corporations 
should be considered to be given right-of-way lands and the 
opportunity to develop that land.
    I don't know what Congress is going to do, but in the event 
that it fails, you better know that these people want to 
develop that resource. We would like to get jobs. We would like 
to bring it to market. But we have got barriers under the 
existing legislation.
    After all, land claims are land claims. You gave us that 
birthright. You gave us that resource. God gave us that 
resource to develop the 1002, in the event 1002 area does not 
get involved.
    I wanted to bring that to your attention. That was self-
determination under the Alaska Native Claims Settlement Act. 
Our birthright to select that land for extinguishing our 
aboriginal title.
    So with that, I wanted to clear up a lot of things, but as 
far as accumulative effects, and that report that was referred 
to by the first panelist, I get irate. Using that as a basis to 
go against development of 1002 area.
    There is some definite positive stuff with that report, 
yes, we are going to have to develop a comprehensive plan, and 
yes, if we get to 1002, we darn well better have a careful 
plan. Comprehensive plan to extract oil and gas. And that's 
what that report is focusing.
    Yes, there is going to be a battle plan, but how do we 
mitigate? How do we make financial resources available that the 
people of Kaktovik will want to have?
    And the bottom line is when I talk to the mayor, they want 
an impact office here in Kaktovik. And I hope part of the 
proceeds from ANWR oil and gas leasing funds this operation 
because they are going to need it.
    I could see in the event 1002 areas comes--opens up, you're 
going to see people moving into this community. You're going to 
see our schools bustling with new students. You're going to see 
water and sewer going up, you're going to see police going up, 
you're going to see medevac going up. Who is going to pay for 
those costs?
    That's why I'm saying impact funds could really offset a 
lot of that. Don't put the risk on the local community, nor the 
city of Kaktovik. We don't want that burden. You open up 1002, 
you put up the money to pay for those impacts. And that would 
be definitely needed by this community at the North Slope 
Borough.
    In the past, we have always paid a lot of the expenses of 
these impact areas on state lands and NPR-A, all state lands. 
But here that report is a comprehensive report, it's a good 
tool.
    So thank you very much. I'm going to end right here. But 
tonight, we welcome you to Barrow. Barrow is the seat of our 
government, and we will be hosting and honoring your presence 
here in Barrow and an Eskimo dance is waiting for you. Thank 
you very much.
    The Chairman. Before we adjourn the hearing--before we 
adjourn the hearing, I want to thank the members of my 
Committee for coming up here, Senator Murkowski, for coming up 
with us, the Governor for being here, all of the mayors, the 
Federal officials came up. I want to thank you.
    Most of all, I want to thank the people of Kaktovik for 
welcoming us in. One of the things that's extremely important 
to me is that the Committee take the time to hear what these 
local people think and what the impact is on them. So I 
appreciate a great deal all of you doing that.
    And I just conclude--conclude by saying that we will take 
back everything that we heard today, everything that we see in 
the next few days, take that back to Washington with us, and 
hopefully work with your representatives to represent the views 
that you have told us here today.
    So thank you very much, the hearing is adjourned.
    [Whereupon, at 2:52 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    [A letter from Hon. Edward Markey and Hon. Nancy Johnson, 
to Hon. Richard Pombo submitted for the record and Chairman 
Pombo's response follow:]

[GRAPHIC] [TIFF OMITTED] T6329.006

[GRAPHIC] [TIFF OMITTED] T6329.007

[GRAPHIC] [TIFF OMITTED] T6329.008


</pre></body></html>
